<html>
<title> - IDEA: WHAT'S GOOD FOR KIDS? WHAT WORKS FOR SCHOOLS?</title>
<body><pre>[Senate Hearing 107-363]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-363
 
          IDEA: WHAT'S GOOD FOR KIDS? WHAT WORKS FOR SCHOOLS?
=======================================================================


                                HEARING

                                 OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                                   ON

EXAMINING THE IMPLEMENTATION OF THE INDIVIDUALS WITH DISABILITIES ACT, 
                 AS IT APPLIES TO CHILDREN AND SCHOOLS

                               __________

                             MARCH 21, 2002

                               __________




 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions









                       U. S. GOVERNMENT PRINTING OFFICE
78-448                          WASHINGTON : 2002
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001









          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

               EDWARD M. KENNEDY, Massachusetts, Chairman

CHRISTOPHER J. DODD, Connecticut     JUDD GREGG, New Hampshire
TOM HARKIN, Iowa                     BILL FRIST, Tennessee
BARBARA A. MIKULSKI, Maryland        MICHAEL B. ENZI, Wyoming
JAMES M. JEFFORDS (I), Vermont       TIM HUTCHINSON, Arkansas
JEFF BINGAMAN, New Mexico            JOHN W. WARNER, Virginia
PAUL D. WELLSTONE, Minnesota         CHRISTOPHER S. BOND, Missouri
PATTY MURRAY, Washington             PAT ROBERTS, Kansas
JACK REED, Rhode Island              SUSAN M. COLLINS, Maine
JOHN EDWARDS, North Carolina         JEFF SESSIONS, Alabama
HILLARY RODHAM CLINTON, New York     MIKE DeWINE, Ohio

           J. Michael Myers, Staff Director and Chief Counsel
             Townsend Lange McNitt, Minority Staff Director

                                  (ii)













                            C O N T E N T S

                               __________

                               STATEMENTS

                        Thursday, March 21, 2002

                                                                   Page
Kennedy, Hon. Edward M., a U.S. Senator from the State of 
  Massachusetts..................................................     1
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...     3
Jeffords, Hon. James M., a U.S. Senator from the State of Vermont     4
Reed, Hon. Jack, a U.S. Senator from the State of Rhode Island...     5
Clinton, Hon. Hillary Rodham, a U.S. Senator from the State of 
  New York.......................................................     8
Gregg, Hon. Judd, a U.S. Senator from the State of New Hampshire.     8
Pasternack, Robert H., Assistant Secretary for Special Education 
  and Rehabilitative Services, U.S. Department of Education, 
  Washington, DC.................................................    10
Harkin, Hon. Tom, a U.S. Senator from the State of Iowa..........    12
Mikulski, Hon. Barbara A., a U.S. Senator from the State of 
  Maryland.......................................................    26
Rangel-Diaz, Lilliam, member, National Council on Disability, 
  Washington, DC.................................................    30
Findley, Valerie, parent, Des Moines, IA; Robert Runkel, 
  Administrator, Division of Special Education, Helena, MT; 
  Robert Vaadeland, Superintendent, Minnewaska Area Schools, 
  Glenwood, MN; and Kim Ratcliffe, Director of Special Education, 
  Columbia Public Schools, Columbia, MO..........................    34

                          ADDITIONAL MATERIAL

Statements, articles, publications, letters, etc.:
    Robert H. Pasternack.........................................    52
    Lilliam Rangel-Diaz..........................................    55
    Valerie Findley..............................................    58
    Robert Runkel................................................    62
    Bob Vaadeland................................................    67
    Kim Goodrich Ratcliffe.......................................    69
    National Association of School Nurses........................    75
    Donna Martinez...............................................    76

                                 (iii)








          IDEA: WHAT'S GOOD FOR KIDS? WHAT WORKS FOR SCHOOLS?

                              ----------                              


                        THURSDAY, MARCH 21, 2002

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:35 a.m., in 
room SD-430, Dirksen Senate Office Building, Senator Kennedy 
(chairman of the committee) presiding.
    Present: Senators Kennedy, Harkin, Mikulski, Jeffords, 
Wellstone, Reed, Clinton, Bond, Collins, and Sessions.

                  Opening Statement of Senator Kennedy

    The Chairman. We have a full morning, and we are getting a 
later start than we had hoped, so we are very grateful and 
would ask all of our guests to come in. We have quite a number 
of people outside who have taken a great interest in this 
legislation, as we can understand, so we want to make sure all 
the chairs are filled. If families have small children, we will 
ask the children to come up here and be seated so they can see. 
This at its best sometimes get a little technical and not the 
most interesting part of a child's life, but to try to enhance 
it a bit, we will bring some chairs up here in front, and the 
children can come on up.
    We want to thank all of you, particularly our witnesses, 
and we apologize for the delay--there was a Senate vote 
earlier--but we are very, very grateful for your patience, and 
we thank all the guests who are here today.
    We thank you for being here for our first hearing on the 
reauthorization of the Individuals with Disabilities Act. Today 
we will hear testimony on one of the greatest civil rights laws 
ever enacted in this country, because it guarantees the right 
of every child with a disability to a free appropriate public 
education.
    We know that children with disabilities should have the 
same opportunities as every American to fulfill their hopes and 
dreams of living independent and productive lives. This 
important law provides that opportunity in our public schools.
    In Brown v. Board of Education, the U.S. Supreme Court 
ended segregation by race and declared that all children would 
be guaranteed equal access to education under the Constitution. 
But it was not until the passage of the Education for the 
Handicapped Act in 1975 that we ended school segregation by 
disability and opened the doors of our public schools to 
disabled children. Only then did the Nation's 4 million 
disabled children begin to have the same opportunities as other 
children to develop their talents, share their gifts, and 
contribute to their communities.
    For 27 years since then, the Act now called IDEA has held 
out hope for young people with disabilities so that they too 
can learn and contribute their talents to our communities. IDEA 
has meant the difference between dependence and independence, 
between lost potential and productive lives.
    We must never go back to the shameful days of warehousing 
children with disabilities when most disabled children were 
excluded from public education, when few if any preschool 
children with disabilities received services, when 
institutional placements were more common than educational 
opportunities.
    Today, 6.5 million children with disabilities are receiving 
special education services, and 96 percent of them are learning 
alongside nondisabled peers. The number of young children with 
developmental delays receiving early childhood services has 
increased threefold over the last decade. More disabled 
children are participating in State and national testing 
programs. Graduation rates and college enrollment rates are 
slowly rising.
    But even as we celebrate these important accomplishments, 
we know there is still room for improvement. IDEA can and 
should be strengthened as part of our new education reform 
designed to leave no child behind.
    We can strengthen IDEA in the areas of accountability, 
enforcement, quality, coordinated program supports, and meet 
the Federal commitment to fully fund IDEA. There is virtually 
no limit to the advances that special education students can 
achieve over the next quarter century.
    However, it does not matter how good a job Congress does in 
strengthening IDEA if the law is not implemented and enforced. 
We need to ensure that disabled students are truly receiving 
their individualized program services to they can progress in 
the general education curriculum and meet academic standards.
    We need to ensure that teachers are well-trained and have 
the classroom supports to do their jobs right.
    We need to ensure that agencies work together with schools 
to coordinate the support services with education.
    We need to ensure that parents work in partnership with 
schools.
    Most important, we need to explore new ways to aid children 
with disabilities as they progress through life's many 
transitions from early childhood to elementary school, from 
elementary school to high school, from high school to college, 
and on to a good job.
    We are fortunate today to have knowledgeable witnesses from 
across the country who will offer their insights into the 
current implementation of IDEA and their recommendations on how 
to strengthen this landmark legislation.
    We know that many of you have made a great effort to be 
here today, and we are grateful for your presence and for all 
that you do. We are incredibly grateful to all of you.
    I might mention that as we are here, the Budget Committee 
is marking up, and the budget proposal that the Senate will 
have before it will have full funding, with the mandatory 
spending for the additional funds for IDEA. This is a great 
tribute to my friend and colleague, Senator Jeffords. There are 
many leaders in this effort and endeavor, but none more so than 
Jim Jeffords. And Tom Harkin, of course, has been a great 
leader, and others as well. So those who are here today feel 
that this is progress, and help is on its way, but the 
reauthorization is a key element. We want to get it right, and 
we have some excellent witnesses here to try to get it right, 
and we look forward to hearing from them.
    Senator Collins?

                  Opening Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman.
    In 1975, Congress worked with the education community, and 
together we embraced one of our most disenfranchised groups of 
citizens--children with disabilities. We invited them into the 
public school systems. Millions of children were for the first 
time given the opportunity to attend school alongside their 
peers.
    No matter what else can be said about the program, no 
matter what other problems still need to be resolved, we can be 
proud that IDEA has helped to ensure that the educational needs 
of some of our most disabled children are being met.
    That said, there is still plenty of work to be done to 
ensure that children with disabilities are receiving 
appropriate educational services and that schools are being 
provided with the necessary resources. During the upcoming 
reauthorization process, I am hopeful that we can look at ways 
to improve personnel training, focus in on providing more 
seamless early childhood services, and decrease unnecessary 
paperwork and litigation.
    I would also like to explore ways to help schools deal with 
children that have low-incidence, high-cost disabilities. In 
the small rural town of Surrey, ME, the school district serves 
just a few hundred children, but 27 percent of these children 
have been identified as having disabilities, a few with costs 
that exceed $100,000 a year.
    Let me emphasize that there is no question that we must 
continue providing appropriate services to these children, but 
I think we need to take a look at crafting legislation that 
would help a small school district such as this one afford 
these rare but high-cost cases.
    As for the funding of IDEA, I have two primary concerns. 
The first, of course, is the full funding of the 40 percent 
promise. As the chairman has indicated, the House and Senate 
Budget Committees have each outlined a path for reaching full 
funding, and I am hopeful that we can finally resolve this 
issue by the end of the year. After Congress has had the 
opportunity to reform IDEA, those who have opposed full funding 
of the Federal share will have no argument to continue to block 
this very necessary funding.
    But I am also interested in a less talked about source of 
funding for children served by IDEA. In 1988, Congress reformed 
Medicaid, encouraging schools to provide services to Medicaid-
eligible students. While some States have been able to take 
advantage of these funds, which approximate $2 billion a year, 
other States have been denied funding by the agency that 
administers Medicaid. I am looking forward to hearing the 
assistant secretary's testimony, and I hope he can provide some 
input as to how we can ensure that more schools are reimbursed 
for Medicaid-eligible services provided to Medicaid-eligible 
children.
    Finally, I hope this hearing will help guide us toward 
policies that will encourage more trained special education 
teachers to join the profession. I have introduced legislation 
that would provide loan forgiveness as an incentive to 
encourage more individuals to become special education 
teachers. Several of my fellow committee members--Senators 
Frist, Hutchinson, Sessions, and DeWine--have cosponsored that 
bill. S. 1918 is designed to recruit teachers with an expertise 
in special education to work in schools with high 
concentrations of low-income students by offering substantial 
assistance with their student loan payments.
    Providing more quality special education teachers will 
bring us a great deal further toward providing quality 
education to students with disabilities. In that respect, I am 
delighted that the President has included $45 million in his 
budget for a similar proposal.
    Again, I look forward to working with the administration 
and my colleagues on this very important issue.
    Thank you, Mr. Chairman.
    The Chairman. If I could just depart from committee 
procedure for a moment and ask our good friend, the Senator 
from Vermont, Senator Jeffords, who has spent so much time on 
this issue, if he would like to say a word at the opening of 
this hearing. We would welcome it.

                 Opening Statement of Senator Jeffords

    Senator Jeffords. Thank you, Mr. Chairman.
    I want to say how excited I am to see so many wonderful 
people here today letting the country know how important this 
issue is.
    Just to give you a little history of my involvement, when I 
first arrived in Washington in 1975, it was the Watergate year, 
and there were 92 freshman Senators that year, of which 17 were 
Republicans. That was good news and bad news. The good news was 
that you had immediate seniority because there was nobody else 
around. As a result of that, I got to be the ranking member on 
the committee, working with Congressman Brademus to write 94-
142, and thus, I became deeply involved in this issue and have 
remained deeply involved.
    Twenty-7 years ago, nearly half of all disabled children, 
approximately 2 million children, were not receiving a public 
education. Another 2 million children were placed in 
segregated, inadequate classrooms.
    Today, IDEA services approximately 6 million disabled 
children. And, more than just serving children with 
disabilities, IDEA is succeeding in providing the basic 
constitutional right of a free and appropriate public education 
for our disabled children.
    Dropout rates have decreased, graduation rates have 
increased, and the percentage of college freshmen with a 
disability has almost tripled. IDEA has helped individuals with 
disabilities become independent, wage-earning, tax-paying 
contributors to the Nation.
    I am proud of IDEA and how it has helped further quality of 
life for families and children with disabilities. But our fight 
is not over.
    First, we must continue to fight for full funding of IDEA, 
and we are optimistic on that. Although Congress has increased 
IDEA funding in recent years, it has woefully failed to meet 
its obligation to fully fund IDEA.
    We must recognize that we cannot provide all of our 
children with the opportunity to achieve unless we support our 
children with adequate resources. Full funding would provide 
our schools with those desperately needed resources, and then, 
perhaps we could ensure that indeed none of our children is 
left behind.
    We must also better address the needs of our youngest 
children with disabilities. We must make sure that young 
children with disabilities and their families have access to 
the full array of health, social, educational, and other 
support services so that all children enter school ready to 
learn and have the opportunity to fully participate in 
community life.
    I believe we all know the value of early intervention 
services in the lives of children with disabilities and their 
families, yet many barriers to participation continue to exist, 
and we must remove those.
    In fact, Department of Education statistics reveal that 
Part C of IDEA serves only approximately 200,000 children 
nationwide. In contrast, Part B serves over 6 million children. 
Clearly, families of young children with disabilities are not 
getting the information and support that they need.
    We must look at how States identify infants and toddlers 
for Part C services and strengthen the outreach and the 
interagency coordination required in Part C to make sure that 
all of our young children get the services they so desperately 
need. We must also adequately fund Part C.
    In addition, we cannot forget our older children as they 
prepare to leave school. Despite significant advances, too many 
of our children do not attain high school diplomas. 
Unemployment among those with disabilities is far too high, and 
too many of our youth end up in correctional facilities. We 
need to make sure that our children receive the appropriate 
services to transition out of school so that when they finish 
school, they can truly become independent, self-sufficient 
members of their communities.
    Although we have made great strides over the years, there 
is still a lot of work to be done. I look forward to working 
with my colleagues on both sides of the aisle to make sure that 
all of our children have the opportunity to achieve.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Jeffords.
    We will take an additional moment if our friends Senator 
Reed and Senator Clinton want to add an observation, because 
this is of such major importance.
    We welcome their comments.

                   Opening Statement of Senator Reed

    Senator Reed. Thank you, Mr. Chairman.
    If I may, I would ask that my full statement be included in 
the record and would simply say that the leadership of you and 
Senator Jeffords and Senator Harkin has been extraordinarily 
important in this effort, and I thank all of you.
    The comments that my colleague Senator Collins made, your 
comments, and Senator Jeffords' comments all underscore the 
issues that we face. One, we have to have the resources. In 
1975, the authorization language called for 40 percent Federal 
share; we are at about 15. We have to do better. And as a 
result of not only our insufficient commitment but an 
insufficient effort at the local level, many State are out of 
compliance with the basic provisions of IDEA. In this 
reauthorization, we have to ensure that the resources and the 
authority and the effort and the will are there to make IDEA 
work for all of our children.
    Thank you, Mr. Chairman.
    [The prepared statement of Senator Reed follows:]

                   Prepared Statement of Senator Reed

    IDEA has made a difference in the lives of children with 
disabilities and their families. It has also been the key to 
independence and a productive, fulfilling life for many of 
these individuals. Simply put, IDEA demonstrates the positive 
role Congress can play in education.
    Prior to the enactment of IDEA in 1975, only 50 percent of 
students with disabilities were receiving a free appropriate 
public education.
    Today, IDEA serves 6 million children with disabilities, 
the majority of whom are taught in their neighborhood schools 
in regular classrooms with their non-disabled peers.
    High school graduation rates for special needs students 
have also increased dramatically. And students served by IDEA 
are employed at twice the rate of older adults who did not 
benefit from this law.
    In 1997, I worked with many of my colleagues on this 
Committee on a bipartisan, bicameral reform bill. The 1997 
Amendments made several improvements to strengthen the law, 
including providing children with disabilities an opportunity 
to be involved in and progress in the general curriculum, 
promoting greater parental participation by providing parents 
with regular reports on their child's progress and including 
parents in eligibility and placement decisions about their 
child, reducing litigiousness by encouraging the use of 
mediation, and ensuring that educational services cannot be 
terminated for children with disabilities.
    While progress has been made, the true promise of IDEA--a 
free appropriate public education for all children with 
disabilities--has not yet been realized.
    When enacted in 1975, Part B of IDEA authorized the federal 
government to pay up to 40% of the cost of educating students 
with disabilities. Today, federal funding only amounts to 15% 
of that cost. Its time for Congress to honor its commitment.
    Living up to this commitment is not just an important goal, 
it is a necessity if we are to ensure that all children have an 
opportunity to succeed.
    Across this country, there is mounting frustration over the 
lack of education resources. Our school districts are striving 
to provide a high quality education for all children but don't 
have the adequate resources to do the job.
    As a result, parents of children with disabilities, who 
only want to ensure their child gets the education they deserve 
and need, are forced to fight for the very programs and 
services to make that possible.
    For too long, we have created tensions and triggered 
conflicts between special education and
    general education over budgeting priorities. For too long, 
we have forced parents of children with disabilities to battle 
principals, schools districts, and other parents for limited 
educational resources.
    Additionally, the law has not been well-implemented and 
there are areas that need attention if we are to improve the 
outcomes for children with disabilities.
    Accountability and monitoring of programs must be improved. 
The federal government must ensure that state special education 
programs comply with IDEA. In January 2000, the National 
Council on Disabilities released its evaluation of IDEA, 
entitled Back to School on Civil Rights. The findings of this 
report painted a bleak picture: every state and the District of 
Columbia are out of compliance with one or more of the basic 
IDEA requirements.
    For example, 80% of the states failed to ensure compliance 
with the law's free appropriate public education (FAPE) 
requirements; 78% of the states failed to ensure compliance 
with procedural safeguards; and 72% of the sates failed to 
ensure compliance with the placement in the least restrictive 
environment (LRE).
    Inconsistent and ineffective federal efforts to enforce the 
law over several years have forced parents to carry the burden 
by invoking formal complaint procedures and requesting due 
process hearings to obtain the services and supports to which 
their children are entitled under the law. As we work on the 
reauthorization, we need to look at these compliance issues.
    We also need to ensure general and special education 
teachers get the pre-service and in-service training they need 
to provide high quality instruction and meet the needs of 
children with disabilities.
    According to the Consortium for Citizens with Disabilities 
Education Task Force, over 600,000 students with disabilities 
are taught currently by special education teachers who are 
unqualified or under-qualified. There are also shortages of 
special education and related services faculty at institutions 
of higher education, inhibiting the capacity to train special 
education teachers. This shortage of qualified higher education 
faculty further curtails research that is critical to the 
development of the knowledge base for designing and delivering 
educational and related services to children with disabilities.
    We need to ensure that early intervention and pre-school 
services are available to all eligible children. Programs 
authorized under Part C and Section 619 of Part B allow states 
to create family-centered systems of services across multiple 
programs and funding streams to ensure that infants, toddlers, 
and preschoolers are prepared for school and learning. To do 
this effectively, states must have the resources to screen and 
identify all eligible children for developmental delays. There 
must also be interagency collaboration to coordinate the 
provision of services. Simplifying the process of accessing 
Medicaid funding to pay for some of the costs of services for 
children with disabilities is another area of critical need.
    Finally, we must continue to address the over-
representation of minority students in special
    education. Minority students are referred to special 
education at higher rates than their share of the overall 
population. These data raise questions as to whether some 
minority students are being incorrectly identified as having 
disabilities.
    I look forward to the testimony of today's witnesses, and 
to the upcoming work on the reauthorization of IDEA.
    The Chairman. Senator Clinton?

                  Opening Statement of Senator Clinton

    Senator Clinton. Thank you very much, Mr. Chairman.
    I welcome all of our guests who are here today for the 
beginning of this very important process. I think the way that 
the chairman has titled this hearing, ``IDEA: What's Good for 
Kids? What Works for Schools?'' is exactly the right formula.
    I was listening to Senator Jeffords describe some of the 
history of this legislation, and I was actually involved many 
years ago, in 1973, with the Children's Defense Fund, going 
door-to-door in communities trying to find out why children 
were not in school, because we had Census tract numbers which 
said there was a certain number of school-age children, and 
then we had school numbers, and there was a difference, and 
there were missing children.
    So I literally went door-to-door and asked if there were 
any school-age children who were not in school. And it will not 
surprise the chairman or any of the parents and educators and 
others here today that what I found is that children were being 
kept out of school, were being denied schooling, because of 
some disability. And many of the children whom I met were 
perfectly capable of learning, were fully ready to go to 
school, but because there was no place or trained teacher or 
willingness or understanding, they were kept out of school.
    So that work along with the work of so many others, led by 
people like Senator Jeffords and Senator Kennedy and Senator 
Harkin, has taken us to this point. I look forward to working 
with my colleagues. I am very proud that on the Budget 
Committee on which I sit and where I will have to return in a 
moment, we do have a provision to finally fulfill the promise 
that was made all those years ago for the Federal Government to 
provide full funding--our fair share--and we are going to fight 
hard for that, aren't we, Senator Jeffords?
    A lot of us are just not going to wait another minute let 
alone another year for that promise to be fulfilled. It is not 
fair to the children who need the services, and it is not fair 
to all the children who go to school and need to make sure that 
we are meeting the needs of every, single child.
    The Chairman. Thank you very much, Senator Clinton.
    Before we begin I have statements from Senators Gregg and 
Warner.
    [The prepared statements of Senators Gregg and Warner 
follow:]

                  Prepared Statement of Senator Gregg

    Mr. Chairman, I commend you for holding this hearing today 
on IDEA, as we begin the reauthorization process of this law, 
which provides federal funding for the education of children 
with disabilities. There are a number of issues that this 
committee needs to examine in the IDEA law.
    In the past months, we have talked a great deal about 
funding issues surrounding IDEA. I have been a fierce supporter 
of IDEA full funding since I became a United States Senator 
over eight years ago. I understand the burden that has been 
placed on our local school districts and believe that we need 
to continue our efforts to reach full funding.
    However, there are many other areas of concern besides full 
funding of IDEA. A number of problems plague our special 
education system. Let me give just a few examples: Paperwork 
requirements associated with IDEA unduly burden teachers and 
administrators while failing to benefit students. IDEA's 
procedural safeguards have inadvertently prevented parents and 
teachers from making beneficial changes to a child's 
individualized education program, and created a hostile 
environment between parents and school officials.
    Many children, particularly minority students, are 
misidentified for special education. IDEA's definition of a 
learning disability is very broad, and can create situations in 
which states and school districts are left dealing with an 
ambiguous guideline for identifying children as learning 
disabled. IDEA creates a double standard when it comes to 
disciplining violent students, as students under IDEA are not 
subject to discipline in the same way as other students. Some 
of the IDEA regulations have gone beyond statutory requirements 
and have even conflicted with the statute.
    It is disappointing and frustrating to hear that a law 
intended to help children with disabilities receive a good 
education is in some instances acting as a hindrance to serving 
them. These problems need to be addressed in this year's 
reauthorization, so that IDEA will fulfill its intended 
purpose.
    I look forward to hearing today's witnesses discuss these 
problems, as well as propose innovative ways that we can reform 
IDEA to serve special education students more effectively. I am 
also interested in knowing what has worked well in the law, so 
that we can build upon our successes.

                  Prepared Statement of Senator Warner

    Chairman Kennedy and Senator Gregg, I thank you for calling 
this hearing on IDEA.
    The fact is that prior to the passage of IDEA in 1975, 
schools in America educated only one in five students with 
disabilities. Special needs students were locked out of the 
school house doors. IDEA has helped these students receive a 
free and appropriate education.
    IDEA has been successful in ensuring that children with 
disabilities have access to a free appropriate public 
education. However, we all know that the law is not perfect.
    As we reauthorize IDEA this year, we have an opportunity to 
learn about the problems parents and educators are facing with 
this law, and we have the opportunity to correct these 
problems.
    Today's hearing is the start of this process.
    I am confident that all of us on this Committee recognize 
that the funding associated with IDEA is a major problem. When 
Congress passed IDEA over 25 years ago, Congress, I believe, 
made a commitment to fund 40 percent of the costs associated 
with this legislation.
    Unfortunately, Congress has never come close to meeting 
this 40% commitment--although progress has been made the last 
several years.
    Last year, IDEA received about a $1.2 billion increase in 
funding. This year, President Bush again has budgeted over a $1 
billion increase for IDEA funding. I commend President Bush for 
his commitment to substantially increased funding for IDEA.
    While we still have a long way to go to reach 40 percent--
we are getting there.
    Nevertheless, it is important for us to recognize that this 
unfunded mandate places an enormous burden on state and local 
education budgets that must make up the difference. If the 
federal government paid its share of IDEA costs, then local 
school districts and states would have additional resources of 
their own to fund local priorities, such as new school 
construction. For these reasons, I have been supportive of 
mandatory full funding.
    While funding is one issue, it is not the only difficult 
issue we as a Committee are going to be faced with during the 
reauthorization of this important law.
    At the outset, I would like to express my hope that we can 
follow last year's model of bipartisanship that served as the 
foundation for our work on the No Child Left Behind Act.
    Last year, under the leadership of President Bush, 
Secretary of Education Paige, Senator Kennedy, Senator Gregg, 
and others, we were able to achieve historic reforms in 
elementary and secondary education.
    It is my hope that we can again work together in the same 
fashion to reauthorize IDEA.
    Again, I thank Chairman Kennedy and Senator Gregg for 
holding this hearing.
    Our first witness, Mr. Robert Pasternack, serves as 
Assistant Secretary for Special Education and Rehabilitative 
Services at the U.S. Department of Education. Mr. Pasternack 
previously served as the director of special education for the 
State of New Mexico, where he worked with students with 
disabilities and their families for 25 years.
    Mr. Pasternack is a nationally certified school 
psychologist and has been both a special education teacher and 
school administrator.
    We have sign language interpretation on my left for those 
who wish to have that service.
    Mr. Pasternack, thank you very much for being here today. 
We are looking forward to your testimony.

  STATEMENT OF ROBERT H. PASTERNACK, ASSISTANT SECRETARY FOR 
SPECIAL EDUCATION AND REHABILITATIVE SERVICES, U.S. DEPARTMENT 
                  OF EDUCATION, WASHINGTON, DC

    Mr. Pasternack. Thank you. Good morning, Mr. Chairman and 
members of the committee.
    Thank you for inviting me to talk with you about the 
implementation of the Individuals with Disabilities Education 
Act, the IDEA. I am pleased to be here; it is a privilege. I 
would like to thank you for joining the President in bipartisan 
support of the landmark legislation to reform elementary and 
secondary education, the No Child Left Behind Act, NCLB. I look 
forward to working with you in the future to develop 
legislation reauthorize the IDEA.
    As you have eloquently stated this morning and in the past, 
over the past 25 years, the IDEA has successfully ensured that 
children with disabilities have access to a free appropriate 
public education. Prior to the IDEA, in 1970, for example, 
schools in America educated only one in five students with 
disabilities. Today, the overwhelming majority of children with 
disabilities, about 96 percent, learn in schools with other 
children rather that in State institutions or separate 
facilities. Three-quarters of children with disabilities now 
spend at least 40 percent of their day in a regular classroom 
instead of in separate rooms. Half of the children with 
disabilities spend 80 percent or more of their day in regular 
classrooms.
    These accomplishments reflect the dedication of lawmakers, 
educators, parents, and the children themselves, to ensuring 
that all students with disabilities receive a high-quality 
education that prepares them for postsecondary education, good 
jobs, a productive and independent life.
    However, despite the many accomplishments of the IDEA over 
the last 25 years, many challenges remain. We know that we will 
never improve results for students with disabilities by 
focusing on special education alone. We must look at the whole 
education system and whether we are providing the right 
services to the right children at the right time, in the right 
settings, and with the right personnel to achieve the right 
results.
    That is why I am so excited about the sweeping reforms made 
by the NCLB Act and the impact it will have on students with 
disabilities. From the Reading First program to Title I, NCLB 
will truly hold States and school districts accountable for the 
annual progress of all children, including children with 
disabilities.
    In reviewing the challenges of implementing the IDEA, there 
are several major issues that present themselves. The 
successful implementation of the IDEA is perhaps most 
critically dependent on the quality of the people who implement 
the principles contained in the law--the teachers, para-
educators, related service providers, and administrators, in 
cooperation and partnership with parents and the children.
    We know that much more needs to be done to better prepare 
and support all members of the learning community in their 
efforts to educate children with disabilities.
    Accountability provisions have been strengthened in the 
IDEA over the years, but more needs to be done. We must build 
on the accountability provisions enacted by NCLB to ensure that 
States and local school districts are accountable for results 
and that children with disabilities are included in rigorous 
assessments of student performance.
    We need to do more to provide research and technical 
assistance on alternate assessments and accommodations for 
children who need them.
    And perhaps more importantly,we need to push for assessment 
tools that are created using universal design concepts. 
Universal design principles will not eliminate the need for all 
accommodations but can significantly reduce the need for them 
and will allow the use of accommodations without threat to the 
validity and comparability of scores.
    An important aspect of the 1997 amendments was the emphasis 
placed on access to, and participation and progress in, the 
general curriculum. Those changes raised the bar by requiring 
school districts and States to provide meaningful access for 
children with disabilities to the general curriculum.
    The Chairman. Excuse me, Mr. Pasternack. As you have 
gathered, this is a somewhat unusual day, as we were late in 
starting, and there are a lot of other activities.
    Our good friend, Tom Harkin, who along with Jim Jeffords 
have been the real leaders on this committee, will be chairing 
a very important hearing as part of his responsibilities on the 
Appropriations Committee at 11 o'clock, and he has some very, 
very special guests who should have the kind of introduction 
that only Tom Harkin can give them. When you hear their story, 
everyone will understand why.
    So with your permission, I will let Senator Harkin make his 
comments, and those comments will appear at an appropriate 
place in the record, and then we will continue with your 
testimony. So if you could hold for just a moment, I will 
recognize Senator Harkin.
    Mr. Pasternack. It is an honor, Mr. Chairman.

                  Opening Statement of Senator Harkin

    Senator Harkin. Mr. Pasternack, thank you very much.
    Thank you, Mr. Chairman. I am scheduled at 11 o'clock to 
chair a hearing with all the NIH directors on the NIH budget, a 
lot of which goes for things that we are talking about here in 
terms of biomedical research; so I will have to be down there 
at 11 o'clock.
    So I thank you, Mr. Chairman, for giving me this 
opportunity to introduce to you and those who are here a friend 
of mine who goes back about 30 years or so. Valerie Findley is 
one of the real stars in our State in fighting for people with 
disabilities, especially kids, and making sure that each child 
gets the appropriate support early in life and gets that 
support on through the educational system.
    Valerie got into the van with Louisa, who is sitting next 
to her. Louisa and I have marched together in a few 
demonstrations in the past in support of ADA and IDEA and so 
forth. So Valerie is here with Louisa as well as her daughter 
Hannah, who is sitting behind her, and her two sons, Jubal and 
Gabriel, also behind her. They all got into a van and drove out 
here from Iowa to be here for this very important hearing.
    Louisa attends the Hillis Elementary School in Des Moines 
where she receives special education and related services. 
Valerie has told me that Louisa has received services since she 
was 5 months old. She is now 9, and because the Des Moines 
public schools are on spring break, they were able to come out 
here during this week.
    Of our group of panel members, Valerie will offer the 
parent perspective--what it means from the parent's perspective 
from birth through age 9--and she has worked with other kids 
beyond that age, too, I know. She has worked with other 
parents. She is a staff member for Iowa's Family Support 
Initiative Systems Change Project and, through that project, 
has worked across systems in health, human services, and 
education in addressing supports for families.
    Valerie has served as the family consultant for Iowa's 
Statewide Deaf-Blind Project. In that role, she has provided 
technical assistance to parents and training on issues related 
to dual sensory impairments. Most often, this training focuses 
on transition and assistive technology issues.
    Valerie is a member of Iowa's Special Education Advisory 
Panel and works with other parents around the State on policy 
issues.
    So from her experience as an advocate, as a mother, as the 
parent of a child with a disability, she is acquainted with 
every aspect of what it means to raise a child with a 
disability, the problems that families face, the access to 
services. The one thing that Valerie has always been on me 
about is coordination and making it simpler, making it easier. 
There are just too many cross-cutting things out there for 
people to have to access. There ought to be one type of entity 
or package where a family can go to get all the services they 
need, and she will address that more eloquently than I ever 
could.
    Mr. Chairman, I am just despondent that I cannot be here 
for Valerie's testimony, but I think you will find it as 
powerful and as moving as everything she has said to me for the 
last 25 or more years about working to get these programs in 
line and to make sure that families get the supportive services 
they need for their children.
    And Louisa is a wonderful young woman. As I said, we have 
been to a few places together, to the State Capital and others. 
She is receiving her services, and she has a future ahead of 
her, and it is because of IDEA; it is because of the support 
that IDEA has given these kids, but more importantly, it is 
because of Valerie and a lot of other parents like her who just 
will not give up.
    Thank you very much, Mr. Chairman.
    The Chairman. Thank you very much, Senator Harkin, for 
coming and making that presentation. We look forward to hearing 
from Valerie in just a few moments.
    Mr. Pasternack, did you have any further comments? Do you 
want to conclude your remarks? I think you were fairly close to 
concluding them.
    Mr. Pasternack. If I may, Mr. Chairman. This is your 
hearing, Mr. Chairman.
    The Chairman. Please.
    Mr. Pasternack. As I was saying, sir, an important aspect 
of the 1997 amendments was the emphasis placed on access to, 
participation and progress in, the general curriculum. Those 
change raised the bar by requiring school districts and State 
to provide meaningful access for children with disabilities to 
the general curriculum.
    We need better research and better technical assistance to 
support the focus that the 1997 amendments placed on access to 
the general curriculum.
    While we can point to lower dropout and higher graduation 
rates among students with disabilities as significant 
accomplishments for the IDEA, we still need much improvement in 
the transition from school to work and from school to 
postsecondary education for students with disabilities. The 
dropout rate for children with disabilities is still about 
twice that of their peers, and this is way too high.
    There are also a number of implementation issues around the 
identification of children with disabilities, including the 
disproportionate representation of some minorities in some 
categories of special education. We know that too many children 
are referred for special education services because of a lack 
of scientifically-based instruction and early educational 
interventions in the regular education program. This again is 
an issue of providing special education services to the right 
children and having well-trained and qualified teachers and 
administrators who have the knowledge, skills, and supports to 
ensure that we are in fact serving only the right children--
those with disabilities who truly need special education 
services.
    I also want to address an implementation issue that is of 
concern to many parents, educators, and certainly to you on the 
committee. The discipline provisions of the IDEA are predicated 
on the concept that every child in every school has the right 
to be educated in a safe learning environment. As the law has 
been implemented since the 1997 amendments, it is evident that 
some of the requirements of the statute and regulations may be 
too complicated or confusing and need to be reviewed.
    Our experience with implementing these provisions has 
highlighted the overall need for schools and school districts 
to focus on improved classroom management, effective school-
wide models of positive behavior supports, strategies, and 
interventions, and the use of functional behavioral 
assessments.
    I would also like to quickly discuss several issues 
relating to the implementation of Part C of the IDEA, which 
authorizes the Grants to Infants and Families program. As we 
move toward reauthorization, we need to examine the appropriate 
balance between the States' need to access all revenue sources, 
such as public and private insurance programs, and the 
financial burden for families. The requirements under the 
program for service coordination often present significant 
challenges that have not always been overcome.
    In the short time I have been on the job, I have spent a 
good deal of it asking questions of parents, advocates, 
children, teachers, principals, university professors, 
researchers, and State directors of special education around 
the country. During my visits, I am frequently told that school 
districts and teachers struggle to be in compliance with the 
process mandates of the current law at the expense of the 
quantity and quality of services provided to our children.
    Under current law, compliance does not focus on improved 
results for children. Instead, compliance has been too focused 
on process as opposed to results. We have redesigned our 
monitoring system and continue to modify that system in an 
effort to focus on key performance indicators, technical 
assistance and research, and on helping States develop plans 
that can really lead to improving results for children with 
disabilities. We want States to focus on results and compliance 
with the key substantive requirements of the law.
    I ask these questions to encourage all of us to think 
creatively and insist on a culture of accountability within the 
IDEA similar to the approach you have taken in the 
reauthorization of the ESEA. I have touched on but a few of the 
issues that relate to the implementation of the IDEA and 
recognize that each of these topics deserves far more attention 
than I have given it today in this brief statement.
    It is time for all of us--the Department of Education, the 
Congress, the parents in this room, and educators--to take a 
serious look at the IDEA. We must look honestly to see what has 
worked well and what has not worked well. We must not hesitate 
to refocus the statute where necessary, and where doing so will 
improve the results for America's children with disabilities.
    As you are aware, the President has established Commission 
on Excellence in Special Education that is charged with 
collecting information and studying issues related to Federal, 
State, and local special education programs, with the goal of 
recommending policies for improving the educational performance 
of children with disabilities. I am pleased to serve on that 
commission and think that this is another example of the 
administration's desire to engage in the systemic reform of 
education by looking at all of its facets, asking the tough 
questions that address problems and generate solutions.
    I am confident that when the commission finishes its work 
in July, its report will inform proposals for reauthorizing the 
IDEA.
    Finally, I look forward to working with all of you in the 
years ahead. Your commitment to this important statute has led 
to the education of millions of children with disabilities who 
otherwise might never have had the educational opportunities 
made possible by the IDEA.
    Thank you for this opportunity, Mr. Chairman and members of 
the committee; I welcome your questions.
    [The prepared statement of Mr. Pasternack may be found in 
additional material.]
    The Chairman. Thank you very much for a very comprehensive 
and thoughtful statement.
    We will have 5-minute rounds for questions, and I will ask 
staff to keep track of the time.
    We have been joined by Senator Sessions as well as other 
members of our committee.
    In your testimony, Mr. Pasternack, you talk about the issue 
of numbers, and this is an issue that we are going to have to 
address. You also talked about the importance of early 
intervention, because with earlier intervention, we can sift 
out and find out what these children need, and if you are able 
to get the kinds of support services which are intended to be 
available in the No Child Left Behind Act, this is a way of 
getting what is necessary for children at a very early time and 
getting those support services. That can be one way, an 
appropriate way, of dealing with the issues where the children 
are challenged.
    The harsher way, obviously, is to just carve out numbers 
and say, look, there are too many numbers, and this community 
has more numbers than that one, and you just have to carve them 
out.
    You made a point in your opening statement about the 
importance of early intervention and understanding, and I 
imagine this is in reading and math and emotional support and 
otherwise. Am I correct in understanding what you were driving 
at with that point?
    Mr. Pasternack. Yes, Mr. Chairman.
    The Chairman. Second, in the legislation, we have an 
important--you talked about tying in in terms of the No Child 
Left Behind--one of the important aspects of that is to try to 
ensure that there is a well-qualified teacher in every 
classroom, and that is something that we are hopeful of being 
able to do. There are obviously a number of different features. 
You referenced that as well, and I would be interested in what 
you think can be done specifically in terms of trying to make 
sure that we are going to get quality special education 
teachers to help and assist in the classroom for these 
children. It is a difficult enough challenge in other 
situations with the shortage of teachers, but do you have some 
ideas about things that could be done? It seems to me that 
before even getting the legislation, we should probably be 
about the business of trying to do that now.
    Mr. Pasternack. Thank you, Mr. Chairman.
    Clearly, if we do not have highly-qualified teachers 
instructing students, we are never going to get the kinds of 
results that parents have a right to expect and Congress has 
the right to demand. So we are working closely with the 
colleges and universities to try to improve the quality of pre-
service preparation.
    One of the things that I have learned from my trips around 
the country, and I am sure you are well aware, Mr. Chairman, is 
that many school districts are spending a great deal of money 
on professional development because teachers coming to them 
from colleges and universities do not have the skills to do the 
very difficult job that we are asking them to do. So we are 
really looking at trying to increase the quality of personnel 
preparation programs and making sure that they are rigorous, 
and that they are implementing scientifically-based practices 
in training these teachers.
    We also know, Mr. Chairman and members of the committee, 
that we have a critical shortage of personnel in special 
education, and it is about to be exacerbated by large numbers 
of people who are eligible to retire. And we are very 
concerned. We have just done a national study and found out 
that there are three main reasons why teachers are leaving the 
field of special education. Two of them appear to be things 
that we might be able to deal with in the reauthorization and 
at the Federal level. One of those is that teachers report that 
they are spending too much time filling out paperwork. The 
second is that teachers report that they are spending too much 
of their time in meetings.
    If you add those two things together, Mr. Chairman, what 
teachers are saying is that they got into this profession 
because their passion was to teach kids with disabilities, yet 
they do not have time to teach.
    So we have got to try to change things so there is less 
emphasis on process and more opportunity for teachers to be 
able to do instruction.
    The third reason is an interesting one and one that we need 
to also focus on, and that, Mr. Chairman and members of the 
committee, is a perceived lack of administrative support. I 
think that that speaks to the fact that not only do we have to 
have outstanding models of personnel preparation for all 
members of the learning community, but we also have to look at 
building the capacity of administrators to understand the needs 
of kids with disabilities and their families, be sensitive, 
empathetic and compassionate, and help the special educators 
deliver high-quality interventions which are designed to 
achieve the desired results.
    The Chairman. The first two are principal contributors to 
nurses leaving the profession as well, so that is interesting.
    My time is up, but finally, on the accountability measures, 
I am interested in how you view those. As a practical matter, 
historically, we have not seen very effective accountability 
going back over any period of time in education; there is a 
reluctance to cut back support for States and local communities 
in terms of education funding. It just has not been out there. 
And I am not suggesting that we ought to be doing it, 
obviously, in this area, but there are provisions in the 
legislation, so to speak, where it can be done.
    In a broader sense, what are the things that we ought to be 
thinking about in regard to accountability so we can avoid 
these kinds of ruptures in terms of achievement and 
accomplishment? What do you think we should be thinking about? 
We tried in the No Child Left Behind Act to have a rather 
elaborate series on accountability. If we are going to be doing 
that, maybe that would be something that we should try to work 
with you on--I am not expecting--if you could talk in general 
terms about how you see that, I would appreciate it.
    Mr. Pasternack. I would like to applaud the work that you 
all did on the No Child Left Behind Act and particularly the 
attention that was paid to kids making adequate yearly 
progress.
    I think, Mr. Chairman, that for too long in special 
education, we have not expected students with disabilities to 
make adequate yearly progress, and I think we have an 
incredible opportunity to help build the capacity of the 
learning community to ensure that students with disabilities 
make adequate yearly progress.
    One thing that we absolutely need to do is work with test 
publishers and test developers to use principles of universal 
design to make sure that the tests are appropriately developed. 
That will ensure that kids will get accommodations when 
necessary and that the tests will have the broadest opportunity 
to be used with the largest number of students; and then, those 
students who really cannot take the State and district-mandated 
tests even with appropriate accommodations would be the right 
candidates for the alternate assessments, and then we have to 
work with States to make sure that those alternate assessments 
are rigorous, are valid, are reliable, and are in fact 
measuring the progress of students.
    The Chairman. Very good. My time is up.
    Senator Bond?
    Senator Bond. I will pass, Mr. Chairman.
    The Chairman. I want to say to the administration that we 
have been working in different groups on IDEA, and Senator 
Sessions has had a very keen interest in terms of the 
discipline issues, and he is working with us in trying to find 
some ways, rather than having something resolved--or not 
resolved--on this, to try to find constructive ways of 
addressing it. It is enormously thorny and difficult, and I 
want to acknowledge him here and thank him for the time that he 
has taken and the way in which he has approached this whole 
issue. I know it is something that he feels strongly about, and 
it has been very constructive and positive, and we thank him.
    Senator Sessions. Thank you, Mr. Chairman, and thank you 
for your concern over this issue. We are due to review this Act 
now, and we are not going to achieve progress--and that is all 
we want is to have a better system after we leave here than 
before we started, and your leadership will be key to that.
    I think it is consistent, as you indicated, Dr. Pasternack, 
with IDEA and leaving no child behind, making sure that every 
child reaches his or her fullest potential. But we created an 
act over 30 years ago, and it is probably time for us to see if 
we cannot make it better. I know that that is the case, in my 
own mind, having traveled the State and winding up being 
instructed by teachers with master's degrees and doctorates in 
special education issues who have taught for years, and they 
tell me that there are problems--as you noted, paperwork being 
one of them; lawsuits being one of them. I believe there is too 
much of that.
    And where a child's misbehavior is not connected to their 
disability, we believe there should not be a double standard of 
discipline for that circumstance only, recognizing that there 
have got to be separate behavioral standards for children whose 
disability makes it impossible for them to conform to normal 
rules.
    I think those are some things that we should take 
seriously. I am impressed with your background and with your 
commitment to this issue and to serving the children.
    I believe that with Senator Kennedy's leadership--and I 
know that Senator Clinton and others have expressed a desire to 
make this Act better--together, we can make it better. I really 
do believe that.
    I notice that Dr. Ratcliffe in her submitted testimony 
makes a point that I thought was interesting. She quoted a 
lawyer at one of the conferences who quoted Gerald Ford, saying 
that when he signed the bill, he was worried, and he noted that 
it contained, ``a vast array of detailed, complex, and costly 
administrative requirements under which the tax dollars would 
be used to support administrative paperwork and not educational 
programs.'' Dr. Ratcliffe is herself a parent of two children 
with disabilities who have gone through the public school 
system, and she was concerned about that. She says that now, as 
a teacher and a Ph.D. helping other disabled children, 
``President Ford's prophetic words have become the reality of 
public educators across the Nation.''
    Do you agree that we do have a problem with that issue of 
administrative paperwork and rules?
    Mr. Pasternack. Absolutely, Senator Sessions.
    Senator Sessions. I met with a very impressive lady who had 
spent quite a number of years in this area, and she told me at 
the end of our discussion, with great passion: ``Jeff, let me 
tell you what the problem is. The problem is that we are 
focused on rules and lawyers and complying with these complex 
regulations, and we are losing sight of what is best for the 
child and best for education.''
    Would you agree that the rules and the lawsuits and those 
kinds of issue oftentimes diminish the ability to actually 
serve the children we want to help?
    Mr. Pasternack. Senator Sessions, I believe, quite frankly, 
that some people are leaving this wonderful profession because 
of exactly those issues. I think that not only do we have a 
crisis in recruiting people to come and work in the field of 
special education, but we need to develop strategies to make 
sure we retain highly-qualified people.
    The issue that you just articulated is one that is pushing 
dedicated, caring, competent people out of the field of special 
education. We have even heard stories of teachers asking to 
have special education credentials taken off of their licenses 
because of their desire not to be in special education but to 
work in the general education setting rather than teach kids 
with disabilities.
    Senator Sessions. I am hearing that. That is what I am 
hearing. I have letters from teachers who are saying they are 
considering giving up the profession--poignant letters, really.
    In fact, Ms. Goodrich wrote that she is concerned about the 
circumstances and said that ``The perception communicated by 
the Federal law is that public schools would either underserve 
or stop serving students with special needs if they were not 
forced to be the law. Nothing could be further from the truth. 
These are our children. We have the same hopes and dreams for 
them as other children.''
    That is a perception, and I will just bring it to this 
hearing, which is widely held among the people who are actually 
caring for our children. I think you would agree with that from 
what I have heard you say.
    Mr. Pasternack. Yes, I would, Senator Sessions.
    Senator Sessions. Mr. Chairman, I think this is a healthy 
hearing. I look forward to learning more about the complexities 
of this important Act. When you visit the schools and see the 
special ed children and how they are being served, it does make 
us feel proud that our country is investing in that, but we are 
investing a lot.
    We had a superintendent from Vermont here who testified 
that 20 percent of his budget goes to the special education 
portion of his school. So we are demanding an awful lot there, 
and we want to make sure we get the very best return and that 
the children we intend to help are given, under the limits that 
we have, as we always have on every budget item, the very best 
care that they can be given. I believe we can make it better.
    Thank you, Senator.
    Senator Wellstone. [presiding]. Thank you, Senator 
Sessions.
    I am chairing now, but I arrived later, so we will go by 
order of arrival.
    Senator Jeffords?
    Senator Jeffords. Early education is an area that concerns 
me, and the lack of adequate funding for early education, 
whether special education or otherwise. Every other 
industrialized Nation, as you know, after the studies of the 
eighties and nineties, fully funded their infants and toddlers 
and early education.
    What recommendations is the administration going to have to 
improve the ability of funding for early education and 
especially with an emphasis on special education?
    Mr. Pasternack. Senator Jeffords, one of the things that we 
absolutely have to do is identify what works in the area of 
early childhood and make sure that we are in fact helping 
people implement scientifically-based practices that are 
developmentally appropriate and are designed to prepare kids to 
learn in school and focus on the readiness skills that we know 
are so critically important.
    One of the things, among the many responsibilities that I 
am proud to have, is to serve as chair of the Federal 
Interagency Coordinating Council. The goal of that council is 
to advise the secretaries of the different Cabinet agencies on 
issues relating to early childhood, particularly as it relates 
to children at risk of developing disabilities or children who 
are diagnosed as having disabilities.
    Interestingly enough, the two goals that we are working on 
this year, Senator, are child care--because we hear from many 
families of children with disabilities that they do not have 
access to child care, and I know that you are aware of that 
issue--and the second one that we are looking at is another 
issue that I know you are aware of, and that is the need to 
have a good health care delivery system for families of kids 
with disabilities and particularly to look at issues in terms 
of the mental health needs of young children. One of the things 
that we are disturbed to hear, for example, is that in Head 
Start programs across the United States, the largest increase 
request for technical assistance that those programs have 
received is in the area of interventions for children 
exhibiting behavior problems.
    So we are very concerned about the rise in behavior 
problems in very young children, and we would like to see what 
we can do to prevent children from exhibiting those kinds of 
problems and make sure that we have high-quality staff trained 
to deliver scientifically-based interventions that are targeted 
to deal with those problems when they are identified.
    Senator Jeffords. Along with it, will there be 
recommendations of Federal funding to assist with those 
problems?
    Mr. Pasternack. We will look at that, Senator, certainly. 
As you know, we have a working group currently structured 
between the Department of Education and HHS to look at child 
care issues. The President's Commission includes Wade Horne, my 
colleague from HHS, Beth Ann Bryant from the Department of 
Education, Reed Lyon from NICHD--people with a legacy of 
achievement in the area of early childhood; and Russ Whitehurst 
and Susan Newman, who are assistant secretaries at the 
Department and both experts on early childhood.
    So clearly, we want to put the best and the brightest minds 
together and work with you to come up with appropriate 
proposals, understanding that it is not always about money, 
although resources are critically important. It is also about 
doing the right thing and making sure we have highly-qualified 
people to deliver the services.
    Senator Jeffords. Right now, as you know, there is really 
no help from the Federal Government with respect to funding. I 
know from talking to my young people who have children that 
they are spending about $5,000 a year per child in order to get 
an appropriate quality education. And obviously, there are not 
many young people who can pay that much for their children, so 
I hope that at some point, we will be able to have adequate 
funding as every other Nation in the world has for that age 
group.
    Mr. Pasternack. Thank you, Senator.
    Senator Jeffords. I also am concerned and want to talk a 
little bit about accountability and adding more accountability 
requirements to IDEA, especially before we know what the 
fallout will be with respect to the present AYP requirements in 
No Child Left Behind. It kind of disturbed me when you ere 
talking about more accountability requirements, because as you 
know, we had terribly shocking results from the AYP tests that 
were done before we implemented the bill. So I just hope you 
are aware that this is a very difficult area that could really 
make things look bad.
    Mr. Pasternack. Senator Jeffords, I know of your legacy of 
commitment to kids with disabilities, and I would just suggest 
that we really need to measure that kids are in fact making 
progress.
    I hear, as I am sure you do, from many families that they 
are frustrated because their kids are not making progress, that 
they have the same goals and objectives on IEP year after year, 
and I think it is just something that we really need to focus 
on. I am proud of the work that you all did to focus on the 
concept of adequately yearly progress, and I think the 
challenge to us in special education is to build the capacity 
of the learning community to make sure there are good 
assessment tools used to in fact document that kids are making 
progress, because I believe that that is the goal of providing 
the specially-designed instruction.
    Senator Jeffords. Thank you.
    The Chairman. Senator Bond?
    Senator Bond. I will pass.
    The Chairman. Senator Reed?
    Senator Reed. Thank you, Mr. Chairman.
    Thank you, Mr. Pasternack, for your testimony today. Let me 
raise one general issue and perhaps follow up.
    During the debate last year on the No Child Left Behind 
Act, I worked to include language in the Teacher and Principal 
Quality title to ensure that professional development provided 
to teachers in general education included instruction in 
special education. We have been talking today about preparing 
special education teachers, but I think it is incumbent to 
ensure that general education teachers have a much better grasp 
of special education in every phase--in their preparation, in 
in-service, and in their continuing education.
    In fact, in 1998, only 21 percent of teachers said they 
felt prepared to address the needs of students with 
disabilities in the general education population. How can we 
extend this effort in IDEA to reach out to the general 
education teacher population so they feel fully aware of and 
knowledgeable about special education? Can you comment on that?
    Mr. Pasternack. Thank you, Senator Reed.
    I think there are several things that we can do. One is to 
continue using the resources through Part D of the IDEA and 
investing and being good stewards of those dollars, making sure 
that we are working to develop high-quality professional 
development opportunities for people in general education.
    As I said in my opening remarks, it is not about special 
education or regular ed, it is about kids, and we clearly need 
to build the capacity of the general education system, because 
we are never going to fix special ed by only looking at special 
education.
    Another thing that I am concerned about, sir, is that when 
we put teachers through professional development, we have not 
really developed the technology yet to measure that the skills 
that they are learning are being used when they leave the 
professional development opportunity and that those skills are 
in fact leading to increased academic achievement in the kids 
who are then being taught by those teachers who have been 
trained.
    So I think that is kind of a paradigm shift that we need to 
help people make in the future.
    Senator Reed. Mr. Pasternack, in your comments and echoed 
by many of my colleagues on the inordinate amount of time in 
paperwork and meetings, may some of that be the result of not 
fully understanding the rules, assuming that you have to do 
more, bogging yourself down in paperwork?
    Cutting to the chase, is that one aspect of education that 
we can promote in this reauthorization, knowing the rules and 
knowing how far you have to go?
    Mr. Pasternack. Senator, I think that the most eloquent of 
the thousands of parents whom I have met with in the eight 
cities that we visited recently summed it up by asking could we 
please make it simpler. It is just too complicated. The intent 
is noble, and we have come a very long way, but I think we 
really have to work hard to make it simpler and streamline it.
    Senator Reed. In some cases, and not just with respect to 
special education, but many things, a rule is passed, and it is 
not so much the rule, it is the misunderstanding, it is the 
perception, it is overcompensating so that what starts out as 
something simple, people think, becomes more complicated. I 
again return to the point that perhaps we can think about ways, 
either through education or explanation, that we can, I would 
guess, eliminate some of the encumbrances that exist today 
without dramatically changing a lot of things. Maybe that is a 
hope and not a fact, but I think we should work on it as we go 
forward.
    There is one other point I would raise before my time 
expires. One of the important aspects of any education is the 
role of parents. I would hope that in this process, we would 
specifically and consciously and determinedly try to ensure 
that parents have a role in this reauthorization and have a 
role in all education and in special education. I think you 
also feel that way.
    Mr. Pasternack. Senator, I am an evidence-based 
policymaker. If I were not from New Mexico, I would be from 
Missouri. The last three people whom we have brought into the 
Office of Special Education Programs have all been parents, 
including our new director of the Office of Special Education 
Programs, who is the parent of a child with a disability.
    I believe that parents are the true experts on their kids 
and know more about their kids than anybody else, and we should 
be resources and consultants to those parents. So thank you for 
that comment.
    Senator Reed. Thank you, Mr. Pasternack.
    The Chairman. Senator Clinton?
    Senator Clinton. Thank you, Mr. Chairman.
    Mr. Pasternack, I greatly appreciate your testimony. You 
touched on many different issues in your written testimony and 
the answers that you have given to the questions.
    Will the administration be coming forward with specific 
recommendations concerning the reauthorization?
    Mr. Pasternack. Yes, Senator Clinton.
    Senator Clinton. And what is the timing on that?
    Mr. Pasternack. I believe that we will wait, Senator 
Clinton, for the conclusion of the activities of the 
President's Commission on Excellence in Special Education, and 
they are tentatively scheduled to release their report at the 
beginning of July. Then, we will use the work that is being 
done by the fine commissioners to help inform our approach to 
reauthorization and then hopefully be able to have something to 
you during the summer.
    Senator Clinton. So you think that we will have your 
recommendations by sometime this summer?
    Mr. Pasternack. I would hope during the summer and 
certainly no later than early fall, Senator Clinton.
    Senator Clinton. And will the administration be taking any 
position with respect to the mandatory funding for IDEA?
    Mr. Pasternack. I know that that is an issue of great 
concern to many, Senator Clinton, and I am sure we will be 
looking at that.
    Senator Clinton. With respect to the issues that we are 
going to be concerned with, certainly the funding issues, the 
early appropriate interventions and education issues, the work 
force training and availability of qualified teachers, the idea 
that you present in your testimony about a process versus 
progress kind of conflict as to whether we are just spinning 
our wheels or actually making progress on behalf of the 
children, are all very important.
    One issue that has come to our attention in a New York 
Times article in the last week is that there is concern given 
the Leave No Child Behind Act, with its emphasis on 
accountability, that there will be implicit incentives to over-
identify even more children as special needs children as a way 
of buying more time for those children to respond to any 
testing requirements that the State or the national Government 
have imposed.
    Has the administration and the Department given any thought 
as to how States and districts can try to prepare for that?
    Mr. Pasternack. Thank you, Senator Clinton.
    We have given a great deal of thought to that, and we are 
going to be working very hard. We believe it is about building 
capacity to implement the law, making sure that the right kids 
are in special education. I think that with Reading First, we 
really see a significant opportunity to help States improve 
their ability to deliver scientifically-based reading 
interventions to very young children which will hopefully 
prevent some students from being identified as having a 
disability, when in fact the problem to us seems to be that 
they were not taught how to read.
    We want to make sure that the kids who wind up in special 
education are in fact those kids with the intractable reading 
problems who cannot benefit even from scientifically-based 
instruction delivered by highly-qualified personnel.
    So we are going to be working very hard on that, and we are 
very aware of the increased demand for accountability. In your 
State, we are very proud of the data which suggest that right 
now, more kids with disabilities passed the Regents' exam than 
actually took the Regents' exam 4 years ago.
    So that kind of progress is laudable and commendable, and 
we need to spotlight that and help other States emulate what 
seems to be happening in the great State of New York.
    Senator Clinton. Thank you very much.
    Mr. Pasternack, I have got to excuse myself. We are 
introducing some legislation today on tracking chronic disease, 
the health tracking bill that Senator Reed and I have been 
working on. And with respect to that--I am very encouraged by 
your comment about being evidence-based; I refer to Washington 
at times as ``an evidence-free zone,'' so anyone who actually 
pays attention to and is concerned about evidence is someone I 
admire and respect--I am very much convinced that adequate 
medical screening would demonstrate that many of our children 
have environmentally-affected if not caused issues that lead to 
learning disabilities. The largest causes of birth defects are 
environmentally connected. Many of the continuing studies show 
high levels of lead in children's blood, high levels of 
mercury.
    So I would hope that in the process of reauthorizing this 
bill, we will also look below the surface at what is the reason 
why we have so many children with learning disabilities. From 
my perspective, it is a combination of genetics, the 
environment, and behavior, and if we do not start sorting that 
out, we are going to continue to see increasing numbers of 
children who are going to be held back because of disabilities 
that could have been prevented or could have been remediated 
very, very early.
    So I hope the administration will work on that issue as 
well.
    Mr. Pasternack. Thank you, Senator.
    I know that you are aware of the National Academy of 
Sciences report that was released that talked about teratogens 
and particularly adverse impact that that has on kids in 
poverty and overwhelmingly, kids of color. So it is something 
that we are very aware of, and we want to work with our 
colleagues and other Federal agencies that may have a role in 
helping us deal with it.
    Senator Clinton. Thank you.
    The Chairman. Senator Jeffords?
    Senator Jeffords. I have one additional question. You use 
the phrase ``right children'' very frequently. What is the 
definition of ``right children''?
    Mr. Pasternack. These are children who really do have 
disabilities, Senator Jeffords. As you know, half of the 
students in special education are in the category of specific 
learning disability; and while there are seven types of 
learning disabilities, and while we know that learning 
disabilities are real, we know that many of those students--we 
are not quite sure how many of them--may be instructional 
casualties. They might not be kids who have a disability, but 
they may be kids who were not taught how to read who really 
could have learned to read if they were taught by highly-
qualified teachers using the scientifically-based approaches 
that have now been identified.
    To me, that is the easiest example of some of the kids who 
may not be the right kids because these are kids who could have 
been instructed and do not necessarily have a disability.
    I think it has been our diagnostic approach; it has been 
the discrepancy model that we have used since 1975 to look at 
the discrepancy between expected and actual academic 
achievement as indicative of a learning disability. And as you 
well know, sir, there is a two-tiered approach. Not only are we 
supposed to identify the existence of a disability, but we are 
also determining the need for special education. I think that 
in some instances, we have not done that.
    So the language that I have been using is just an attempt 
to make sure that kids who are in special education are really 
kids who do have a disability, and those are the kids that I 
mentioned earlier, for example, in the area of reading who 
would have intractable problems and would need specially-
designed instruction delivered by highly-qualified personnel.
    Senator Jeffords. So what happens to the ``nonright'' 
children who are way behind in their skills, and who is 
responsible for them?
    Mr. Pasternack. Well, I think we clearly do not want to 
push kids out of special education who are currently in special 
education. We want to improve the quality of the services that 
those kids are receiving so we can get better results for those 
kids.
    What we are talking about, I think, rather than the 
proximal issue is a distal issue, one of making sure down that 
road that we are in fact taking a look at the taxonomy that we 
are using in our classification system and our assessment 
strategies to make sure that we are in fact helping identify 
the right kids by saying to the general education system, 
please document the failure of students to benefit from highly-
qualified people delivering scientifically-based instructional 
interventions that did not work, and then and only then should 
kids be referred to special education. So it really is kind of 
strengthening the general education system's ability to educate 
all kids so that we in special education would not over-
identify or be inappropriately identifying some students as 
having a disability.
    Senator Jeffords. Well, it makes me very nervous, the 
utilization of the ``right'' children in that respect, because 
it looks like more of an attempt to reduce the cost rather than 
to help the kids. That worries me.
    The Chairman. Senator Mikulski?
    Senator Mikulski. Thank you very much, Mr. Chairman.
    I want to welcome Mr. Pasternack and look forward to 
working with him.
    Mr. Chairman, I ask unanimous consent that my opening 
statement be included in the record.
    The Chairman. It will be so included.

                 Opening Statement of Senator Mikulski

    Senator Mikulski. Mr. Chairman, I want to thank you for 
calling this hearing on the reauthorization of the Individuals 
with Disabilities Education Act. I also want to thank each of 
the witnesses for coming here to share their expertise. I look 
forward to hearing your testimony.
    We are at the beginning of a long process. As we look at 
reauthorizing IDEA, I urge my colleagues to remember why we 
have this law in the first place. Congress first passed IDEA in 
1975 to ensure a public education for children with 
disabilities. The goal was to include students with 
disabilities in the classroom in order to help them succeed in 
school and in life.
    During this reauthorization, we should focus on three 
goals: giving disabled students a quality, individualized 
education; preparing them to live full, productive lives; and 
fully funding IDEA, so special ed is not a hollow promise.
    Last year we passed the No Child Left Behind Act, which 
emphasized accountability for student achievement. And guess 
what--students with disabilities are included in these reforms. 
Yet these children need special attention. We should think 
about the education system as one system, with accommodations 
for students with disabilities, but not as two separate 
systems.
    How do we do this? First and foremost, we need to provide 
adequate resources. When Congress passed IDEA in 1975, the 
federal government promised to pay up to 40% of the costs. Yet 
we currently only pay 16.5%. In Maryland, the federal 
government pays only around 10%.
    The federal government must pay its full share of IDEA 
costs. Let me tell you why. Our state and local governments are 
facing shrinking budgets. They are already cutting education 
spending. Yet they must make improvements in education in order 
to meet new federal standards.
    We have heard that 90% of states are not complying with 
IDEA. How can they comply if they don't have the money improve 
the quality of teachers, the success of early intervention, and 
everything else? How can they comply when they have to cut 
corners in order to save money? Without the proper resources, 
how can we expect schools to be able to provide a quality 
education for students with disabilities?
    IDEA is a success story. The dropout rate for these 
children has decreased and the graduation rate has increased. 
The number of college-bound students with disabilities has more 
than tripled. Yet IDEA services are extremely expensive. In 
Maryland, we spend an average of $13,000 to educate a child 
with special needs.
    Students with disabilities require special attention and 
special services, but for these children, these services are 
not ``extras.'' They're essentials that mean the difference 
between self-sufficiency and a life of dependence.
    We also need better coordination between special education 
and regular education, since the purpose of IDEA is to help 
disabled students achieve in school. We must make sure that 
IDEA is in line with the requirements in the No Child Left 
Behind Act. We must make sure that the special ed teachers and 
regular ed teachers are working together. This means additional 
training in special education for regular classroom teachers, 
so that they are able to handle children who are ready to join 
the regular classroom. It also means training in special ed for 
school administrators, so they know how to support the staff.
    Ninety percent of special ed students spend at least some 
time in regular classes. Yet teachers are only required to take 
one broad survey course in special education. This does nothing 
to prepare them for the practical problems of having disabled 
students in their classes.
    Finally, we need to focus on outcomes for the children--
achievement in school and success in life. This begins with 
making sure children are identified with the proper disability, 
and identified early. We must also address the shortage of 
qualified special ed teachers. 98% of US school districts 
report a shortage and there are several thousand vacancies 
across the country. 10% of special ed teachers are not fully 
qualified, but not nearly enough students graduating with 
degrees in special education.
    IDEA has done a lot of good, but it could be a lot better. 
The only way it is going to get better is by providing adequate 
resources for services to students, for teachers, and for 
coordination. I look forward to today's testimony and to 
working with the Chairman and my colleagues on this important 
issue. Thank you.
    Senator Mikulski. I also want to say to the parents, first 
of all, a very cordial welcome to you. To the parents and to 
the children who are here, when you see us coming and going, it 
is not because we are not interested--we are like airplanes 
stacked up over LaGuardia as we try to get to all of our 
hearings.
    So I want to welcome you. Your testimony is important, and 
we are proud of you and what you do.
    And to Ms. Rangel-Diaz, the National Council on Disability 
report I think really offers some very excellent guidance to 
the committee.
    Mr. Pasternack, first, I think the issues that you raised 
in your testimony are exactly the issues that we need to 
pursue, but I would like to raise some that are not usually 
covered in the discussion. That is the issue of caregiving for 
the parents and burnout of the teachers.
    We know that anything effective to help these boys and 
girls here depends upon their parents and upon their teachers, 
and of course, we in the community who support them.
    Could you share with us what thoughts you might have given 
to the whole issue of--let me give some background. I chair the 
Subcommittee on Aging, and we were looking at issues related to 
Alzheimer's and Parkinson's, where people in the same 
generation, particularly usually women, provide care--the whole 
issue of caregiving where someone in the family has a chronic 
condition that requires very special attention.
    What we provide in the area of aging are things like 
respite care and other things to support them in caregiving. 
Has anyone thought about how we can help these parents 
essentially--I do not want to call it burden-sharing; I mean 
responsibility-sharing--and in the whole funding of the 
disability act, while we look at full funding, that issue, 
either to help them with that and issues around caregiving, 
even to take a breather; have we thought about that, or is this 
new territory?
    Mr. Pasternack. Senator Mikulski, we have thought a great 
deal about that, but not within the context of the IDEA. As 
Senator Kennedy knows, I have a brother with Down's Syndrome 
who is 58, and many years ago, the life expectancy of people 
with Down's Syndrome was not expected to be that long. Now, God 
bless him, I am glad he is alive, but he has Alzheimer's; he 
broke his hip, he is in a wheelchair. I think that issues 
affecting the aging of people with disabilities are things that 
we have not developed good policies for as a country, and we 
need to be working with other Federal agencies who have the 
primary responsibility for those kinds of programs that you 
just articulated like respite care and make sure that we have 
supports in place so that we are helping families meet the 
needs of their children with disabilities as those children 
age.
    I think that is one issue among many. There is an 
incredibly high prevalence of Alzheimer's in older adults with 
Down's syndrome, and I believe it is an issue that requires the 
best and brightest scientific minds that we have.
    Senator Mikulski. And I agree, but I am not talking about 
the aging Down's syndrome. I am talking about these parents, 
right here, right now, who have a tremendous responsibility and 
the whole issue of counseling, another whole issue--how do we 
give help to those families practicing self-help? That is my 
question, and I hope they even speak to it there, because I 
think it is a significant issue within the family and also a 
significant impact on the other children when there is a 
particular child who needs the extra attention and love and 
help. We are talking about the whole family here. So that is 
one thing.
    The second thing is teacher burnout. Special education and 
even just general education is enormously challenging, and my 
question is as we look at teacher training--sometimes we are 
schoolmarmish in mandating credentials, and that they meet this 
requirement--it is exhausting.
    So my question is in teacher quality improvement, are we 
looking at what to do with burnout. And number two, when you 
say there are some teachers who even want their credentialing 
removed, if you want to be an administrator or move up, should 
we have a rotation through special education so that if you are 
going to be a principal or a school superintendent and so on, 
you have taught all of the children? And again, I do not want 
to be acting like the chairman of Baltimore City's Board of 
Education, but have we thought about burnout and helping the 
teachers--and of course, I am worried about the burnout of 
parents.
    Mr. Pasternack. Well, Senator, I know that time is short, 
but I will tell you that the issue of compassion fatigue that 
we sometimes call burnout is one that we are very concerned 
about, and we want to make sure----
    Senator Mikulski. I think that is a better phrase, and I 
will substitute that phrase.
    Mr. Pasternack. That we have a system of supports in place 
to retain the highly-qualified, competent, dedicated, 
compassionate, empathetic people that we need to have in our 
profession.
    And your issue about parent supports, we can when we have 
more time talk about our system of parent training and 
information centers and the community parent resource centers 
that we fund through Part D that do try to address those 
issues.
    I like your idea very much and would like to talk to you 
more about it.
    Senator Mikulski. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Senator Wellstone?
    Senator Wellstone. Thank you.
    I am going to be very brief, because you have done just a 
superb job, Mr. Pasternack; you really have--and I know there 
are others who want to testify.
    Just to be really brief, rather than asking questions, I 
think I will just say a couple of things, and you can respond 
in any way you wish. And again, thank you for your testimony. I 
thought your answers to the questions were just superb.
    I hope that when we are talking about accountability, we 
will have multiple indicators, that you will look at multiple 
indicators of student achievement. I think it is a huge mistake 
to rely on a single standardized test, and I think that people 
in the testing field say that as well.
    The second appeal I want to make to you--and I do not want 
to just put this at your doorstep, but I would make an appeal 
on IDEA Part C and the whole question of mental health 
concerns, mental health needs--and of course, this is one of 
Senator Domenici's big priorities--yesterday I was in and out 
of a breakfast briefing by the National Mental Health 
Association in which they were saying that the President's 
budget has some really rather severe cuts in children's mental 
health services. I would just say for the record here today 
that I think we are going in the wrong direction if that is 
what we are doing. I think that if we can figure out ways of 
getting help to these kids--sometimes--and my wife and I do a 
lot in the area of trying to prevent violence in the home--
sometimes, where children witness violence in their homes, that 
domestic violence affects their behavior. We have got to figure 
out ways of connecting to these kids and help them early on 
before they get into even more trouble. So I would just appeal 
to you in whatever way you can be a voice for making sure that 
we get the resources and services and support to kids at the 
community level that we do so.
    My final point is going back to a question that Senator 
Clinton asked you--and again, I know it is hard for you to give 
a ``yes'' or ``no''--but I also want to go on record--and we 
are pushing very hard now in the budget resolution--on the 
issue of making IDEA mandatory and having full funding--I think 
we do it in 6 years--and then we keep that full funding. For my 
State of Minnesota and for many other States here, it is a huge 
issue--a huge issue--and I think we just absolutely need to do 
it.
    Going to Senator Mikulski's point, I also think it ties 
into teacher burnout, because the truth of the matter is that 
part of it is the paperwork. You are absolutely right. I hear 
about that all the time. But I also think the teachers just 
feel like sometimes it is a matter that salaries are not 
necessarily that high, school districts are now having to make 
horrible tradeoffs where they are cutting here, cutting there, 
prekindergarten programs are not what they should be, buildings 
are dilapidated, there is no money--it is just a lot more of a 
comment that we have to make. And frankly, this Leave No Child 
Behind Act has a great name, but the resources are not there. 
The funding is not there. We have not received the funding that 
we need from this administration.
    So I am counting on you, given the great testimony you have 
given today, to change all that right away and make everything 
right. [Laughter.] That is it.
    Mr. Pasternack. Thank you, Senator Wellstone.
    The Chairman. Mr. Pasternack, thank you very, very much for 
being here and for a very impressive and thoughtful series of 
responses to the questions. You have obviously given these 
issues a lot of thought and have come to this with very broad 
personal experience as well.
    I think all of us feel enormously reassured as we go 
forward in terms of trying to develop this legislation. We are 
going to be calling on you frequently for your help and 
assistance.
    Thank you very much for your appearance.
    Mr. Pasternack. Senator, I would just like to thank you and 
Senator Jeffords and the other members of the committee for 
your legacy of support. Clearly, the work that you have done 
has dramatically improved the quality of life for people with 
disabilities in this country, and on their behalf, I thank you 
very much.
    The Chairman. Thank you very much.
    We welcome our next witness. Lilliam Rangel-Diaz is a board 
member of the National Council on Disability, an independent 
Federal agency representing people with disabilities. Ms. Diaz 
also serves on the Advisory Board of the Center for Child 
Development and Preschool Inclusion at the University of Miami.
    A recognized expert in the field of special education, Ms. 
Diaz is also the mother of five children, including a child 
with developmental delays.
    Good morning. Thank you very much for being here. We look 
forward to your testimony.

 STATEMENT OF LILLIAM RANGEL-DIAZ, MEMBER, NATIONAL COUNCIL ON 
                   DISABILITY, WASHINGTON, DC

    Ms. Rangel-Diaz. Good morning, Chairman Kennedy and 
distinguished members of the committee.
    Good morning, children and parents. Thank you for being 
here today to remind us that you are the consumers and that 
this is all about you.
    Thank you for inviting me to participate in this hearing. I 
am a proud member of the National Council on Disability, and I 
am humbled to be here today on its behalf. I am also most proud 
to be ``mom'' to six wonderful boys, two of them with 
disabilities, and to serve the families of children with 
disabilities in my community as a professional advocate.
    As an independent Federal agency, the NCD's charge is to 
make recommendations to the President, Congress, and Federal 
agencies on equal opportunity for all individuals with 
disabilities. We welcome the opportunity to share our 
recommendations about IDEA with you this morning.
    Unfortunately, students with disabilities and their 
advocates continue to fight some of the same battles that were 
fought in Brown v. Board of Education to put an end of the myth 
that ``separate is not equal.'' Congress crafted the precursor 
to IDEA in 1975 to halt these practices. If IDEA were 
faithfully implemented and enforced across the country, it 
would work well. However, 27 years later, we are still seeking 
solutions.
    NCD has identified four critical issues in the 
implementation of this civil rights law--monitoring and 
enforcement, full funding, discipline, and other representation 
of students form culturally divers backgrounds. Most of our 
comments this morning will be on the first--monitoring and 
enforcement--for we believe it to be the key to all others.
    In January 2000, NCD released ``Back to School on Civil 
Rights,'' reporting on a study that established how the Federal 
system of monitoring and enforcement has been working in 
enforcing the basic requirements of IDEA--FAPE, LRE, IEP, 
transition, general supervision, procedural safeguards, and 
protection in evaluation of student with disabilities.
    The study found every State and the District of Columbia 
out of compliance with the law to different degrees. Eighty 
percent of the States failed to ensure compliance with FAPE; 78 
percent failed to ensure compliance with procedural safeguards; 
and 72 percent failed to ensure compliance with the least 
restrictive environment, thereby unnecessarily relegating the 
students to segregated settings.
    We found students from diverse populations 
disproportionately represented in separate classrooms. 
Basically, we found that too many students did not receive 
FAPE; were not educated in the least restrictive environment--
meaning inappropriate placements in separate, segregated 
settings or the lack of services for students served in regular 
classrooms; did not receive related services reflected in their 
IEPs; could not access transition services, and did not receive 
procedural safeguards and protections.
    We also found that the real enforcers of the law have been 
parents, and as I will discuss later, they are not provided the 
tools they need to do this important work.
    We have other studies as well. In a Social Security 
Administration Commission study on the implementation of 
transition mandates, postsecondary education, and employment 
outcomes, we found poor graduation rates, low employment rates, 
low postsecondary education participation, and an increasing 
number of youth stuck on the Social Security benefit rolls.
    At the same time, we identified a host of effective 
practices and research that should be more widely utilized, as 
well as promising Federal initiatives that deserve more 
support.
    Our follow-up activities have included collaboration with 
OSEP, supporting a group of stakeholders who are reviewing 
OSEP's continuous monitoring improvement system and 
recommending performance benchmarks and enforcement triggers.
    An NCD Youth Advisory Committee informs us on the needs of 
you with disabilities, particularly related to IDEA.
    Parents of children with disabilities are enthusiastic 
supporters of the law. They think it is a good law, but they 
also outline problems that emphasize the importance of strong 
Federal enforcement. When students do not receive IEP services 
and supports, they cannot achieve outcomes. Students 
categorically and unnecessarily placed in restrictive 
educational settings are stigmatized and have difficulty 
learning. Under such circumstances, school systems do not 
maximize the use of scarce Federal education dollars.
    We understand the need to explore the question: Doesn't 
such a high level of noncompliance point to the fact that it is 
clearly a bad law that States cannot comply with and whose time 
for change has come?
    However, from our work, we can only conclude that this is 
not the case. We believe that altering the basic educational 
rights in IDEA would devastate the promise of FAPE for students 
with disabilities. From Back to School, we know that 20 percent 
of the States are in compliance with FAPE. What is their story?
    The same applies to LRE. WE need to look to the 28 percent 
of the States that were found to be in compliance for guidance. 
There are beacons out there that we need to follow. The issue 
is not the law. Our data clearly identify the major issue--that 
implementation of IDEA has been inconsistent and lacking any 
real teeth.
    Currently, OSEP relies on compliance plans and technical 
assistance for States found out of compliance with IDEA. There 
are no clear objective criteria for additional enforcement 
options for States that persist in substantial noncompliance. 
Without standards defining limits and providing appropriate 
sanctions, the incentives for corrections are not compelling 
enough to stop the cycle of noncompliance. The result is 
devastating for students and their families, who continue to be 
denied the protections of this civil rights law.
    My written testimony contains several recommendations that 
NCD is making.
    I appreciate the opportunity to be here today and welcome 
any questions.
    Thank you very much.
    [The prepared statement of Ms. Rangel-Diaz may be found in 
additional material.]
    The Chairman. I want to thank you very much for giving 
focus and attention on the noncompliance. This is really an 
extremely important aspect. You also observed other features in 
terms of funding and discipline and the other cross-cultural 
kinds of issues. But compliance is obviously a key aspect, and 
we tried in the last reauthorization to provide some ways of 
doing this, which have not been successful, through the 
Department of Education being able to go to the Justice 
Department to get them involved, and they have not used any of 
these tools.
    I do not know if you have a sense that the tools that we 
provided are not good, or they have not been utilized. Could I 
hear you on that, please?
    Ms. Rangel-Diaz. I would be happy to. That is one of my 
favorite subjects.
    It is not that they are not good; it is that they have not 
been utilized. We strongly believe at NCD and through the work 
that we have done that there is an inherent conflict of 
interest in having the Department of Education be the agency 
that provides technical assistance to States and school 
districts on the implementation of the law and also being the 
agency required to enforce the law, which we have found has not 
been done very well.
    So one of our recommendations is to expand the role of the 
Department of Justice. We ask that Congress authorize and fund 
the Department of Justice to independently investigate and 
litigate IDEA cases as well as to administer a Federal system 
for handling individual complaints. I hope this answers your 
question.
    The Chairman. So you think that if the Justice Department 
independently did a review, this would be a way of proceeding 
to ensure the monitoring and also the accountability?
    Ms. Rangel-Diaz. This is what we think. We also think that 
the Departments of Education and Justice should together 
develop national compliance standards and improvement measures 
and enforcement sanctions to be triggered by specific 
indicators of a State's failure to ensure compliance and that 
it is really important that the stakeholders are involved in 
the development of this national compliance, of course, 
including parents and youth with disabilities.
    We recommended around these activities for a State-level 
technical assistance network, self-advocacy, and monitoring and 
training for students, parents, and other partners, and low-
cost legal services for families, and that there be an increase 
of 10 percent whenever Part B of IDEA is increased for these 
specific activities related to enforcement.
    The Chairman. Well, you make a very, very important point, 
and that is that even if we get the other provisions right, if 
we do not get this one right, we are not really doing our job. 
Whatever we do, whether in the funding or in the discipline or 
the other kinds of cross-cultural issues, education competency 
of special ed teachers, parental involvement or any of the 
others, unless we have enforcement, then it is really an empty 
promise.
    This is a very important and significant study that you 
have done, with very important and significant recommendations, 
and we want to try to ensure that whatever we do here, we have 
the kind of effective accountability that you feel is necessary 
to make sure that we have compliance. This is very important 
subject matter, and you have served us very well in your 
presentation, and we are going to be looking forward to working 
closely with you to try to get it right. So thank you.
    Senator Wellstone?
    Senator Wellstone. Ms. Rangel-Diaz, thank you for your 
testimony.
    I agree with what Senator Kennedy said. I think your words 
that, ``altering the core educational rights in IDEA would 
devastate the promise of a free and appropriate public 
education for students with disabilities,'' ring loud and 
clear, and I thank you for it.
    Do you have some ideas about how we could better reduce the 
overidentification of children with disabilities?
    Ms. Rangel-Diaz. If IDEA were faithfully implemented, that 
would definitely take care of the overrepresentation. If we 
were to use the protections available for children with 
disabilities in the evaluation process, it would take care of 
decreasing the overrepresentation. If we use the evaluation 
tools that are available and develop those that we may need to 
develop to truly evaluate children who have limited English 
proficiency and who belong to diverse cultural groups, we will 
be decreasing the overrepresentation of children in special 
education.
    Senator Wellstone. And the other question I have for you--I 
absolutely share your commitment to the core rights that are 
provided under this legislation. I am also persuaded that 
teachers do spend too much time on paperwork and not enough 
time with the students.
    Is there a way to reduce the paperwork without sacrificing 
the core rights of the children or the students?
    Ms. Rangel-Diaz. We live in an era of technology, and I 
think we need to use the technology that we have available to 
us to make sure that children's outcomes to not suffer because 
of paperwork.
    I must say that I live in Miami, FL, and I must live in a 
different world, because I do not see our teachers spending 
that much time doing paperwork. I think that if teachers are 
trained, and principals understand, and we spend the time 
really implementing IDEA, there is not really that much 
paperwork.
    Senator Wellstone. Thank you.
    Mr. Chairman, we have yet another panel, and I do not want 
them to run out of time and all of us have to go vote or 
whatever, so I will conclude my questioning.
    I want to thank you. I believe that your testimony is 
extremely important, and I thank you.
    The Chairman. Thank you very, very much.
    Ms. Rangel-Diaz. Thank you very much.
    The Chairman. We will now ask Valerie Findley if she would 
be good enough to come up. Senator Harkin gave a very stirring 
introduction of you.
    Then, we welcome Bob Runkel, who is Montana State Director 
of Special Education in Helena, MT; Bob Vaadeland, who is 
Superintendent of the Minnewaska Area Schools in Glenwood, MN; 
and Kim Ratcliffe, who is Director of Special Education for 
Columbia Public Schools in Columbia, MO.

 STATEMENTS OF VALERIE FINDLEY, PARENT, DES MOINES, IA; ROBERT 
 RUNKEL, ADMINISTRATOR, DIVISION OF SPECIAL EDUCATION, HELENA, 
MT; ROBERT VAADELAND, SUPERINTENDENT, MINNEWASKA AREA SCHOOLS, 
GLENWOOD, MN; AND KIM RATCLIFFE, DIRECTOR OF SPECIAL EDUCATION, 
             COLUMBIA PUBLIC SCHOOLS, COLUMBIA, MO

    Ms. Findley. Bad timing--my daughter Louisa was going to 
sit up here with us and may return any minute.
    The Chairman. It has been a long morning. She has been 
enormously patient. All these children have been.
    Ms. Findley. She has done a very good job.
    Chairman Kennedy and other distinguished members of the 
HELP Committee, I want to thank you for the opportunity to 
speak to you today.
    Although Senator Harkin's introduction was certainly 
glowing, I am not an expert on all the technicalities of each 
section of IDEA, but I am, like most parents, an expert on the 
strengths and the needs of my own daughter, and that is what I 
will speak to today--our family's experience with IDEA and 
special education services.
    How do you relate 9 years of joy, grief, confusion, and 
success in just a few minutes? I would like to start off by 
helping you know my daughter a little. Louisa's favorite things 
are swimming, horseback riding, and eating foods. She loves 
spicy and sour things; her favorites are guacamole and lemon 
meringue pie and garlic bread. She loves to dance with her 
daddy, and she loves to sing with mom, which beats me.
    She has an infectious laugh; she is very sociable; and she 
has been described by some as a ``love machine''--she just 
makes you want to cuddle.
    Louisa has a very small verbal vocabulary with words 
including ``go'', ``more'', ``cold'' and my favorite, 
``Mamama.''
    Louisa uses a wheelchair for mobility; she uses hearing 
aids and wears glasses, and she receives the majority of her 
nutrition through a gastrostomy tube. She wears braces on her 
legs for some of her activities, and she uses switch-controlled 
deices for basic communication, choice-making, and to entertain 
herself, as well as to help out with simple chore at home.
    Although she often appears inattentive, do not let her fool 
you. Louisa is very aware of what is going on around her, and 
she will do her best to make known her wants, her needs, her 
interests, and her frustrations.
    Every journey has a beginning. Ours started when, during a 
healthy pregnancy, I suddenly developed toxemia. Louisa 
underwent a series of prenatal tests, and it was determined 
that she had fluid that had accumulated in her lungs and was 
experiencing fetal distress. At that time, she was delivered by 
emergency C-section a little over 7 weeks prematurely. During 
the delivery, Louisa aspirated meconium, and because of the 
immature development of her lungs, suffered brain damage.
    She spent the next 2\1/2\, almost 3 months, of her life in 
the intensive care units of two hospitals in Des Moines, where 
she was born, and in Omaha, NB, where she was life-flighted 
after 3 days. While she was at the medical center in Omaha, it 
was determined that she had what would be considered a Type 2 
cerebral palsy, and we were told at that time that Louisa would 
probably have difficulty with gross motor skills, things like 
walking and being able to dress herself.
    When Louisa was returned to the hospital in Des Moines, our 
home town, we realized that her challenges were going to be 
much more severe and lifelong. Our family was moving into 
uncharted territory.
    Since then, Louisa has been given additional diagnoses of 
mental retardation, cortical visual impairment, central 
auditory processing disorder, and being chronically adorable. 
[Laughter.]
    When Louisa first came home from the hospital still on 
oxygen, we immediately began to seek out information and 
support for what we knew was going to be an entirely new 
journey for all the members of our family. When we left the 
hospital, we really received very little information or 
resources about where to go and find out how to help Louisa 
best.
    One of the places where we looked to educate ourselves in 
order to help her achieve the best outcomes and the fullest and 
most satisfying life possible was to our education system and 
Iowa's Early Access Program.
    At the age of 5 months, Louisa began receiving Part C early 
intervention services through the Des Moines School District, 
first at home and later in her day care setting. I will never 
forget the first two women that we encountered. They walked 
through our door and changed our lives. Jean Linder was an 
occupational therapist and Georgia Woodward an early childhood 
special education teacher. They inspired and supported us 
through the nearly 3 years that we worked with them. Over cups 
of tea in our living room, they worked with Louisa and provided 
our family with information, strategies, and the moral support 
that helped us move from broken dreams to new hope and 
understanding.
    Through the Individualized Family Service Plan, or IFSP 
process, the helped us to identify our family's and Louisa's 
needs and strengths and secured the coordinated services and 
resources we would require. The whole notion of coordinated 
services was mentioned a couple of times earlier today, and I 
want to stress how very, very important that is, that education 
systems are working with medical systems, are working with 
public health systems, are working with other systems of 
community support for families raising children with 
disabilities..
    While in the early access Part C process, our family was 
allowed to retain our privacy and as much normalcy as 
possible--which is not an easy thing when you have therapists, 
respite care workers, teachers, all sorts of people coming into 
your home. These individuals, like many who have followed, 
served as the guideposts along our way. One of the most 
important things they taught me was that we were Louisa's 
advocates, that we would be required to speak for her and 
defend her rights to secure the services she would need in 
order to reach her fullest potential and a meaningful life. I 
will be forever indebted to them for their honesty and 
compassion.
    I believe that extending the IFSP process through at least 
age 5 would be a good thing, as the family-centered approach to 
service coordination is valuable during this time of early 
intervention.
    When Louisa was 2 years old, she was registered on our 
State's deaf-blind registry. This gave us access to our Deaf-
Blind Project staff, who provided technical assistance to 
families and school staff in order to address the very unique 
challenges that children with both vision and hearing 
impairments face.
    When Louisa was still a baby, we were provided with 
strategies for sensory integration, communication by touch 
cues, and even tips for creating a home environment that would 
encourage her to use and maximize her vision and hearing.
    When Louisa was 3, she attended and inclusive preschool in 
a shared program that included both typically developing 
neighborhood children, other children with disabilities, and a 
Head Start program. She remained in this setting for 3 years, 
receiving early childhood education and related services to 
work on goals that were identified through the Individual 
Education Plan, or IEP, process.
    One thing that families with children with disabilities 
face and has also been mentioned is the very difficult time of 
trying to find preschool and day care settings for our 
children. I hope that is something that we can work on more and 
more in the future.
    As Louisa was ready to transition to kindergarten, we 
visited principals and staff at three neighborhood schools 
closest to our home as well as a private school for children 
with disabilities in order to determine which setting would be 
most beneficial for her. We decided that Hillis, where she 
currently attends, was the place for Louisa. We were most 
impressed by the welcoming attitude of the principal, Larry 
Streyffeler, and the other staff there. He did not flinch when 
we described Louisa and the services she would require, which 
are considerable. And he let us know that together, we would do 
whatever it takes to ensure Louisa a positive school 
experience.
    Another factor of our choice was the physical accessibility 
of Hillis School. We realized that under IDEA, we would have an 
opportunity to press that issue if the school that she was 
supposed to go to had not been accessible, but you have to 
choose your battles, and that was one that was easy to make at 
Hillis.
    So Louisa was enrolled in a regular kindergarten classroom. 
On the last day of school that year, Louisa came home with her 
first invitation to a birthday party. Such joy. Our Louisa 
would have friends in her life. We were worried about that.
    Louisa is now in the third grade where she continues to be 
included in the general education classroom with friends she 
has known since kindergarten. Her classroom teacher has the 
support of a special education teacher who is assigned to the 
entire classroom, as well as two one-on-one half-time 
associates who assist Louisa personally with her schoolwork, 
transfers, and personal cares, and work with the other children 
in the classroom when Louisa is occupied with her peers or is 
doing therapeutic services.
    Louisa has an extensive IEP team, including her father and 
me, the principal, her classroom teacher, a special ed teacher, 
the associates, a physical therapist, an occupational 
therapist, a speech and language pathologist, a vision 
itinerate teacher, a member of the district's assistive 
technology team, a district special education consultant. Her 
IEP team has also included a school psychologist, social 
workers, Louisa's horseback riding therapist, her respite care 
worker, and anyone who has played a role in her life.
    The IEP process is working for my child. It allows our team 
to paint the entire picture of Louisa for school programming. 
It has confirmed to me the importance of partnerships. The 
older she gets, the more important it is that we build on 
Louisa's capacities and capabilities and not just those things 
she cannot master.
    It is even more important that the players who are involved 
in painting this portrait are looking at her from several 
angles. I have been impressed with the teamwork and commitment 
of the district and school staff that we have worked with.
    Challenges with multiple disabilities can hide true 
abilities and talents. Cognitive evaluation of children who are 
hampered by severe physical and communication impairments is 
often difficult, and we as parents have asked that when 
conclusive evaluations have been impossible, that Louisa be 
given the benefit of the doubt. This has been the foundation of 
our IEP process.
    IDEA provides the entitlement of every child to a free and 
appropriate education in the least restrictive environment. 
IDEA calls for the continuum of services and access to the 
general education curriculum. Not all kids will succeed in the 
same way or at the same pace, but they can all benefit from the 
educational experience, gleaning those things that impact their 
lives.
    The original focus of the law was to create access to 
educational opportunities for students with disabilities. It is 
also a civil rights law. All kids need to experience school and 
extracurricular activities that promote peer relationships, 
respect for differences, and the pride that comes from 
extending a helping hand to others.
    Louisa loves school and is in turn well-loved by her 
classmates and other students. Her peers take turns being 
Louisa's helper because everyone wants to be her special 
friend. Staff have related that Louisa's presence in the 
classroom has been a motivation for children who have 
behavioral issues. Being allowed to help Louisa is used as a 
reward for these kids' good behavior in class. I think that is 
a wonderful way for Louisa to contribute.
    Louisa's favorite classes are music, PE, and art. She also 
enjoys reading the spelling list to her peers with the help of 
a switch-controlled tape recorder. Her friends include her in 
their play at recess, clamor to sit next to her at lunch, and 
often have wonderful ideas for accommodations in the classroom 
so that Louisa will not feel left out of things. For the last 2 
years, Louisa has also attended a half-day summer school 
program where her IEP activities are continued.
    Louisa receives support from her related services staff on 
either a direct or consultative basis, with most services 
integrated into the daily class schedule so that she can 
participate in regular classroom curriculum activities with her 
peers while working on her own IEP goals. I acknowledge that 
this can be a challenge sometimes as we strive to balance 
Louisa's needs with the needs of the other children in the 
classroom, but I have been overwhelmed with relief and delight 
when parents of the other children have approached me to say 
that their son or daughter often talks about Louisa and how 
much their child appreciates and enjoys her. I have several 
times experienced them thanking me for her being there, as they 
feel that her presence is a positive thing and has helped their 
own children be more kind and accepting human beings.
    IDEA ensure that an array of service options are available 
based on the unique and individual needs of the child, 
determined with the input and expertise of the child's parents 
or guardians. The IEP process ensures that parents have the 
opportunity to participate as equal partners in decisions being 
made. An ``M.O.M.'' is recognized as equal in expertise to a 
Ph.D. or a master's of education when it comes to the 
determination of appropriate services and placement for our 
children.
    I realize that Louisa and our family have been very, very 
lucky to have had the opportunity and the overwhelmingly 
positive experience that we have had. I think one of the factor 
is that we live in our capital city and have lots of resources 
available to us. I realize that families in some other areas 
have not fared so well, and when we are talking about IDEA, I 
think we need to remember that it is not the law that is 
broken; it is the funding that needs to be in place that will 
allow for proper implementation.
    I also realize that we have been lucky because we have 
gained and understanding of our rights as parents and our 
daughter's right to a free and appropriate education.
    My most important and best-loved job is parenting, but I 
have also been able to work with hundreds of other Iowa 
families who have children with special needs. My own area of 
expertise is community-based family support services, but when 
I speak to family members who have issues about special 
education implementation or ideas about what is going on in 
their school and ways to make it better, I often consult with 
our Parent Training and Information Center, which we share an 
office with. Promoting parent participation and parent-
professional partnership is crucial to the success of our 
children. When problems occur, we should encourage mediation 
and resolution of the dispute at the lowest level. Resolution 
facilitators should be available to all families as a vital 
component of due process.
    Lawsuits should be the last resort. We have been hearing 
this morning about the prevalence of lawsuits, but I think what 
we need to realize is that lawsuits are always the last resort 
of parents when things are not happening according to the law, 
and the law is there to protect them.
    It is hard to imagine that only a generation ago, many 
children did not have the opportunity to go to school at all, 
were routinely institutionalized, or had no other option than 
``special'' or segregated schools and classrooms. Many students 
had disabilities that were not identified, and they struggled 
and failed in a system that was not meeting their unique needs. 
These children were frequently subjected to cruel taunts and 
insults, told they were stupid and that they simply needed to 
try harder. I know because two of them were my siblings.
    My brother Hank, who is 11 months older than I, and my 
sister Audrey, who is 2 years younger than I, both had learning 
disabilities, including dyslexia. In addition, my brother Hank 
had only partial hearing in one ear and had lost the use of one 
eye as the result of an accident. These challenges also 
affected his learning.
    When Hank was held back to repeat kindergarten, our parents 
enrolled him in a parochial school though we were not Catholic, 
and they got him tutors for extra help. They worked very hard 
at trying to help him with reading and math and basic learning.
    The next year, when he returned to public school, he and I 
were now in the same grade and would continue throughout our 
schooling years. Because learning came easy to me, it was 
heartbreaking to watch my brother struggle in class and to hear 
our peers make fund of him, call him ``Dummy'' and ``Cyclops'' 
and other mean things. I knew he was smart. I knew he was kind.
    Senator Wellstone. Ms. Findley, your testimony is so 
powerful, but I have one worry. That is if we have a vote, and 
all of us have to leave, the committee will then disband. So I 
might ask you if you could quickly bring it to a conclusion. It 
is very powerful, and I hate doing what I am doing, but I am 
just worried that we will have to leave before we have heard 
from everyone.
    Ms. Findley. I understand completely.
    Senator Wellstone. And I thank you for your eloquence.
    Ms. Findley. You bet.
    The story of my brother and my sister, to make a not very 
long story even shorter, is that their experience was not a 
good one in school. They wound up going to private school in 
Florida, a residential school, very expensive, very difficult 
for our family to be broken up in order for them to have the 
opportunities that they needed to have.
    When Public Law 94-142 was passed in 1975, it was a huge 
victory and a time of celebration in our household, but it was 
too late for my brother and my sister. My brother went on to 
have much difficulty in life, and I believe sincerely that it 
was as a result of his early experiences as a child and a 
complete erosion of his own self-esteem.
    A success story that I would like to relate is that when my 
sister graduated from high school, her high school counselor 
told her that she should very seriously consider food service 
as a career because that was one of the few things that she 
would be able to succeed at. My sister now has a master's 
degree in counseling psychology. She is a licensed marriage and 
family therapist, and she has gone back to the Learning 
Disabilities Conference to provide a measure of hope to those 
families and children.
    We have to be careful when we are defining the goals of 
education. I have heard people say that productive, 
contributing citizens should be the end result of the 
investment of public education dollars--but how do we define 
``productive''?
    Louisa has provided our family with a gift we never could 
have anticipated. She has helped us and other members of our 
community to grow and become better people through 
understanding her unique and sometimes hidden gifts and 
contributions. That is why we are here today, to maintain an 
educational system where truly no child is left behind.
    On behalf of Louisa, Hank, Audrey, my mom and dad, and 
every other parent and child with special needs in America, I 
want to thank you for listening, for keeping the faith in our 
kids, and for pursuing excellence in an educational system that 
serves and includes all children.
    And if I may have your indulgence, I think Louisa has a 
short message she would like to express.
    Ms. Findley. [via voice-assistive device]. Hello. My name 
is Louisa. Thank you for inviting my family to come here today.
    I am in the third grade at Hillis School with all of my 
friends, and I really love it.
    Ms. Findley. Thank you.
    Senator Wellstone. Thank you, Louisa, and thank you, Ms. 
Findley.
    I know that you came by van a long way as a family, and I 
think you have spoken for many, many families all across the 
country. As you well know, with Senator Harkin who serves on 
this committee, you do not have a stronger champion.
    [The prepared statement of Ms. Findley may be found in 
additional material.]
    Senator Wellstone. We will hear from all of you and then go 
to questions, hopefully.
    Mr. Runkel?
    Mr. Runkel. Thank you, Mr. Chairman and members of the 
committee, and our families, and Louisa.
    I would ask that you please include my written statement in 
the record.
    Senator Wellstone. We will do so.
    Mr. Runkel. My name is Robert Runkel. I have served as the 
administrator of the Division of Special Education for the 
State of Montana since 1987. I also currently serve as 
president of the National Association of State Directors of 
Special Education.
    I appreciate the opportunity to appear before this 
committee and share my thoughts and recommendations for the 
current reauthorization of IDEA. In the short time that I have 
this morning, I want to take a moment to honor the efforts of 
this committee, the involvement and support of parents, and the 
quality and dedication of teachers and related service 
providers.
    Let me begin by emphasizing that special education is not a 
sperate system of education; it is a service provided to 
students. I ask your help to craft legislation so that every 
child will have the opportunity to achieve his or her potential 
through a seamless education system that supports learning for 
all children.
    IDEA 1997 refocused efforts on accountability for outcomes 
with students with disabilities. I cannot emphasize enough how 
valuable it has been for children with disabilities to be 
included in each State's accountability system. However, in our 
efforts to focus on outcomes, it is important to remember that 
results of academic achievement tests tell only part of the 
story. While State standards measured by achievement tests have 
great value, it is important that these tests are kept in 
balance with a number of other key outcome indicators.
    The system of special education includes tens of thousands 
of parents, teachers, and administrators working together to 
prepare our students for a bright future. Children with 
disabilities are now included more than ever with their 
nondisabled peer group.
    Important procedural legal protections contained in the law 
are being implemented, and parents are now more involved in 
important decisions regarding their children's services. This 
is both gratifying and commendable.
    The basic principles of IDEA are sound. There are, however, 
a few areas that we need to address that I believe would 
produce improved outcomes for our students. For many school-age 
children with mild disabilities, or at least, less visible 
disabilities, eligibility for special education is determined 
on a ``wait to fail'' model. Too many of our children need to 
be so far behind before they are able to access the services 
that they are likely to never catch up.
    And for the sake of reporting requirements, we continue to 
find it necessary to label our children. Labeling can reduce 
expectations, affect the self-concept of the child, and change 
the dynamics of the relationships between people. It is just 
too easy to blame lack of success on the characteristics of the 
student instead of the effectiveness of the services offered.
    Often, our parents and students do not understand the need 
for the label or the necessity for waiting for failure--nor do 
I. It is time that our children have rights without labels.
    The day has come for our special ed system to allow our 
children to access on-time delivery of services based on 
educational need. I would respectfully suggest that the 
reauthorization of IDEA is the appropriate time to reexamine 
the fundamental concept of how and when children become 
eligible for services.
    Montana's State and local education agencies, like many 
State and local education agencies around the country, faces 
significant funding issues that can and should be addressed 
through reauthorization. Let me mention a few.
    First, full funding of IDEA. I want to particularly thank 
the members of this committee for their strong support last 
year for an IDEA full funding amendment that Senators Hagel and 
Harkin offered to the No Child Left Behind Act. In Montana, a 
State that has significant economic challenges with low 
salaries and a low tax base, the failure of present law to 
provide this level of funding is particularly onerous.
    Local Montana school district financial contributions to 
special education have grown by over 900 percent in the past 10 
years. I will be thrilled to go home tomorrow with the news of 
this week's progress toward full funding.
    Next, maintenance of fiscal effort. The value of increased 
funding to Montana schools is tied directly to the need for 
more flexibility in the area of maintenance of fiscal effort. 
Montana educators feel strongly that added flexibility is 
necessary to rebalance the relative local, State, and Federal 
partnership in covering the costs of special education.
    Next, the cap on administrative expenses. The cap on 
administrative expenses is limiting States, especially small 
States, in their ability to guarantee quality education 
services to each and every child with a disability. I urge you 
to allow State education agencies to use up to 15 percent of 
Part B funds for technical assistance and direct support to 
schools, and up to 5 percent for administrative expenses.
    Finally, as far as money is concerned--Medicaid. Better 
linkages between IDEA and the Medicaid program must be 
established. The Centers for Medicare and Medicaid Services 
should be required by law to work with the Department of 
Education on policies and procedures that will enable school 
districts to be reimbursed for services more consistent with 
the Federal, State, and local partnership.
    I am pleased with the emphasis of the Bush Administration 
on early identification and intervention. The Part C Infants 
and Toddlers Program and Part B Section 619 Preschool Programs 
clearly support this priority and deserve to be well-funded.
    It is critically important that the new early intervention 
programs in the No Child Left Behind Act are coordinated with 
the early childhood programs in IDEA. Federal education 
programs supporting early childhood development and programs 
supporting academic progress for school-age children must 
include common data definitions, common procedures for 
collection of information, and common reporting and analysis of 
program effectiveness. Schools simply cannot afford multiple 
accountability and school improvement activities for each 
Federal program.
    Coordination in these areas will result in a reduction in 
paperwork for both State and local education agencies.
    And, speaking of paperwork, our current preoccupation in 
special education on process has contributed to the paperwork 
burden you hear so much about. Much of our paperwork burden is 
due to the need for documenting compliance with regulations. I 
believe that the paperwork burden can be reduced and still 
retain all the rights and protections of current law.
    Because so many of our colleagues share this concern, the 
National Association of State Directors of Special Education 
will be convening a meeting of its members and other 
stakeholders this spring to come up with specific suggestions 
for a reduction in paperwork. We invite your involvement in 
this effort and will of course share the results with you.
    Today represents an opportunity to take a good law and make 
it better; an opportunity to establish a true financial 
partnership between schools, the State, and the Federal 
Government; and an opportunity to move forward to a unified 
education system for all children.
    Thank you for your time this morning. I would be pleased to 
answer your questions.
    Senator Wellstone. Thank you, Mr. Runkel. Spoken like a 
true educator. I got exactly what you wanted to emphasize.
    [The prepared statement of Mr. Runkel may be found in 
additional material.]
    Senator Wellstone. I talked with Senator Bond, and what I 
will do is take a point of personal privilege and introduce 
Bob, and then, I know that Senator Bond would like to introduce 
Ms. Ratcliffe.
    I have about 80 students from Minnesota waiting for me, so 
I am going to excuse myself, and what we will do is hear the 
testimony and then, if there are any questions, we will get 
them to you in writing. Everything you have said will be on the 
record.
    Is that all right with you, Kit?
    Senator Bond. Yes. I think under the current time 
situation, yes, because we all have some deadlines.
    Senator Wellstone. And Bob, I could actually give you a big 
introduction, and then I could take a lot of time, but from 
Minnesota--do I need to say anything else? And superintendent 
of Minnewaska School District, which is in west-central 
Minnesota, with about 1,600 students. Bob is a special 
education teacher and director and has a 27-year career. He has 
done a lot of different work in this field.
    We welcome your testimony and thank you for coming--and 
thanks to all of you, actually for being here.
    Mr. Vaadeland. Thank you, Senators.
    It is with great pleasure and humility that I come before 
you today to bring some thoughts and perspectives from a rural 
school administrator regarding the current Individuals with 
Disabilities Education Act.
    In my opinion, this Act has had a great impact on services 
to children over the years, and without it, I believe with 
emphatic conviction that many children in years past would not 
have been and even today would not be the benefactors of 
specialized services needed to meet their individual needs.
    This is not to say, however, that everything is or always 
has been perfect in regard to implementation. However, by 
taking the available opportunities to analyze the positive 
results of the Act along with the glitches that appear along 
the way, I believe very strongly that we can all work together 
to improve services for children with disabilities.
    My career as a special educator began in 1975, the year 
after the original Public Law 94-142 was enacted by Congress. 
Since that time, I have observed many changes in the provision 
of special education services for children with disabilities.. 
As a special education instructor with licenses in learning 
disabilities, mild to moderately impaired, and emotional-
behavioral disorders, I had the opportunity to get involved 
with the day-to-day tasks of pre-referral, referral, 
assessment, identification, IEP program development, 
implementation, and program review. These steps were all 
completed under the jurisdiction of the due process laws as 
originally written into the original public law and yet refined 
over the years for greater clarification.
    Following my original experiences working the law as a 
special education instructor, I then had the opportunity to 
work with nearly 30 school districts in southwest and west-
central Minnesota in multiple capacities. To clarify, over the 
past 27 years, I have served not only as a special education 
coordinator but also as a special ed director, an elementary 
principal, and for the past 12 years, as a superintendent. In 
addition, I have also served as president of the Minnesota 
Administrators for Special Education and presently represent 
the Minnesota Association of School Administrators on the State 
Special Education Advisory Committee.
    From a very personal perspective, I know that this Act has 
had a great impact on the provision of special education 
services to children identified with disabilities. I can recall 
a group of seven young men in a rural Minnesota school district 
that I had the opportunity to work with a number of years ago 
who had a variety of needs.
    The young men's identified disabilities varied from mild to 
moderate cognitive impairments to learning disabilities to 
those with emotional-behavioral disorders. There were times 
when I questioned that I was truly able to meet their diverse 
needs based on the variety of identified handicapping 
conditions. However, in the end, these students completed their 
high school education and graduated. The difference that these 
services made to them personally was exemplified by one 
graduate in particular who wrote to me following his graduation 
and said: ``Thank you. I could not have done it without you.'' 
Touching, yes, but I knew that the services that this student 
had received had made a difference.
    I also recall two other young high school students in years 
past who had not only cognitive impairments but also some very 
involved physical impairments that required developmental 
adapted physical education, along with related services such as 
occupational therapy and physical therapy.
    These particular children also had cerebral palsy and had 
both required rhizotomy surgeries on several occasions. I 
cannot say enough about the strides that both of these young 
individuals made due to the provision of specialized special 
education services. I particularly recall when one of these 
young individuals, a young lady, walked forward and presented 
her work experience employer with an award of appreciation for 
supervising her on a job site.
    A second such occasion occurred when she walked forward and 
received her high school diploma. That is truly when it hit me 
that the services provided to her as a result of IDEA had made 
a great impact. The heartfelt thanks from the parents upon this 
young lady's graduation were also overwhelming as they publicly 
thanks us while tears trickled down their cheeks.
    One final example is that of a very young child who was 
diagnosed very early with ``autistic-like'' tendencies, who had 
a habit of being very withdrawn as well as exhibiting 
perseverating behaviors. Through early intervention services, 
however, with a great team of early childhood special education 
professionals, this student made unbelievable strides and was 
able to move with much greater ease into a transition 
kindergarten program and did so with success. In this 
particular situation, the parents were so pleased with the 
services that had been provided that the family even delayed a 
move which was a career advancement for the parent in order to 
continue receiving the benefits.
    These are only several examples of the times when we knew 
that the specialized special ed services had made a difference 
and that, had it not been for IDEA, these ultimate successes 
may not have occurred.
    A final comment to make under this section before looking 
into some of the existing problems of the Act is that in my 
opinion, most schools really do try to do the best they can to 
educate all children in the least restrictive environment. In 
my world, that means educating them as close to their homes, to 
their peers, and to their communities as entirely possible. 
Although this is not always possible, I can think of very few 
situations where this is not at the forefront in the 
decisionmaking process.
    I know there are examples where cessation of services or 
simple discontinuance of appropriate services is suggested and 
implemented. However, I would have a very difficult time 
finding superintendents in my peer group who believe in their 
hearts that it is the best for students. For this reason, the 
concerns of exploring avenues of appropriate service provision 
are of great concern.
    These successes, however, did not occur without 
consternation at times and without some frustrations with 
program implementation which still need to be addressed. I 
would like to take just a couple of minutes and this 
opportunity to address those areas, with some suggestions for 
improvement into the current law.
    In most instances, schools will do the best they can to 
provide appropriate special education services based on 
identified needs in order for the child or children to receive 
the appropriate benefit from their educational programs. These 
types of services sometimes requested, however, are viewed by 
schools as noneducationally-related and beyond the scope of 
FAPE. In some instances, it has become the school district's 
responsibility to provide a service whether or not it is viewed 
as a school's obligation.
    While examples are few, and most parents and school 
districts have positive relationships, the fear of litigation 
when these types of differences arise is threatening to staff 
and causing some of them to look at other alternatives in 
education. This impacts a district's ability to recruit and 
retain staff.
    The State Special Education Advisory Committee in 
Minnesota, along with the State Special Education Department, 
have been studying this problem in depth over the past several 
years, and a number of State and local initiatives are being 
implemented to address these concerns. For example, schools 
have begun to offer signing bonuses, extended contracts without 
classroom assignments, State aid reimbursements for clerical 
staff, increased staff development opportunities for all staff, 
and electronic options to enhance communications between 
families and districts. In essence, increased options for 
alternative dispute resolution systems and improved staff 
training would help to ease concerns regarding due process 
requirements.
    A second item I would like to address is the process of 
complaint investment as well as avenues to avoid hearings as a 
result of the complaints.
    It is the view of many that this system works very well. In 
2001, for example, the number of hearings across the Nation 
totalled 3,020. This statistic, when compared to the 6.2 
million children on IEPs, is not staggering. In comparison to 
these national percentages, Minnesota only had 10 hearings 
based on 110,000 IEPs. This may be due in part to the fact that 
in Minnesota, there is an initial step of informal 
conciliation. It has been my personal experience to approach 
situations from a perspective of ``What can we do to make this 
work out?'' This is different from taking a stand that 
agreement cannot be reached.
    By approaching situations like this and exploring avenues 
for agreement, I was personally fortunate to never be involved 
in a hearing. The channels of communication opened by this type 
of process have been very rewarding and helped to implement 
IDEA with greater ease.
    This conciliation step, however, is not a requirement of 
IDEA. Based on the current status of IDEA, a parent may file a 
complaint at any time, at which point an investigation begins 
to unfold. It is my perspective that if IDEA could be changed 
to incorporate conciliation or other informal dispute 
resolution processes, it would significantly reduce the number 
of complaints and hearings. It is also my perspective that the 
steps would help to work through difficult situations with much 
greater ease.
    A second step that could help to strengthen IDEA would be 
to institute an enhanced mediation process. In initiating this, 
a greater understanding of the perspectives of both school and 
the parents would be the end result.
    Another promising example is that in Minnesota, we are 
piloting facilitated IEPs, where a State-trained independent 
facilitator actually facilitates the IEP meeting. We think this 
could be a huge step in reducing adversarial situations and 
litigation and help the process become more user-friendly for 
everyone involved.
    A third item I would like to briefly touch on is that of 
interagency collaboration in regard to the provision of 
services. As it presently stands, school districts are the 
payer of last resort, meaning that the present Act allows for 
an unequal sharing of responsibility when it comes to service 
provision.
    Just as educational systems are strapped to stretch their 
ability to provide services to clients, so are health, welfare, 
and rehabilitation. It is the district's perspective, however, 
that the services which could often be provided by some of 
these agencies should be provided under their jurisdiction and, 
more appropriately, at their expense, based on the expertise of 
the service they can provide.
    Based on the present IDEA language, school districts are 
obligated to provide services even if it is believed that they 
do not have the dollars to pay for them. I also believe that 
this premise should hold true for all agencies involved in 
interagency collaborative agreements. As a collaborative group, 
agencies should collectively become the payers of last resort. 
A model for this is the Minnesota Part C model, in which there 
is a goal to reach interagency funding from birth to 21. 
Minnesota presently has a birth to 5 mandate in place as well 
as a birth to 9 interagency mandate in place by this coming 
summer. This exemplary model, if implemented by all interagency 
collaboratives, could help to spread the costs, which now often 
become the responsibility of one single agency.
    Senator Wellstone. Thank you so much for your testimony.
    [The prepared statement of Mr. Vaadeland may be found in 
additional material.]
    Senator Wellstone. Senator Bond?
    Senator Bond. Thank you very much, Senator Wellstone.
    It is my pleasure to present a very good friend, Dr. Kim 
Ratcliffe, who is Director of Special Education, Columbia 
Public Schools in Columbia, MO.
    A 30-year veteran in the field of special education, she 
began her career in 1971, 4 years before the original special 
education language at the Federal level was passed and a couple 
years before we passed our special education bill that I signed 
into law as Governor of Missouri.
    Dr. Ratcliffe has many, many qualifications, including a 
master's degree in learning disabilities, a degree in special 
education administration, a doctorate in educational leadership 
and policy analysis with a focus on special education. She 
serves as a special education administrator but also as an 
adjunct professor at both the University of Missouri and at 
Stevens College.
    She is a trained hearing officer and mediator for the 
State. She has served on a variety of panels, committees, and 
has received distinguished service awards, and is the first 
recipient of the Outstanding Special Education Administrator 
Award given by the Missouri Language and Hearing Association.
    Dr. Ratcliffe is the mother of three children, two of whom 
have educational disabilities and receive services through the 
public schools.
    Kim, I have read your testimony with great interest; I 
trust that my colleagues will, as well as your summary of it 
today. You have been an invaluable advisor and counselor to me, 
and you have been a great advocate for children with special 
needs and their families. We are not going to have time for 
questions, but perhaps in your remarks, you might tell us just 
a little bit about the Missouri School Board Association's 
Special Education Advocacy Council and why it was formed and 
what you are doing with that.
    With that, Dr. Ratcliffe, welcome to Washington.
    Ms. Ratcliffe. Thank you. I would like to say thank you to 
you and to other members not in attendance at the moment, and 
all of those in the gallery behind me.
    I will speak to the Missouri School Board Association 
Special Education Advocacy Group. This is a group that came 
about 3 years ago as a result of networking among colleagues in 
the State who had been in special education for a number of 
years. Many of us had been there to push for the original 
legislation, out there, getting kids with disabilities to come 
to school, and were practitioners, as teachers, psychologists, 
speech therapists. We had lived the law for 27 years to be 
exact, and we were very concerned because we saw today as the 
best of times and in some ways the worst of times in that 27-
year period for special education.
    We are in positions today where we do not have quality 
people to hire. I have 50 positions that I fill every year. I 
have over 400 position in my district, but I have 50 places 
that I have had to fill every year for the last 4 or 5 years, 
and I do not have applicants for those positions. Last year 
alone, the special school district in St. Louis had more 
vacancies for special education teachers than were produced by 
every college within the State of Missouri. Those educators 
simply do not exist today.
    We have to analyze why that is happening. If we do not have 
quality teachers, we can turn out the lights and go home when 
it comes to educating children with disabilities.
    So I would like to direct my remarks this morning in an 
abbreviated fashion--I know everyone has time constraints. I 
would like to draw your attention to this booklet. Many of you 
know this; you recognize the small print which Government 
documents have. You recognize that they usually come in 
multiple columns and extremely small print. I want you to focus 
on the fact that this is the law that Congress built.
    These documents are the regulations that define the law 
that Congress built.
    This document represents a State plan which is individually 
approved by the Office of Special Education Programs. It 
describes how States will comply with the regulations that 
define the law that Congress built.
    This represents a local compliance plan that each public 
board of education in the Nation must approve to affirm that 
they will fully implement the State plan, which is there to 
describe and ensure compliance with these regulations that 
define the law that Congress built.
    Then, we have a set of standards. They are monitoring 
standards, very detailed, that outline procedures for the 
purpose of examining districts to determine if they are 
following their local compliance plans, which conform to the 
State plan, which describes how the States are going to comply 
with the regulations that define the law that Congress built.
    Special education teachers, regular education teachers, 
public school administrators, counselors, and parents are 
expected to know and understand the details of these manuals. 
As you have heard from a prior panel member, the States in this 
Nation are not in compliance with that. I can agree with my 
colleague to the left that we are doing our very best. What you 
need to understand is that children with disabilities in this 
Nation are community members. They are people we go to church 
with. They are people who are friends of our children. They are 
our friends. They live next door to us. We are committed to the 
success of those children at school. We are committed to them 
being functioning, contributing members of our society. We want 
them to stand shoulder-to-shoulder in high achievement with all 
children in this Nation. That is our commitment as public 
school administrators and as regular and special teachers.
    Today, our hands are tied behind our backs. We are still in 
the ring, fighting, but our hands are tied behind our backs. 
What are we going to do to change that situation?
    First of all, paperwork mandated by the Federal law and 
regulations must be significantly reduced in volume and 
complexity. The paperwork burden is fundamentally detracting 
from the education of students with disabilities. At times, the 
process is so burdensome that changes that could benefit a 
student are simply not made--and I have given an example of 
that in my written testimony.
    The focus should be on normalizing communications between 
parent and teacher as much as possible as they are striving to 
provide for the unique and sometimes changing needs of students 
with disabilities.
    Another problem with the complexity of the regulatory 
aspects of the IEP process is the time it takes teachers, 
counselors, therapists, and administrators away from the 
instructional focus of education. School officials know that 
one of the characteristics of outstanding schools in this 
Nation is the amount of time that school staff spend on 
instruction. Pulling school staff out of classrooms for all the 
meetings required by the current special education process 
significantly decreases the time that special and regulator 
educators spend in direct instruction.
    With increased accountability for the progress of students 
with disabilities, there is a need and a desire on the part of 
teachers to have updated research-based training on effective 
practices. Students benefit when regular and special education 
teachers have time to be trained together and time to 
collaboratively plan instruction to meet the needs of students 
with disabilities. The possibility for these opportunities is 
significantly diminished by the ongoing need to do compliance 
training and fulfill obligations under the IDEA.
    No. 2, we must revise due process procedures to include 
regulations that promote trusting, positive, long-lasting 
relationships with parents and prevent catastrophic drain of 
finite resources. Reform needs to occur when a law is so 
vaguely written that litigation is required to give it 
definition. The IDEA is such a statute. Due process is a brutal 
system; it paralyzes the educational system, it paralyzes 
individuals. The focus is shifted from the child to the battle. 
The cost of litigation is extraordinary in terms of time, 
money, personnel resources, and relationships.
    Under the IDEA, there is no safeguard for frivolous 
lawsuits, although the vast majority of children with 
disabilities are served successfully through collaborative 
teamwork between parents and teachers. A single due process 
hearing can cost a district in excess of the year's 
instructional budget even when the district prevailed and was 
found at no fault.
    It is imperative that the IDEA is fully funded. Many times, 
the cost of specialized instruction, equipment and materials is 
significant. Special education services frequently constitute 
an entire infrastructure, as Mrs. Findley has described from 
her experiences. Districts embrace the concept of leveling the 
playing field to allow students with special needs an equal 
opportunity for high student achievement. Without adequate 
funds and relief of procedural excesses, limited funds will 
quickly dissipate, ultimately resulting not only in a lack of 
sufficient resources for students with special needs but also 
diminish regular teacher resources, materials, and equipment. 
All students suffer under this reality, for the majority of our 
students with special needs spend the majority of their 
educational day in regular classrooms with nondisabled peers.
    An additional strain on teachers and drain on resources 
comes as a result of public schools being the only zero-reject 
agency in this Nation. Suggestions for collaboration are fine 
in spirit but insufficient in practice. Other agencies must 
share in the mandated responsibilities to serve children in 
their areas of expertise. I have also spoken to examples of 
this in my printed text.
    All of the issues that I have mentioned today impact on the 
decisionmaking of teachers staying in the field. I have never 
in my career experienced a teacher who left special education 
because of the children. They leave because of the system.
    Special education works well for the vast majority of 
students with special needs. We must preserve what works and 
fix what does not through common sense reform.
    Thank you for this opportunity to discuss this very 
important issue.
    [The prepared statement of Ms. Ratcliffe may be found in 
additional material.]
    Senator Bond. [presiding]. Dr. Ratcliffe, thank you very 
much for that very, very telling testimony. Anyone who wonders 
why quality teachers are leaving the field needs to look at the 
demonstration that you gave us.
    I will urge all of my colleagues on the committee to review 
the oral and written testimony of all the witnesses, because 
you have given us some very real concerns that we must address.
    I was stunned to read Dr. Ratcliffe's analysis of how 
difficult it is to make a minor, common sense change in an IEP. 
On page 7 of your testimony you say that just preparing one IEP 
per student in the Columbia School District results in a yearly 
equivalent of 89,375 hours of lost instructional time, the 
equivalent of 78 years of school instruction. Obviously, we are 
going to have to do something so that the time can be spent on 
serving the children directly and less time on the paperwork, 
or we are going to lose even more quality teachers.
    To all of you, our sincere thanks for your great interest 
and commitment and for joining us here today. This should give 
us a lot of things that we must think about and consider in 
reauthorization.
    Thank you very much, and on behalf of the chairman, I now 
adjourn the hearing.
    [Additional material follows.]

                          ADDITIONAL MATERIAL

               Prepared Statement of Robert H. Pasternack
    Good morning Mr. Chairman, Mr. Gregg, and members of the Committee.
    Thank you for inviting me here today to talk with you about 
implementation of the Individuals with Disabilities Education Act 
(IDEA). I am pleased to be here with you, and would like to thank you 
for joining the President and supporting, in a bipartisan way, the 
landmark legislation to reform elementary and secondary education, the 
No Child Left Behind (NCLB) Act. I look forward to working with you in 
the future to develop legislation to reauthorize the IDEA.
    Over the past twenty-five years, the IDEA has successfully ensured 
that children with disabilities have access to a free appropriate 
public education. Prior to the IDEA, in 1970 for example, schools in 
America educated only one in five students with disabilities. Many 
States had laws excluding certain children with disabilities such as 
those who were blind, deaf, emotionally disturbed, or mentally retarded 
from school. Over one million students with disabilities were excluded 
from public schools altogether, and an untold number of students had 
disabilities that were never detected or were incorrectly diagnosed. 
Almost 200,000 children diagnosed with mental retardation or mental 
illness were institutionalized.
    Today, the overwhelming majority of children with disabilities 
about 96 percent learn in regular schools with other children rather 
than in State institutions or separate facilities. Three-quarters of 
students with disabilities now spend at least 40 percent of their day 
in a regular classroom with their non-disabled peers, instead of in 
separate rooms. Half of the students with disabilities spend 80 percent 
or more of their day in regular classrooms. Additionally, more students 
with disabilities than ever before are participating in the same State, 
district-wide, and national standardized testing programs as other 
students. College enrollment rates among students with disabilities 
have more than tripled in twenty years. Young adults with disabilities 
are employed at higher rates, and in more competitive jobs, than their 
older counterparts who didn't have the benefit of the IDEA, although 
unemployment rates for adults with disabilities remain unacceptably 
high.
    This list of accomplishments reflects the dedication of lawmakers, 
educators, parents, and the students themselves, to ensuring that all 
students with disabilities receive a high-quality education that 
prepares them for post-secondary education, good jobs, and a productive 
and independent life. However, despite the many accomplishments of the 
IDEA over the last twenty-five years, many challenges remain. As with 
any successful program, the IDEA must evolve to meet changing needs and 
new demands. Although the 1997 amendments included many important and 
needed changes , I believe that we have learned much since then. We 
must use these lessons to guide our approach to improving results for 
students served though the IDEA.
    We know that we will never improve outcomes for students with 
disabilities by focusing on special education alone. We must look at 
the whole education system, and see whether we are providing the right 
services to the right children, at the right time, in the right 
settings, and with the right personnel to achieve the right results. 
What happens in the regular classroom is vitally important for all 
children, including those with disabilities.
    That is why I am so excited about the sweeping reforms made the 
NCLB Act and its impact it will have on students with disabilities. 
From the Reading First Program, which will help States implement 
scientifically based reading programs for all students, to the Title I 
accountability provisions that, for the first time ever, will truly 
hold States and school districts accountable for the annual progress of 
all students, including students with disabilities, the NCLB Act makes 
great strides in improving educational opportunities for students with 
disabilities and holding schools specifically accountable for their 
achievement. NCLB also focuses on professional development to ensure 
that all students, including students with disabilities, are taught by 
highly qualified teachers. This will enable us to focus our attention 
in special education where it should be on providing high-quality 
special education services to those students whose disabilities prevent 
them from responding to scientifically based instruction delivered by 
highly qualified teachers. With these and other changes to the 
Elementary and Secondary Education Act of 1965 (ESEA) in place, we must 
now turn our attention to the IDEA and determine what we need to do to 
further improve that law.
                         implementation issues
    In reviewing the challenges of implementing the IDEA, there are 
several major issues that present themselves.
    We know that having highly qualified and well-trained teachers and 
administrators is central to providing appropriate services to children 
with disabilities. Both regular and special education personnel must be 
well prepared to meet the challenges of educating students with 
disabilities in both regular and special education.
    Recently, the President launched an initiative to provide a high-
quality teacher in every classroom in America. Over the next decade, 
school districts will face the daunting challenge of attracting a 
greater quantity of people to the teaching profession while also 
ensuring teacher quality. The NCLB Act provides States and localities 
multiple tools to help them improve teacher quality. We must continue 
to improve professional development and teacher quality for both 
general education and special education teachers. Under the IDEA, we 
must examine our Part D programs to ensure that we are able to help 
improve the education that aspiring teachers are provided at the 
college and graduate level as well as examine our professional 
development programs to ensure that these programs use sound research 
as the foundation to help existing teachers gain the needed skills to 
provide a high-quality education.
    The successful implementation of the IDEA is perhaps most 
critically dependent on the quality of the people who implement the 
principles contained in the law the teachers, para-educators, related 
service providers, and administrators, in cooperation with the parents 
and the students. Unfortunately, many regular and special education 
teachers, as well as the administrators and other school personnel who 
work with them, are often ill prepared to meet the needs of students 
with disabilities. We know that much more needs to be done to better 
prepare and support all the members of the learning community in their 
efforts to educate students with disabilities.
    Accountability provisions have been strengthened in the IDEA over 
the years, but more needs to be done. The 1997 IDEA amendments required 
States to include students with disabilities in their State and 
district-wide assessments. Even so, the inclusion of children with 
disabilities in these assessment programs does not necessarily mean 
that these children are part of accountability systems that are 
designed to ensure improved results. The requirements in the NCLB Act 
present us a great opportunity to make sure that children with 
disabilities are part of these accountability systems. We must build on 
the accountability provisions enacted in NCLB to ensure that States and 
local school districts are accountable for results and that students 
with disabilities are included in rigorous assessments of student 
performance.
    Closely linked to accountability is the issue of assessments. While 
the IDEA requires that children with disabilities be included in 
assessments, States and school districts have struggled to implement 
those requirements. We need to do more to provide research and 
technical assistance on alternate assessments and appropriate 
accommodations for children who need them. And, perhaps more 
importantly, we need to push for assessment tools that are created 
using universal design concepts that can significantly reduce the need 
for alternate assessments. Universal design, as applied to curriculum 
and assessments, means that materials and activities are designed to 
achieve their purposes for the widest possible range of students, 
including students with disabilities and other special needs. For 
example, curriculum and assessment materials can be designed for 
maximum flexibility, by allowing information to be presented in a 
variety of visual or auditory modes, and by designing assessment tools 
that are accessible for the widest variety of students (e.g., Braille).
    Another important aspect of the 1997 amendments was the emphasis 
placed on access to, and participation and progress in, the general 
curriculum for children with disabilities. Those changes raised the bar 
by requiring school districts and States to provide meaningful access 
for children with disabilities to the general curriculum. However, we 
know that many regular and special education teachers are not well 
trained in how to make that happen. We need better research and better 
technical assistance to support the focus that the 1997 amendments 
placed on access to, and participation and progress in, the general 
curriculum. Much of what we have done so far has been targeted to the 
provision of reading and language skills, but we also must focus on 
math, science, social studies, and other areas of the general 
curriculum. Teachers need strategies that will enable children with 
different learning needs to benefit from instruction and participate 
and progress in the general curriculum to the maximum extent 
appropriate.
    While we can point to lower dropout and higher graduation rates 
among students with disabilities as significant accomplishments for the 
IDEA, we still need much improvement in the transition from school to 
work and from school to postsecondary education for students with 
disabilities. The dropout rate for children with disabilities is still 
about twice that of their peers, and students with disabilities are 
still far less likely than other students to graduate from high school. 
Transition services, which require coordination with other agencies and 
entities, are an implementation challenge, requiring serious study that 
may lead us to innovative, statutory solutions.
    There are also a number of implementation issues around the 
identification of children with disabilities, including the 
disproportionate representation of minorities. We know that too many 
children are referred for special education services because of a lack 
of effective instruction and early interventions in general education 
classrooms. While many children are appropriately classified as having 
learning disabilities, we know, for example, that many are classified 
as such because of the lack of effective reading instruction using 
scientifically based instructional approaches in the regular classroom. 
Many children with learning and emotional disabilities are identified 
and served too late for services to lead to maximum positive results 
for these children. This, again, is an issue of providing special 
education services to the right children and having well-trained and 
qualified teachers and administrators who have the knowledge, skills, 
and supports to ensure that we are, in fact, serving only the right 
children those with disabilities who truly need special education 
services. We must make sure that no child is determined to be eligible 
for special education services merely because of a lack of good 
instruction or because our teachers and administrators do not have the 
skills, supports, and technical assistance needed to properly serve 
them in regular classrooms where they can learn to high standards.
    I also want to address an implementation issue that is of concern 
to many parents, educators, and certainly to many of you. The 
discipline provisions of the IDEA are predicated on the concept that 
every child in every school has the right to be educated in a safe 
environment, and that school teachers and administrators have the tools 
necessary to keep their schools safe. As the law has been implemented 
since the 1997 amendments, it is evident that some of the current 
statutory and regulatory requirements may be too complicated or 
confusing and need to be reviewed.
    More importantly, however, our experience with implementing these 
provisions has highlighted the overall need for schools and school 
districts to focus on improved classroom management, effective school-
wide models of positive behavior strategies, and the use of functional 
behavioral assessments. As we have looked at the issue of discipline, 
we have learned that appropriate use of these strategies, models, and 
techniques has had significant results in reducing discipline problems 
for the entire school community and keeping students safe.
    Next, I would like to discuss several issues relating to the 
implementation of Part C of the IDEA, which authorizes the Grants to 
Infants and Families program. I believe that the Part C program is a 
vital part of the IDEA which deserves thoughtful consideration as we 
move toward reauthorization of the statute. We know that early 
intervention in the lives of children with disabilities works and can 
result in more positive outcomes for a child later on. Still, I have a 
number of concerns with how the current statute is being implemented. 
We need to examine the appropriate balance between the States' need to 
access all revenue sources, such as public and private insurance 
programs, and the financial burden Part C services impose on some 
families. The requirements under the program for service coordination 
often present significant challenges that have not always been 
overcome. There are also IDEA Part C implementation challenges relating 
to how States identify infants and toddlers who could benefit from 
services, and how we can improve the transition of children with 
disabilities from the more family-centered Part C program to the Part B 
preschool program. We also know that the States have had difficulty in 
monitoring and measuring success of the Part C program. Finally, the 
IDEA's requirements toward providing early intervention services in 
natural environments has raised issues around home-based versus center-
based services. I believe that we need to review these issues carefully 
and explore ways to improve the implementation of Part C, and improve 
this part of the law itself.
    Finally, in the short time I have been on the job, I have spent a 
good deal of time asking questions of parents, advocates, students, 
teachers, principals, university professors, researchers and State 
directors of Special Education around the country. If, as some have 
argued, no State is in compliance with the IDEA, is it possible that we 
have constructed a statute and regulations where no State can be in 
compliance and where we are too focused on process and not enough on 
progress? Are we too focused on process and not enough on academic 
achievement? I think this may be the case. When the IDEA was first 
enacted, its primary purpose was to guaranteed access to education for 
students with disabilities. Today, I believe we need a stronger focus 
on how we can improve the academic achievement of students with 
disabilities.
    I ask these questions to encourage all of us to think creatively 
and insist on a culture of accountability within the IDEA, that focuses 
on improved results and outcomes for students with disabilities 
receiving special education.
    Building a culture of accountability within the IDEA is two-fold. 
First, we must continue to insist on holding school districts and 
States accountable for ensuring that children with disabilities have 
access to early intervention services and a free appropriate public 
education in the least restrictive environment. Second, we must also 
hold school districts and States accountable for the annual academic 
growth of students with disabilities. The provisions of the NCLB Act, 
supported by the changes we need to make to the IDEA, will ensure that 
the IDEA adheres to a culture of accountability. The question we must 
address over the next several months is how best to create this 
cultural change. I look forward to continuing that conversation with 
you in your efforts to reauthorize this critically important 
legislation.
                               conclusion
    Mr. Chairman, members of the Committee, I have touched on but a few 
of the issues that relate to the implementation of the IDEA and 
recognize that each of these topics deserves far more attention than I 
have given today in this statement. But I want to be clear in stating 
my belief that the IDEA is a law that has made, and must continue to 
make, a difference in the lives of our nation's children and youth with 
disabilities. It is time for all of us the Department of Education, the 
Congress, parents, and educators to take a serious look at the IDEA. We 
must look honestly to see what has worked well and what has not worked 
well. We must not hesitate to refocus the statute where necessary and 
where doing so will improve results for America's children. We must 
build on the gains made for students with disabilities in the NCLB Act. 
We must be bold in our solutions, committed to change areas that need 
improving, but steadfast where the law works well.
    As you are aware, the President has established a Commission on 
Excellence in Special Education that is charged with collecting 
information and studying issues related to Federal, State, and local 
special education programs, with the goal of recommending policies for 
improving the educational performance of students with disabilities. I 
am pleased to sit on that Commission and think that this is another 
example of the Administration's desire to engage in the systemic reform 
of education by looking at all its facets, asking the tough questions 
that get us to the heart of the problems, and generating solutions that 
address the need for reform head on. When the Commission is finished 
with its work in July, we will have taken a thorough look at all facets 
of special education and am confident that the Commission's report will 
inform the proposals that are put together to reauthorize the IDEA.
    Finally, I look forward to working with all of you in the years 
ahead. Your commitment to this important statute has lead to the 
education of millions of children with disabilities who otherwise might 
never have had the educational opportunities made possible by the IDEA. 
I hope that we can continue to work closely together to extend that 
legacy.
    Thank you, and I welcome your questions.
               Prepared Statement of Lilliam Rangel-Diaz
    Good morning, Chairman Kennedy, Senator Judd and distinguished 
members of the committee. Thank you very much for inviting me to 
participate in this hearing. I am a proud member of the National 
Council on Disability, and am honored to be here today on their behalf. 
I am also most proud to be ``mom'' to six wonderful boys, two of them 
with disabilities, and to serve the families of children with 
disabilities in my community as a professional parent advocate. From 
personal and professional experience, I am happy to be this morning to 
talk about why we at NCD believe the IDEA is a good law and what we 
have found to be fundamental flaws in its implementation.
    NCD is an independent federal agency representing all people with 
disabilities, regardless of severity, and from all cultural, racial and 
ethnic backgrounds. Council members are appointed by the President of 
the United States and confirmed by the U.S. Senate. Our charge is to 
make recommendations to the President, Congress and federal agency 
officials concerning ways to better promote equal opportunity for all 
individuals with disabilities. We view this testimony to be one way 
that we are fulfilling our responsibility to Congress.
    Unfortunately, students with disabilities and their advocates 
continue to be fight some of the same battles that were fought in Brown 
v. the Board of Education. In 2002 students with disabilities are still 
discriminated against in our school systems. Congress crafted the 
precursor to IDEA in 1975 to halt these practices, and, if IDEA was 
faithfully implemented and consistently and effectively enforced across 
the country, it would indeed halt the discrimination. However, twenty-
seven years later we are still seeking solutions.
    One might ask, ``doesn't such a high level of non-compliance point 
to the fact that it is clearly a bad law whose time for change has 
come?'' To the contrary, again, we believe it is a good law, with 
absolutely essential protections for students with disabilities. 
Altering the core educational rights in IDEA would devastate the 
promise of a free and appropriation public education for students with 
disabilities. While we will take you through startling non-compliance 
data, please let me point out that there is indeed compliance with the 
law and we believe where basic rights are implemented, the outcomes for 
students are good. We believe the issue is not the law. Our data 
clearly points to the same problem that families and other advocates 
have expressed concern about for over two and a half decades: 
enforcement and accountability. Never popular concepts, but ones, that 
are, nonetheless, essential to the implementation of any basic civil 
right.
    My statement today and recommendations are based on a number of NCD 
reports and other activities focused on IDEA implementation.
    In January 2000, NCD released its evaluation of federal enforcement 
of IDEA. Entitled Back to School on Civil Rights, this study evaluated 
federal monitoring and enforcement of basic IDEA requirements in the 
areas of free appropriate public education (FAPE), least restrictive 
environment (LRE), individualized education plans (IEP), transition 
services, general supervision, procedural safeguards and protection in 
evaluation of students with disabilities. It examined the major 
leadership role that the Department of Education is required to play 
with regard to IDEA. Our findings indicate that every state and the 
District of Columbia out of compliance with IDEA requirements: 90% of 
states failed to ensure compliance in the category of general 
supervision; 88% of states failed to ensure compliance with the law's 
secondary transition services provisions; 80% states failed to ensure 
compliance with the law's FAPE requirements; 78% of states failed to 
ensure compliance with the procedural safeguards provisions of the law; 
and 72% of states failed to ensure compliance with the placement in the 
LRE.
    And, what is the result of this non-compliance and lack of 
enforcement? This study confirmed what children with disabilities and 
their families have repeatedly told NCD, namely, that too many 
students: (1) did not receive FAPE; (2) were not educated in the LRE 
meaning inappropriate placement in separate, segregated settings and a 
lack of services for students served in regular classrooms; (3) did not 
receive related services such as speech therapy, physical therapy, or 
psychological counseling as reflected in their IEPs; (3) had not been 
able to access critical transition services; and, (4) did not receive 
the benefits of procedural safeguards and protections in evaluation in 
some states. In addition the report told us that students from diverse 
backgrounds are disproportionately represented in separate educational 
settings.
    NCD has also recently completed a study commissioned by the Social 
Security Administration on the status of the implementation of the IDEA 
transition mandates, as well as post-secondary education, and 
employment outcomes for 14 to 22 year old youth and young adults with 
disabilities. The study tells us that transitioning youth experience: 
(a) poor graduation rates from high school; (b) low employment rates 
after high school; (c) low post-secondary education participation; and 
(d) an increasing number of youth receiving Social security benefits 
and not leaving the benefits rolls. Again, we see lack of federal 
enforcement and accountability in IDEA transition service requirements.
    In addition, NCD is working in collaboration with the Office of 
Special Education Programs (OSEP) and a group of stakeholders to review 
OSEP's Continuous Monitoring Improvement System, and develop 
recommendations regarding performance benchmarks and enforcement 
triggers.
    And, NCD supports a Youth Advisory Committee (Advisory Committee) 
established as a non-paid advisory body to include youth and young 
adult perspectives in carrying out the mission of NCD. This is to 
ensure that NCD's activities and policy recommendations incorporate the 
needs of youth with disabilities, particularly as they relate to the 
implementation of critical civil rights legislation such as IDEA.
    During IDEA reauthorization, NCD will use a variety of strategies 
to solicit community input. We will use this information to advise the 
Administration and Congress regarding issues that go to the heart of 
education reform for over 6 million students with disabilities and 
involve: (a) accountability in federal education spending, (b) 
achievement and progress in the K-12 arena, and (c) fidelity of 
implementation in all aspects of the IDEA entitlement program.
    During the course of five studies on the IDEA, from 1989 to 2000, 
NCD learned that parents of children with disabilities are enthusiastic 
supporters of the law. They think it's a good law. They also told us 
there is room for improvement on the basics, with enforcement and 
accountability being a major issue. If, as we found in NCD, 80% of the 
states fail to ensure compliance with the law's FAPE requirements, that 
tells us that 20% of the states are in compliance. What can we learn 
from those in compliance that will lead to the needed improvements? The 
same goes true for LRE compliance; we need to look to the 28% of the 
states that were found to be in compliance for guidance. Likewise, we 
need help from the 22% of the states that fully follow the procedural 
safeguard requirements. There are beacons out there that we need to 
follow.
    Information from the NCD studies is readily available to you, and 
we trust it will useful to you during the reauthorization process.
             what does this mean for idea reauthorization?
    As a result of our work, NCD has identified four critical issues 
for reauthorization: (1) monitoring and enforcement; (2) full funding; 
(3) discipline; and, (4) eligibility and over-representation of 
students from culturally diverse backgrounds. Most of my comments this 
morning will be on the first, monitoring and enforcement, for we 
believe it to be the key to all others.
    The findings of Back To School were not a surprise, but a 
confirmation and documentation of what so many have reported 
anecdotally for two decades or more, i.e., that the statute is strong, 
but implementation and enforcement are thin and inconsistent. When 
students do not receive the IEP services and/or supports for which they 
are deemed eligible, they cannot achieve outcomes. When school systems 
categorically and unnecessarily place students (particularly those from 
diverse backgrounds) in more restrictive educational settings, students 
will be stigmatized and will have difficulty learning. Under such 
circumstances school systems do not maximize the use of the scarce 
federal education dollars. Without clear and effective reforms in IDEA 
implementation, too many students with disabilities will continue to be 
left behind.
                ncd recommendations for reauthorization
    Monitoring and Enforcement. NCD findings indicate that over 25 
years and and through several administrations, federal IDEA enforcement 
efforts have consistently lacked ``teeth.'' When a state is found out 
of compliance with the Act, the Office of Special Education Programs 
works with the states on the development of a compliance plan and 
provides technical assistance on the implementation of that plan. This 
strategy has not solved the problems, especially when there are no 
clear, objective criteria for additional enforcement options. There are 
currently no clear and effective (positive or negative) for a state 
that continues substantial and persistent non-compliance. The result 
has been devastating for the students with disabilities and their 
families who are denied the protections of the law. Without standards 
that define the limits and provide appropriate sanctions, the 
incentives for corrections have not been compelling enough to stop the 
cycle of noncompliance.
    NCD believes this issue has reached a crisis point, and we 
recommend bold steps to correct it.
    1. The Department of Education should not be the sole enforcement 
agency. The Department has a long-standing and collaborative 
relationships with state education administrators. This is an important 
relationship that is jeopardized when the Department threatens 
sanctions. Partial solutions were included in the last reauthorization 
when enforcement authority was also given to DOJ, but only following 
referral of cases from the Department of Education. This has not worked 
for there have been no referrals to DOJ since that authority was added 
to the Act. To address non-compliance problems, NCD recommends an 
expansive role for DOJ. Congress should authorize and fund the 
Department of Justice to independently investigate and litigate IDEA 
cases, as well as administer a federal system for handling pattern and 
practice complaints filed by individuals.
    2. The lack of national standards is at the root of the enforcement 
problems. NCD recommends that the Departments of Education and Justice 
be directed to develop national compliance standards, improvement 
measures, and enforcement sanctions that will be triggered by specific 
indicators and measures indicating a state's failure to ensure. 
Stakeholders, including students with disabilities and parents, should 
be consulted by the
Departments for consistency and clarity as they develop and implement a 
        range of enforcement requirements.
    3. Families members and students are very strong stakeholders in 
the enforcement of IDEA. In fact, as I pointed out earlier, they have 
been the true enforcers of the law. However, critical to their 
effectiveness is the availability of free and low cost legal advocacy, 
through public and private legal service providers. Equally important 
are training and technical assistance programs for students to expand 
their self-advocacy skills. Finally, there are other important partners 
in this process; collaborative participation should be encouraged by 
special and regular education teachers and agents of relevant systems 
such as INS, child welfare and juvenile justice systems. NCD recommends 
that Congress authorize more funding for Department of Education-
sponsored technical assistance programs to support the development of 
state-level technical assistance networks, self-advocacy and monitoring 
training for students and parents, other partners, as well as free and 
low-cost legal services for families. To fund these activities, we 
recommend IDEA include a formula that triggers additional funding (10%) 
every time IDEA, Part B is increased.
    4. Culturally Appropriate Training Materials. NCD recommends that 
the law encourage Office of Special Education and Rehabilitative 
Services in the Department of Education to expand its initiatives to 
serve non-English speaking groups and/or people with limited English 
proficiency and create culturally appropriate training materials.
    5. Over-representation of Students from Diverse Backgrounds in 
Special Education. We echo the multiple concerns expressed over the 
past few years about the serious problems caused minority students who 
are wrongly placed in special education. These problems were verified 
in our Back To School on Civil Rights report through testimony of 
parents at public hearings, consultation with special education 
advocates serving rural, Native American, and other communities around 
the country, as well as studies by various government and advocacy 
organizations. It is useful to note that the most recent 2001 report of 
the National Academy of Sciences entitled, Minority Students in Special 
and Gifted Education, echoes these findings. We know you are committed 
to addressing this issue and NCD stands ready to help.
    6. Funding and Discipline. Full funding and discipline are issues 
that are new to no one in Congress following last years prolonged 
debates on these two issues. We voice the concerns of individuals with 
disabilities, their families, and their advocates across the country 
about inadequate funding for special education. NCD urges Congress to 
adopt mandatory funding in keeping with the original commitment from 
the Federal government to fund 40% of the per pupil cost of special 
education.
    We are alarmed that the discipline of students with disabilities 
has become such a controversial issue. The law as currently written 
includes a strong and effective balance of protections for students and 
the school system. The recent GAO study on discipline and IDEA confirms 
our position. NCD strongly recommends that the current provisions on 
the discipline of students eligible for Part, B IDEA remain unchanged.
    7. Professional Development. Teachers are still not receiving 
adequate training in special education issues. NCD recommends an 
increased authority for personnel preparation funding, with assistance 
to states to increase the mandated level of college-level teacher 
training 'special education' coursework beyond the all too general 
'Introduction to Special Education' undergraduate-level course for all 
teacher preparation programs.
    Again, I want to thank you for the opportunity to share these 
thoughts with you today on behalf of the National Council on 
Disabilities. NCD stands ready to provide you with any assistance that 
might be useful to you as you move through the reauthorization process.
                     Statement of a Valerie Findley
    Chairman Kennedy and other Distinguished Members of the HELP 
Committee: I want to thank you for the opportunity to speak to you 
today. Though I am not an expert in the technicalities of each section 
of IDEA, I, like most parents am an expert on the individual strengths 
and needs of my child and so our family's personal experience with 
special education is what I will speak to.
    How do you relate nine years of joy, grief, confusion and success 
in just a few minutes? I'd like to start off by helping you know my 
daughter a little. Louisa's favorite things are swimming, horseback 
riding, and tasting foods--she loves eating spicy or sour things 
(garlic bread, guacamole and lemon meringue pie are her favorites). She 
loves to dance with her Daddy and sing with Mom. She has an infectious 
laugh, is very sociable, and has been described as a ``love machine''. 
She has a small verbal vocabulary including ``go'', ``more'', ``cold'', 
and ``Mamama''--my favorite word! Louisa uses a wheelchair for 
mobility, wears hearing aids and glasses and she receives the majority 
of her nutrition through a gastrostomy tube. Louisa wears braces on her 
legs for some activities and uses switch-controlled devices for choice 
making, entertainment and basic communication, as well as to help out 
at home with simple chores. Though she often appears non-attentive, 
don't let her fool you--Louisa is very aware of what occurs around her, 
and though she needs extra time to respond, she will make her needs, 
her interest, her frustrations and her amusement known.
    Every journey has a beginning. Ours started when during a healthy 
pregnancy I suddenly developed toxemia from causes we will never 
understand. After a series of prenatal tests determined that Louisa was 
experiencing fetal distress and fluid in her lungs, Louisa was born by 
emergency C-Section seven weeks prematurely. During the delivery, 
Louisa aspirated meconium, which along with immaturity of her lung 
development resulted in a lack of oxygen and her brain being damaged. 
Louisa spent her first two months of life on a respirator in the 
neonatal intensive care units of hospitals in both Des Moines and 
Omaha, where she was transported by life flight when she was three day 
old. While at the Medical Center in Omaha she was diagnosed with 
microcephaly and Cerebral Palsy. We were told that Louisa would likely 
have problems with gross motor skills, things like walking and dressing 
herself. Upon her return to the hospital in Des Moines, we began to 
understand that her life challenges would be more extreme and our 
family was moving into uncharted territory. Louisa has since been given 
additional diagnoses of mental retardation, Cortical Visual Impairment, 
Central Auditory Processing Disorder and being chronically adorable.
    When Louisa first came home from the hospital at three months old, 
still on oxygen, we immediately began to seek out information and 
support for what we knew was going to be an entirely new adventure for 
our family, hoping to educate ourselves as to Louisa's future needs, 
exploring all avenues in order to help her achieve the best outcomes 
and the fullest and most satisfying life possible. One of the first 
places we looked to was the education system and Iowa's Early Access 
program.
    At the age of five months, Louisa began receiving Part C Early 
Intervention services through the Des Moines School District, at first 
at home and later in her day care setting. I will never forget the 
first two women we encountered: Georgia Woodward, an early education 
teacher, and Jean Linder, an occupational therapist who inspired and 
supported us throughout the nearly three years we worked with them. 
Over cups of tea, in our living room, they worked with Louisa, and 
provided our family with information, strategies and the moral support 
that helped us move from broken dreams to new hope and understanding.
    Through the Individualized Family Service Plan (IFSP) process they 
helped us identify our family's and Louisa's strengths and needs and 
secured the coordinated services and resources we would require. They 
explained Louisa's rights to a free and appropriate education in the 
least restrictive environment. This was accomplished in a way that 
allowed our family to retain our privacy and as much normalcy as 
possible, not an easy thing when you have therapists, respite care 
workers, and others involved in your life and in your home. These 
individuals, like many who have followed, served as the guideposts 
along our way. One of the most important things they taught me was that 
we were Louisa's advocates, that we would be required to speak for 
Louisa and defend her rights to secure the services that she would need 
in order to reach her fullest potential for a meaningful life. I will 
be forever indebted to them for their honesty and compassion. I believe 
that extending the IFSP process through at least age five would be a 
good thing, as the IFSP family-centered approach to service 
coordination is invaluable during this time of continued early 
intervention.
    When she was 2 years old, Louisa was registered on the state 
Deafblind registry. This gave us access to our Deafblind Project staff 
who provide technical assistance to families and school staff in order 
to address the unique challenges that children with both vision and 
hearing impairments face. When Louisa was still a baby, we were 
provided with strategies for sensory integration, communication by 
touch cues, and even tips for creating a home environment that 
encourages her to use and maximize her vision and hearing.
    When Louisa was three she attended an inclusive pre-school in a 
shared program that included both typically developing neighborhood 
children, other children with disabilities and a Head Start program. 
She remained in this setting for three years, receiving early childhood 
education and related services to work on goals identified through the 
Individual Education Plan (IEP) process.
    As Louisa was ready to transition to kindergarten, we visited 
principals and staff at the three neighborhood schools closest to our 
home, as well as a separate school for children with disabilities, in 
order to determine which setting would be most beneficial to her. We 
decided that Hillis was the place for Louisa. We were most impressed by 
the welcoming attitude of the Principal, Larry Streyffeler. He didn't 
flinch when we described Louisa and the services she would require, and 
let us know that together we would do ``whatever it took'' to ensure 
Louisa a positive school experience. Another factor was the physical 
accessibility of the building, which we realized was an issue we could 
press had we chosen another school setting, but not having to face that 
challenge made Hillis an even more attractive choice. Louisa was 
enrolled in a regular kindergarten classroom. On the last day of school 
that year, Louisa came home with her first invitation to a birthday 
party. Such joy! Our Louisa would have friends in her life.
    Louisa is now in the third grade where she continues to be included 
in the general education classroom with friends she has known since 
kindergarten. Her classroom teacher has the support of a special 
education teacher who is assigned to the class, as well as two half-
time one-on-one associates who assist Louisa with her schoolwork, 
transfers and personal cares, as well as supporting other students when 
Louisa is occupied with her classmates or working with her therapists. 
Louisa has an extensive IEP Team, including her father and I, the 
principal, her classroom teacher, the special ed. teacher, her 
associates, as well as her physical therapist, occupational therapist, 
speech and language pathologist, vision itinerate, a member of the 
district assistive technology team, a district special education 
consultant. Other team members have included a school psychologist, the 
state DB specialist, her Hippotherapy (horseback riding) therapist, a 
district audiologist, the district special education supervisor, the 
case manager for her Medicaid Home and Community Based Services Waiver 
and her Supported Community Living helper (a Waiver provider).
    The IEP process is working for my child. It allows our team to 
paint the entire picture of Louisa for school programming. It has 
confirmed to me the importance of partnerships. The older she gets, the 
more important it is that we build on Louisa's capacities and 
capabilities and not just those things she cannot master. It is even 
more important that the players who are involved with painting this 
portrait are looking at her from several angles. I have been impressed 
with the teamwork and commitment of the district and school staff that 
we have worked with. Challenges with multiple disabilities can hide 
true abilities and talents. Cognitive evaluation of children who are 
hampered by severe physical and communication impairments is often 
difficult and we, as parents, have asked that when conclusive 
evaluations have been impossible Louisa be given the ``benefit of the 
doubt''. This has been the foundation of our IEP process.
    IDEA provides the entitlement of every child to a free and 
appropriate education in the least restrictive environment. IDEA calls 
for the continuum of services and access to the general education 
curriculum. Not all kids will succeed in the same way, or at the same 
pace, but they all can benefit from the educational experience, 
gleaning those things that impact their lives. The original focus of 
the law was to create access to educational opportunities for students 
with disabilities. It is also a civil rights law. ALL kids need to 
experience school and extracurricular activities that promote peer 
relationships, respect for differences and the pride that comes from 
accomplishment and extending a helping hand.
    Louisa loves school and is in turn well loved by her classmates and 
other students. Her peers take turns being Louisa's helper because 
everyone wants to be her special friend! Staff have related that 
Louisa's presence in the classroom has been a motivation for children 
who had behavioral issues. Being allowed to help Louisa is used as a 
reward for these kids' good behavior in class. I think that is a 
wonderful way for Louisa to contribute! Her favorite classes are music, 
PE and art. She also enjoys ``reading'' the spelling lists to her peers 
with the help of a switch-controlled tape recorder. Her friends include 
her in their play at recess, clamor to sit next to her at lunch and 
often have wonderful ideas for accommodations in the classroom, so that 
Louisa will not feel left out of things. For the last two years, Louisa 
has also attended a half-day summer school program for six weeks in 
June and July, where her IEP activities are continued.
    Louisa receives support from her related services staff on either a 
direct or consultative basis, with most services integrated into the 
daily class schedule so that she can participate in regular classroom 
curriculum activities with her peers while working on her own IEP 
goals. I acknowledge that this can be a challenge sometimes, as we 
strive to balance Louisa's needs with the needs of other children in 
the classroom, but I have been overwhelmed with relief and delight when 
parents of other children have approached me to say that their son or 
daughter often talks about Louisa and how much their child appreciates 
and enjoys her. I have several times experienced them thanking me for 
her being there, as they feel that her presence is a positive thing and 
has helped their own children be more kind and accepting human beings.
    IDEA ensures that an array of service options are available, based 
on the unique and individual needs of the child, determined with the 
input and expertise of the child's parents or guardians. The IEP 
process ensures that parents have the opportunity to participate as 
equal partners in decisions being made. An M.O.M. is recognized as 
equal in expertise to a Ph.D. or M.Ed. when it comes to the 
determination of appropriate services and placement for our children. I 
realize that Louisa and our family have been very lucky to have had the 
overwhelmingly positive experience that we have, and also know that 
part of that comes from having an understanding of our daughter's 
rights and our rights and responsibilities as parents.
    My most important and best-loved job is parenting, but I have been 
lucky to be able to also work with hundreds of other Iowa families who 
have children with special needs. My area of expertise is community-
based family support services but when I speak to family members who 
call for information or have questions about special education and IDEA 
implementation, I often refer them to the staff at Iowa's Parent 
Training and Information Center and our state Parent-Educator 
Connection Project for technical assistance. Promoting parent 
participation and parent-professional partnerships is crucial to the 
success of our children. When problems occur, we should encourage 
mediation and resolution of the dispute at the lowest level. Resolution 
facilitators should be available to all families as a vital component 
of due process.
    It is hard to imagine that only a generation ago many children 
didn't have the opportunity to go to school, were routinely 
institutionalized or had no options other than ``special'' schools or 
segregated classrooms. Many students had disabilities that were not 
identified or who struggled and failed in a system that was not meeting 
their unique needs. These children were frequently subjected to cruel 
taunts and insults, told they were stupid, that they simply needed to 
try harder. I know this because two of them were my siblings.
    My brother Hank, eleven months older, and my little sister Audrey, 
two years younger than me, both had learning disabilities, including 
dyslexia. In addition, Hank had only partial hearing in one ear and had 
lost one eye in an accident and so had physical challenges that also 
affected his learning. When Hank was held back to repeat kindergarten, 
our parents enrolled him in a parochial school, though we were not 
catholic, and hired a tutor for extra help. The next year, when he 
returned to public school, Hank and I were now in the same grade. 
Because learning came easy to me, it was heartbreaking to watch my 
brother struggle in class and to hear our peers make fun of him, 
calling him ``dummy'' and ``Cyclops'' and other mean things. I knew he 
was smart and he was so kind--he was always explaining neat things he 
had discovered when we took hikes in the park behind our house, he was 
a wonderful artist and could play the piano by ear as I plodded through 
my lessons. Audrey fared better because she had less apparent learning 
problems when young, she was good at ``faking it'', and was well liked 
by her teachers and classmates--she was a little cutie pie and fit in 
socially. She has related to me how terrified she was each day to go to 
school, afraid that her friends would find out she was ``stupid'', 
because she thought that she was.
    When Hank was thirteen and Audrey ten, my parents enrolled them for 
three years in a residential school for children with learning 
disabilities in Florida. This was very expensive, but they had 
experienced too much frustration and hurt, it was their last resort. My 
parents, tireless advocates for their own and other children, were 
founding members of the Iowa Association for Children with Learning 
Disabilities who participated in hearings like this one, to support 
creation of an equal educational opportunity for all children. When 
PL94-142 was passed into law in 1975, it was a time of celebration in 
our household--but it was a bittersweet victory. It was too late for 
Hank, and Audrey would graduate one year later, with her high school 
counselor advising her to consider food service as a career, as that 
was one of the few things she could succeed at. I am happy to report 
that after seven years of hard work, with accommodations provided by 
her community college and universities, my little sister completed her 
Master's degree in Counseling Psychology and is now a Marriage and 
Family Therapist, who has spoken at several learning disabilities 
conferences to provide inspiration and hope to parents whose children 
who are striving to learn.
    Hank eventually dropped out of school, had trouble getting or 
keeping a job and was very depressed. He eventually pulled himself 
together with the encouragement of a wonderful and supportive wife. He 
is now a doting grandfather who still takes walks in the woods and 
shares his knowledge of nature and music and art. I am so proud of him 
and the man he has become, but feel much heartache knowing that his 
self-esteem and confidence was destroyed as he was growing up, because 
his disability was not recognized early, his learning needs were not 
met, and he was ridiculed and harassed by not only his peers, but his 
teachers when he was in school. This should never happen to another 
child.
    We must be careful when defining the goals of education. I have 
heard people say that productive, contributing citizens should be the 
end result of the investment of education dollars. But how do we define 
productive? Louisa has provided our family with a gift we could never 
have anticipated--she has helped us and other members of our community 
grow and become better people through understanding her unique and 
sometimes hidden gifts and contributions. That is why I am here today, 
with Louisa as witness that IDEA does work. We must maintain an 
educational system where truly NO CHILD IS LEFT BEHIND.
    On behalf of Louisa, Hank, Audrey, my Mom and Dad and every other 
parent and child with special needs in America, I want to thank you for 
listening to my family's story, for keeping the faith in our kids and 
for pursuing excellence in an educational system that serves and 
includes ALL children.
                  Prepared Statement of Robert Runkel
    My name is Robert Runkel, and I am pleased to be here this morning 
in my capacity as Administrator of the Division of Special Education 
for the state of Montana. I have worked in the field of special 
education for 25 years, beginning as a school psychologist for rural 
schools on or near the Fort Peck Indian reservation in Montana. Since 
1987, I have served as Montana's director of special education. I also 
currently serve as President of the National Association of State 
Directors of Special Education (NASDSE), the professional organization 
representing the state administrators of education programs for 
children and youth with disabilities in the 50 states and federal 
jurisdictions. My five years as a member of NASDSE's Board of Directors 
has afforded me the opportunity to learn much about the administration 
of special education programs in other states, and my testimony will 
reflect in some places general concerns of all state directors. In 
addition, recently a number of directors from small states have begun 
talking together to focus on issues that are specific to them, and my 
comments will reflect their concerns as well.
    I appreciate the opportunity to appear before this Committee to 
talk about what is working and what is not working with the Individuals 
with Disabilities Education Act (IDEA), particularly in light of the 
changes that were made when the IDEA was last reauthorized in 1997. My 
testimony will include specific recommendations for the current 
reauthorization.
    Late last year, families, service providers, policymakers and many 
others celebrated the 25th anniversary of the IDEA. In celebrating the 
advances made possible by this law, we recognized that special 
education is a complex system with many challenges. The major changes 
made in the 1997 amendments to the IDEA were necessary for individuals 
with disabilities to be able to fully participate in the educational 
process and achieve post-school success. At the same time, these 
changes significantly raised the bar of expectations for students, 
parents and schools.
    My position as a state director of special education is to provide 
leadership to assist local school districts to meet these higher 
expectations. In order to be successful, a school district's enhanced 
special education system must (1) have effective collaboration with 
general education; (2) focus on student and system results; (3) ensure 
that there are sufficient numbers of properly trained teachers and 
other service providers; and (4) have sufficient funding from a 
partnership of local state and federal governments to provide the 
programs our children need and deserve. School districts must also 
address with assistance from their communities the specific challenges 
that students with disabilities face in transitioning from school to a 
post-school environment.
    For over 25 years, the IDEA has provided important guarantees of 
access to public education for children with disabilities. Just as 
important, the law has helped to ensure that educational programs 
offered to students with disabilities are appropriate to their needs. 
Generally, children with disabilities are receiving the services they 
need to help them be successful and most parents are satisfied with the 
results.
    The system of special education includes tens of thousands of 
parents, teachers, and administrators, working together to prepare 
students with disabilities for a bright future. Parents of children 
with disabilities are involved in their children's education, 
dedicated-compassionate professionals are providing high-quality 
services, and our children are receiving the benefit. Children with 
disabilities are now included more than they ever have been with their 
nondisabled peer group; the relatively recent focus on accountability 
is beginning to produce results; important procedural/legal protections 
contained in the law are being implemented; and parents are now more 
involved than ever in important decisions regarding their children's 
special education programs.
    For the first time, the IDEA '97 refocused efforts on 
accountability for outcomes with students with disabilities. This was 
definitely a positive step for students with disabilities. Local school 
districts in Montana and local school districts in other states are 
working hard to include all students with disabilities in the general 
curriculum, assessment and accountability systems. My colleagues 
throughout the country are adamant in their support for the inclusion 
of all students in state and local education agency accountability 
systems. The recently enacted ``No Child Left Behind Act,'' with its 
emphasis on accountability, should help ensure that students with 
disabilities are included in state and local assessment systems.
    At the same time, Montana's state and local education agencies, 
like many state and local agencies around the country, face significant 
issues that can and should be addressed through reauthorization. The 
following are specific issues that need to be addressed in the 
reauthorization of the IDEA:
                                funding
    There are several funding issues that must be addressed in the 
reauthorization of the IDEA. The following are the most critical:
1. The 40 Percent Promise
    In regard to funding, I want to particularly thank the members of 
this Committee for their strong support last year for the IDEA full-
funding amendment that Senators Hagel and Harkin offered to the ``No 
Child Left Behind Act.'' I cannot overstate the need for increased 
federal funding for the IDEA. In Montana, a state that has significant 
economic challenges with low salaries and a low tax base, the failure 
of the present law to provide this level of funding is particularly 
onerous. Local Montana school district financial contributions to 
special education have grown by over 900 percent in the past 10 years. 
This growth shows the commitment of Montana schools to meet the needs 
of children with disabilities, but it also shows, in part, the effect 
of the unfulfilled ``40 percent promise.'' Attached to my written 
testimony is a chart that dramatically demonstrates this impact.
    The impact of substantial growth in local expenditures has had an 
adverse effect on the quality of education for all children, including 
children with disabilities. These necessary expenditures for special 
education have forced school boards to consider making cuts in 
everything from building maintenance to increasing class size. 
Fulfilling the ``40 percent promise'' would improve the quality and 
quantity of educational services available in public schools for all 
students. We have more than 400 local school districts in Montana, many 
of them in small, rural communities. Each school can tell its own story 
of the impact of the cost of special education on their district 
budget.
2. Distribution
    In my state we have found that the current funding formula, based 
on census (85 percent) and poverty (15 percent), is an effective means 
for determining allocations of federal dollars to state education 
agencies. However, more flexibility is needed by states in their 
distribution to local districts.
3. Maintenance of Fiscal Effort
    As much as Montana is in need of the 40 percent funding level, the 
value of the increased funding to schools in Montana is intricately 
tied to a necessary change in the law in the area of maintenance of 
fiscal effort. The maintenance of fiscal effort provision in current 
law limits the ability of federal funding increases to rebalance the 
relative state, local, and federal partnership in covering the costs of 
special education. Under current law, only 20 percent of any year's 
increase in federal special education funding can be treated as local 
funds for purposes of maintenance of fiscal effort. Montana educators 
feel strongly that this 20 percent limitation should be changed in 
order to provide more relief from the restrictions imposed by the 
provisions of maintenance of fiscal effort. The added flexibility is 
necessary to reverse the increases over the past decade in local 
expenditures for special education.
    Many Montana schools are experiencing declines in student 
enrollment, resulting in declining general fund budgets. While 
maintenance of fiscal effort protects the special education portion of 
state and local general fund budgets, other areas of the budget are 
forced to absorb more than their share of cuts. Simultaneous to the 
cuts in the general fund budget, schools are experiencing growth in 
federal special education funding. This circumstance exacerbates the 
tension between special education and general education over limited 
resources and it triggers conflicts and jealousies between programs. 
These tensions and conflicts are already limiting Montana schools' 
ability to take advantage of recent increases in federal funds. This 
situation will be amplified if the ``40 percent promise'' is fulfilled 
without a corresponding and necessary change to maintenance of fiscal 
effort requirements of the law.
4. State Share of Funding
    Additionally, the '97 amendments to the IDEA capped the state share 
of Part B funds. This has proved to be a significant problem for many 
states, but especially in smaller states, such as Montana. Small states 
are capped at $500,000 (plus inflation) for administration of the IDEA 
. Yet, small states are expected to have in place the same 
infrastructure necessary to ensure accountability for results. This 
infrastructure includes systems for data collection, maintenance, 
analysis, and reporting of key outcome indicators.
    With this background, I would like to propose the following 
changes:
    1. Provide federal funding equivalent to the 40 percent full 
funding promised by the Congress when P.L. 94-142 was enacted.
    2. Provide flexibility in maintenance of fiscal effort similar to 
the Hagel and Harkin amendment to the IDEA that was previously proposed 
during the debate on the ``No Child Left Behind Act.''
    3. Allow state education agencies to keep up to 15 percent of a 
state's Part B funds to provide direct support and technical assistance 
to local education agencies and to conduct monitoring activities.
    4. Allow state education agencies to keep up to an additional 5 
percent of a state's Part B funds for administrative activities. At the 
very least, increase the minimum amount of funding for small states and 
federal jurisdictions to enable them to support their administrative 
services to local education agencies. I would propose that the minimum 
amount of funds available for administration should be increased from 
$500,000 (with inflation index) to $750,000 (with inflation index).
    In addition to changes in the IDEA, it is important for Congress to 
address corresponding changes in the Medicaid program. States and, more 
importantly, local school districts are grappling with the complexities 
of the Medicaid system. Medicaid imposes such complexity in its 
policies, documentation, and billing procedures that states often have 
to resort to utilizing private firms just to understand what revenue is 
available. These procedures were often appropriately designed to avoid 
the potential for fraud and geared to working with corporations and 
individuals in private practice. More appropriate systems need to be 
designed so that they are tailored to the nature of shared governmental 
activities. As a result of current complexities, reimbursement 
procedures are not uniform throughout the country and this lack of 
uniformity has created widely varying Medicaid support between states. 
This results in variability between states in resources and services. 
The Centers for Medicare and Medicaid Services (CMS) should be required 
to work with the Department of Education on policies and procedures 
that will enable school districts to be reimbursed for services more 
consistent with a federal state and local partnership.
                               paperwork
    Our current preoccupation in special education on process has 
contributed to the paperwork burden that you hear so much about. Much 
of our paperwork burden is due to the need for documenting compliance 
with regulations. This comes in the form of creating a ``paper trail'' 
of notices, permissions, description of services, eligibility 
determination, and student goal statements. Most parents I know are 
more concerned about the benefit their child is receiving from the 
program than they are about the number of parental rights brochures 
they have received. Perhaps as our accountability system becomes 
stronger, we will have the opportunity to reduce the mountain of paper. 
Simultaneously, some parents fear that a paperwork reduction could mean 
the loss of certain procedural rights now afforded under the 
protections of the IDEA. It is our job to maintain the protections of 
the IDEA while solving our dilemma with paperwork.
    I believe there are solutions that can retain all of the rights and 
protections of current law while dramatically reducing the paperwork 
burden. Because so many of my colleagues share this concern, the NASDSE 
will be convening a meeting of its members and other stakeholders this 
spring to come up with specific suggestions for paperwork reduction, 
and I would hope that you will allow the NASDSE to share the results of 
this effort with you.
                        balanced accountability
    I cannot emphasize enough how important it is to focus on outcomes 
for students with disabilities. A local education agency can be in 
total compliance with every procedural step and still not guarantee 
positive educational outcomes for its students. That is why it is so 
important to continue to strengthen our focus on outcomes.
    However, in our efforts to focus on outcomes, it is important to 
remember that results of academic achievement tests tell only part of 
the story. While I do not deny that state standards measured by 
achievement tests have great value, it is important that these tests 
are kept in balance with other key outcome indicators. Along with 
achievement scores, these outcomes include: graduation rates, dropout 
rates, numbers of discipline referrals, rates of employment following 
graduation, rates of enrollment in postsecondary education programs, 
and parent and student satisfaction.
                               discipline
    Everyone seems to agree that the compromise discipline language 
included in the IDEA '97 is too cumbersome and too difficult to follow, 
let alone enforce properly. School personnel are frustrated with the 
complexity of the provisions and, therefore, they complain that 
students with disabilities cannot be disciplined even though they can. 
The process of disciplining students with disabilities must be 
simplified.
    Many of my colleagues across the country agree with me, that no 
student should be denied access to educational services. Rather, we 
should afford all students the opportunity to engage in learning 
activities designed to enable them to progress in school. If this basic 
principle were followed, perhaps the complexity of the process and the 
double standard of treatment of students with disabilities could go 
away.
  coordination with early childhood programs and the ``no child left 
                              behind act''
    I am pleased with the emphasis of the Bush Administration on early 
identification and intervention. The Part C Infants and Toddler Program 
and Part B Section 619 Preschool Programs clearly support this priority 
and deserve to be well funded. Two new programs Reading First and Early 
Reading First authorized by the ``No Child Left Behind Act'' have the 
potential to provide an infusion of both funding and new programs to 
help target this at-risk population. New Title I resources will clearly 
benefit our efforts to meet the academic needs of children. As we 
review the provisions of the IDEA, it is important, wherever possible, 
that the objectives and reporting requirements of these various federal 
programs complement one another.
    Never has it been more important for federal programs supporting 
child development and programs supporting academic progress for school-
age children to include common data definitions, common procedures for 
collection of information, and common reporting and analysis of program 
effectiveness. Schools cannot afford multiple school accountability and 
school improvement activities within the same school for various 
federal programs. Common standards must be applied to school 
improvement planning efforts and accountability in order to avoid 
contradiction, duplication of effort, and simply overwhelming people. 
Coordination in these areas will lead to a reduction in paperwork for 
both state and local education agencies and serve as a gentle reminder 
that special education is not a separate system of education it is a 
service provided to students.
              costs related to resolution of controversies
    The rights and protections afforded by the IDEA are significant and 
must be preserved. They provide parents ample opportunity to influence 
important decisions regarding their child's education along with our 
local school personnel and the ability to appeal decisions that they do 
not agree with. These safeguards are intrinsic to ensuring students' 
needs are being met. It is often natural and appropriate to have 
disagreements. Further, we should not equate disagreements between 
parents and school personnel with noncompliance with the law. It is 
important to remember that the educational services and supports 
provided to students are meant to be individualized there is no ``one 
size fits all,'' and I would strongly urge Congress to avoid mandating 
specific services for specific disabilities for the sake of avoiding 
controversy.
    At the same time, there is little doubt that the extensive 
litigation surrounding the IDEA is extremely costly to both parents and 
school districts and states. These costs are draining resources from 
state and local education agencies that would be better spent on 
providing services to students and their families. Mediation was 
encouraged in the 1997 IDEA amendments and mediation efforts appear to 
be meeting with some success. We need to examine additional 
opportunities to resolve controversy at lower levels. Early assistance 
to parents by providing informal problem resolution through the state 
agency has been particularly effective in Montana. Some states could be 
interested in providing options for binding arbitration. Additional 
training in communication skills of collaboration between schools and 
families could also be part of the solution.
                               personnel
    The quality and availability of special education personnel are 
critical issues demanding immediate attention. In Montana, we have 
approximately 70 people who are currently participating in our Special 
Education Endorsement Project. This project is designed to respond to 
circumstances where schools were unable to hire a fully qualified 
special educator. For a small rural state to have this many teachers 
obtaining their special education credentials while teaching special 
education speaks to the importance of this issue.
    Just as important as the move to inclusion in the classroom, we 
need to move to a system of personnel preparation that trains all 
teachers to work with students with special needs. At the same time, 
those teachers that are specially trained to work with students with 
disabilities need more familiarity with course content areas. Higher 
education teacher and administrative preparation programs must be 
restructured to meet current needs in schools. These issues can begin 
to be addressed in the IDEA through the Part D personnel preparation 
programs by providing grants coordinated with state agencies to 
institutions of higher education to meet training needs for serving 
students with disabilities. I also recommend that Part D include 
noncompetitive funds to states to provide inservice training and 
technical assistance to help states in maintaining qualified personnel 
at all levels.
                            part d programs
    The Part D programs provide funding for personnel preparation, 
research, and technical assistance programs and provide critical 
support to schools in Montana. Montana is fortunate enough to have a 
state improvement grant. It is helping us focus on key strategies that 
will improve outcomes for children with disabilities. Unfortunately, 
Montana had to compete for this grant against other states. Since 
school improvement activities are necessary in all states, it seems 
wrong to selectively finance a state's school improvement effort. A 
stable formula-driven revenue source for all states is necessary to 
help states meet their obligation and to successfully engage in long-
range improvement activities.
    These programs provide the backbone of support for quality services 
under the IDEA. Of the many Part D programs that Montana benefits from, 
perhaps the one most worthy of mention is our Mountain Plains Regional 
Resource Center. Through this Center, Montana acquires specialized 
technical assistance that enables me to do my job in improving the 
quality of education for students with disabilities. It deserves and 
needs your generous support.
                               conclusion
    The history of special education has proven that the program is 
very effective in including students with disabilities in our public 
school system and while they are there, providing them a quality 
education. The future of our special education system will now depend 
on our ability to design a special education system that works in close 
coordination with services provided in general education. Special 
education needs to become more of a support structure to general 
education a system of services and not a place. Many of the problems of 
our present system are attributable to a legal/procedural emphasis and 
the separate or parallel structures we now offer in the delivery and 
design of our special education services. The ``No Child Left Behind 
Act'' will provide a safety net protecting our children from failing 
schools. Special education can be the safety net of services for 
children.
    Unfortunately, our present system of special education is built 
upon a ``wait to fail'' model. Literally, our children need to be so 
far behind before they are able to access
    the services of special education that they are likely to never 
catch up. And, for some reason, we continue to find it necessary to 
``label'' our children. The act of labeling can reduce expectations, 
affect the self-concept of the child, and change the dynamics of the 
relationships between people. It is just too easy to blame a lack of 
success on the characteristics of the student instead of the 
effectiveness of the services offered. Often, our parents and students 
do not understand the need for the label or the necessity of waiting 
for failure. Sometimes neither do I. At our most recent special 
education advisory panel meeting, a parent told the story of how her 
child, in the middle of a special education IEP meeting, stated: 
``There's nothing the matter with me, it's who I am.''
    Perhaps the day has come that our special education system will 
allow our children access to services before they fail. Perhaps our 
students will be able to access services based on educational need 
alone and not some label. Perhaps someday our general education 
teachers will see the special education support system as critical to 
their success with their students.
    To achieve these important goals, we need to listen to educators, 
parents, students, and the broader public. When teachers and parents 
are comfortable with the quality of services and the outcomes that they 
are producing, it seems silly to burden one another with meetings, 
documentation, signatures, notices, and so on. We should honor the 
judgment of parents and teachers. At the first sign of a child falling 
behind, we must offer help.
    I ask your help to craft legislation so that every child will have 
the opportunity to achieve his or her potential.
    I thank you for this opportunity to appear before you today and 
will be glad to answer any questions that you might have.
                  Prepared Statement of Bob Vaadeland
    Good Morning! Chairman--Senator Edward Kennedy, Senators: Dodd, 
Harkin, Mikulski, Jeffords, Bingaman, Wellstone, Murray, Reed, Edwards, 
Clinton, Gregg, Frist, Enzi, Hutchinson, Warner, Bond, Roberts, 
Collins, Sessions, and DeWine, Assistant Secretary Pasternak, and other 
distinguished guests.
    It is with great pleasure and humility that I come before you today 
to bring some thoughts and perspectives from a rural School 
Administrator regarding the current Individuals with Disabilities 
Education Act. In my opinion this act has had a great impact on 
services to children over the years, and without it I believe with 
emphatic conviction that many children in years past would not have 
been and even today would not be the benefactors of specialized 
services needed to meet their individual needs. This is not to say 
however, that everything is or always has been perfect in regard to 
implementation. However, by taking the available opportunities to 
analyze the positive results of the act, along with the ``glitches'' 
that appear along the way, I believe very strongly that we can all work 
together to improve services for Children with Disabilities.
    My career as a Special Educator began in 1975, the year after the 
original Public Law 94-142 was enacted by Congress. Since that time I 
have observed many changes in the provision of Special Education 
Services for Children with Disabilities. As a Special Education 
Instructor, with licenses in Learning Disabilities, Mild to Moderately 
Impaired, and Emotional Behavioral Disorders, I had the opportunity to 
get involved with the day to day tasks of Pre-referral, Referral, 
Assessment, Identification, IEP Program Development, Implementation and 
Program Review. These steps were all completed under the jurisdiction 
of Due Process laws as originally written into the original Public Law, 
and yet refined over the years for greater clarification.
    Following my original experiences working with the law as a Special 
Education Instructor, I then had the opportunity to work with nearly 30 
school districts in Southwest and West Central Minnesota in multiple 
capacities. To clarify, over the past 27 years, I have served as not 
only a Special Education Coordinator, but also as a Special Education 
Director, an Elementary Principal, and for the past twelve years as a 
Superintendent. In addition to this, I have also served as the 
President of the Minnesota Administrators for Special Education, and 
presently represent the Minnesota Association of School Administrators 
on the State Special Education Advisory Committee.
    From a very personal perspective, I know that this Act has had a 
great impact on the provision of Special Education services to children 
identified with disabilites. I can recall a group of seven young men in 
a rural Minnesota school district that I had the opportunity to work 
with a number of years ago, who had a variety of needs. The young men's 
identified disabilities varied from Mild to Moderate Cognitive 
Impairments, to Learning Disabled, to those with Emotional Behavioral 
Disorders. There were times when I questioned that I was truly able to 
meet their needs based on the variety of their identified handicapping 
conditions. However, in the end those students completed their high 
school education, and graduated. The difference that these services 
made to them personally was exemplified by one graduate in particular 
who wrote to me following his graduation, and said ``Thank You, I 
couldn't have done it without you!"
    Touching yes, but I knew that the services that this student had 
received, had made a difference.
    I also recall two other young high school students in the past six 
years, who had not only Cognitive Impairments, but also some very 
involved Physical Impairments that required Developmental Adapted 
Physical Education, along with related services such as Occupational 
and Physical Therapy. These particular children also had Cerebral 
Palsy, and had both required Rhyzotomy surgeries on several occasions. 
I can't say enough about the strides that both of these young 
individuals made due to the provision of specialized Special Education 
services. I particularly recall when one of these young individuals, a 
young lady, walked forward and presented her Work Experience Employer 
with an award of appreciation for Supervising her on a job site. A 
second such occasion occurred when she walked forward and received her 
high school diploma. That's truly when it hit me that the services 
provided to her as a result of IDEA had made a great impact. The 
heartfelt thanks from the parents, upon this young lady's graduation, 
were also overwhelming as they publicly thanked us while tears trickled 
down their cheeks.
    One final example is that of a very young child who was diagnosed 
very early with ``autistic like'' tendencies, who had a habit of being 
very withdrawn as well as exhibiting perseverating behaviors. Through 
early intervention however, with a very good team of Early Childhood 
Special Education professionals, this student made unbelievable 
strides, and was able to move with much greater ease into a Transition 
Kindergarten program, and did so with success. In this particular 
situation, the parents were so pleased with the services that had been 
provided that the family even delayed a move, which was a career 
advancement for the parent, in order to continue to receive the 
benefits of these special education services.
    These are only several examples of the times when we knew that the 
specialized Special Education Services had made a difference, and that 
had it not been for the IDEA, that these ultimate successes may not 
have occurred.
    A final comment to make under this section, before looking into 
some of the existing problems of the Act, is that it is my opinion that 
most schools really do try to do the best they can to educate all 
children in the Least Restrictive Environment. In my world, that means 
educating them as close to their homes, to the peers, and to the 
community as entirely possible. Although this isn't always possible, I 
can think of very few situations where this isn't at the forefront in 
the decision making processes. I know that there are examples where 
``Cessation of Services'' or simple discontinuance of appropriate 
service is suggested and implemented, however I would have a very 
difficult time finding Superintendents in my peer group that believe in 
their hearts that it's the best for students. For this reason, the 
concerns for exploring avenues of appropriate service provision are of 
great concern.
    These successes, however, did not occur without consternation at 
times, and without some frustrations with program implementation, which 
still need to be addressed. I would like to take this opportunity to 
address just a few of those areas, with some suggestions for 
improvement into the current law.
    1.) In most instances, schools will do the best they can to provide 
appropriate Special Education Services, based on identified needs, in 
order for the children to receive the appropriate benefit from their 
educational program. The types of services sometimes requested, 
however, are viewed by the schools as non-educationally related, and 
beyond the scope of FAPE (Free and Appropriate Public Education). In 
some instances, it has become the school district's responsibility to 
provide a service whether or not it is viewed as a school's obligation. 
While examples are few and most parents and school districts have 
positive relationships, the fear of litigation when these types of 
differences arise is threatening to staff and causing some of them to 
look for other alternative fields in education. This impacts a 
district's ability to recruit and retain staff. The State Special 
Education Advisory Committee in Minnesota along with the State Special 
Education Department have been studying this problem in depth over the 
past several years, and a number of state and local initiatives are 
being implemented to address these concerns. For example, schools have 
begun to offer signing bonuses, extended contracts without classroom 
assignments, state aid reimbursement for clerical staff, increased 
staff development opportunities for all staff, and electronic options 
to enhance communications between families and districts. In essence, 
increased options for alternative dispute resolutions systems and 
improved staff training would help to ease concerns regarding due 
process requirements.
    2.) A second item I would like to address is the process of 
Complaint Investigation, as well as avenues to avoid hearings as a 
result of the complaints. It is the view of many that this system works 
very well. In 2001, for example, the number of hearings across the 
nation totaled 3020. This statistic when compared to the 6.2 million 
children on IEPs is not staggering. In comparison to these national 
percentages, Minnesota only had 10 hearings based on 110,000 IEPs. This 
may be due in part to the fact that in Minnesota there is an initial 
step of Informal Conciliation. It has been my personal experience to 
approach situations from a perspective of ``what can we do to work this 
out?'' This is different than taking a stand that agreement can't be 
reached. By approaching situations like this, and exploring avenues of 
agreement, I was personally fortunate to never be involved in a 
hearing. The channels of communication opened by this type of process 
have been very rewarding, and helped to implement IDEA with greater 
ease. This conciliation step, however, is not a requirement of IDEA. 
Based on the current status of IDEA, a parent can file a complaint at 
any time, at which point an investigation begins to unfold. It is my 
perspective that if IDEA could be changed to incorporate conciliation 
or other informal dispute resolution processes, that it would 
significantly reduce the number of complaints and hearings. It is also 
my perspective that the steps would help to work through difficult 
situations with much greater satisfaction, and to enhance the 
implementation of IDEA. A second step that could help to strengthen 
IDEA would be to institute an enhanced mediation process. In initiating 
this, a greater understanding of the perspectives of both the school 
and the parents would be the end result. Another promising example is 
that in Minnesota we are piloting Facilitated IEP's, where a state 
trained independent facilitator actually facilitates the IEP meeting. 
We think this could be a huge step in reducing adversarial situations 
and litigation, and to help the process become more ``user friendly'' 
for everyone involved.
    3.) A third item that I would like to touch on very briefly, is 
that of Interagency Collaboration in regard to the provision of 
services. As it presently stands, school districts are the payer of 
last resort, meaning that the present Act allows for an unequal sharing 
of responsibility when it comes to service provision. Just as 
educational systems are strapped to stretch their ability to provide 
services to clients, so are Health, Welfare, and Rehabilitation. It is 
the district's perspective, however, that the services which could 
often be provided by some of these agencies should be provided under 
their jurisdiction, and more appropriately at their expense based on 
the expertise of the service they can provide. Based on the present 
IDEA language, School Districts are obligated to provide services even 
if it is believed that they don't have the dollars to pay for them. I 
also believe that this premise should hold true for all agencies 
involved in Interagency Collaborative Agreements. As a collaborative 
group, agencies should collectively become the payers of last resort. A 
model for this is the Minnesota Part C Model, to which there is a goal 
to reach interagency funding from birth to 21. Minnesota presently has 
a birth to 5 mandate in place, as well as a birth to age 9 interagency 
mandate by this coming summer. This exemplary model, if implemented by 
all Interagency Collaboratives, could help to spread the costs, which 
now often become the responsibility of one single agency.
    4.) A final item I would like to touch on is that of resources. 
Ever since the original Public Law 94-142 came into effect, it has been 
the intention of the Federal Government to fully fund Special 
Education, typically meaning the 40% of the excess cost for such 
services, which would achieve appropriate funding levels. The national 
per pupil expenditure has averaged $6,296 (for 1999-2000) for most 
students on an annual basis, with an additional $6,296 for identified 
Special Education students. Based on IDEA, if the 40% of the second 
$6,296 were to be paid out to states, it would mean an additional 
$2,518 per pupil. This is what would be considered ``Full Funding'' 
based on the agreement in the original Public Law 94-142, which was 
adopted in 1974 and scheduled for funding reality by 1982. To date, 
this is still only being funded at 15% to 17%, in order to meet the 
state and federal requirements of the law. As a result, state 
governments are annually being put in positions of allocating more 
state dollars to fund a program that is federally mandated. Due to the 
scope of how services have changed over the years, and the ages of the 
population of students who are receiving these services, we know that 
there are significantly many more students receiving Special Education 
service. We have many more children who are medically fragile, 
physically involved, and those with mental health needs, etc., that are 
utilizing an increased amount of funding for services they may require. 
I don't hear people saying that those services shouldn't be provided if 
they are necessary. I do hear them saying, however, that there should 
be an increase in federal support to meet the mandates of the federal 
law.
    With this I am going to close my remarks. I want to take this 
opportunity to again thank Senator Kennedy and the distinguished 
committee members of this Health, Education, Labor and Pensions 
Committee for extending me this invitation to speak. I truly appreciate 
the opportunity given to bring not only my accolades for the law, but 
also some of the concerns, which I was also asked to express. Again, 
thank you!
               Prepared Statement Kim Goodrich Ratcliffe
    Good morning, Chairman Kennedy, Senator Gregg, Senator Bond and 
other distinguished members of the committee. I am honored and 
privileged to come before you today to speak on behalf of parents and 
their children with disabilities and public school educators of this 
nation. I come before you today as a parent and as an educator. I am a 
parent of two children who have had individualized education programs 
known as IEP's. They are representative of the majority of students 
with disabilities in this nation. One had an IEP for speech services 
while in elementary school. She required services for several years and 
was successfully remediated and no longer required special education 
services. The other daughter was diagnosed with epilepsy in infancy 
that resulted in educational diagnoses of speech/language disorder and 
learning disabled. She received multiple services and a change in the 
type of services as she progressed through school. She received speech 
therapy, occupational therapy, and specialized instruction in 
elementary school. As a secondary student and college student, she 
required accommodations as outlined in a 504 Plan under Section 504 of 
the Rehabilitation Act of 1973 to address continued math deficiencies 
and ADD. I am proud to say she is graduating from college in May 2002. 
She exemplifies what the vast majority of children with disabilities 
have experienced in this nation-the IDEA works well for them.
    As an educator, I come to you today with a historical perspective 
on special education. My career began in special education four years 
before the original statute, the Education for All Handicapped 
Children's Act, was passed in 1975. With the exception of leaves of 
absence at the birth of each of my three daughters, I have been either 
a teacher of children with disabilities or an administrator of programs 
for children with disabilities for the past thirty years.
    I became a teacher of students with disabilities in 1971. I was 
there when Public Law 94-142 planted its roots firmly in the soil of 
prejudice. Before 1975, we as a people of this nation prejudged and 
unknowingly misjudged who could benefit from public education. In our 
ignorance of how to educate, we assumed that some children could not be 
educated. The original P.L. 94-142 was enacted to provide keys to the 
schoolhouse door. Today, the doors to the schoolhouse are opened wide 
to all children. Our reality is all children can learn. Early 
intervention services have provided a positive start for many young 
children with disabilities. Many children have received services that 
enabled them to return to the general education curriculum. IDEA has 
been very effective in supporting the educational needs of children 
with disabilities. It is time to embrace the spirit of the original 
statute and move forward with common sense reform. The original 
language of the statute that provided an impetus for change in the 
1970's appears unnecessarily contemptuous of educators in the twenty 
first century. Dr. James Ritter, Superintendent of Columbia Public 
Schools, stated, ``The perception communicated by the federal law 
(IDEA) is public schools would either under serve or stop serving 
students with special needs if the law was not forcing us to do 
otherwise. There could be nothing further from the truth. These are our 
children. We have the same hopes and dreams for them as all children in 
our community and the same commitment to excellence in education. The 
law perpetuates a gross misrepresentation of the commitment of the 
citizens of our community to leave no child behind.''
    The spirit of Public Law 94-142 must be preserved. Common sense 
reform of the IDEA must happen. It is long overdue. In a presentation 
by attorney Elena M. Gallegos of Walsh, Anderson, Brown, Schulze & 
Aldridge P.C. at the Education Law Association's 47' Annual Conference 
in Albuquerque, N.M. on November 17, 2001, she remarked on comments 
made by President Gerald Ford on December 2, 1975 upon his signing of 
P.L. 94-142. President Ford stated in part, ``[T]his bill promises more 
than the federal government can deliver, and its good intentions could 
be thwarted by the many unwise provisions it contains.'' In the March 
2002 Special Education Law Update, Ms. Gallegos points out the negative 
aspects of P.L. 94-142 observed by then-President Gerald Ford that have 
proven true: ``There are other features in the bill which I believe to 
be objectionable and which should be changed. It contains a vast array 
of detailed, complex and costly administrative requirements under which 
tax dollars would be used to support administrative paperwork and not 
educational programs. Unfortunately, these requirements will remain in 
effect even though the Congress appropriates far less than the amounts 
contemplated in [the law].'' President Ford's prophetic words have 
become the reality of public educators across the nation. Although 
Congress has been either unable or unwilling to financially support the 
original statute as envisioned by its creators, Congress must now 
strive to preserve what is working and remove the harm in the statute.
Paperwork mandated by the federal law and regulations must be 
        significantly reduced in volume and complexity
    The paperwork burden is fundamentally detracting from the education 
of students with disabilities. Teachers of students with disabilities 
have the same paperwork requirements as all teachers-i.e. lesson plans, 
grading papers, report cards, and normal written communication to 
parents. In addition, teachers of students with disabilities create 
individualized education plans, send legal written notices regarding 
the convening of IEP meetings, send written legal notices of any change 
in services or changes in placement, and document all written and/or 
verbal communication to parents. At times the process is so burdensome 
that changes that could benefit a student are simply not made. An 
example of the nature of the problem is demonstrated in the following 
scenario of an actual event. A teacher called her local director of 
special education to ask a compliance question. The teacher reported 
speaking with a parent about an academic problem her son with a 
learning disability was having. The teacher and the parent had put 
their heads together and came up with a possible solution-the special 
education teacher would pull the student aside for an additional 20 
minutes of one-on-one instruction two or three times a week as needed 
to pre-teach or re-teach vocabulary words. They were both excited about 
the possibility of reduced frustration on the part of the student and 
the potential for real academic gain. The question was whether the IEP 
team had to be reconvened or whether the agreement of the parent and 
teacher was enough. The common sense response would be to document the 
changes on the IEP and proceed. The reality is that the teacher must 
give the parent notice of the IEP meeting with all required components 
including a copy of Procedural Safeguards for Parents and Children 
under the IDEA. A properly constituted IEP team with all required 
members must be coordinated and an agreeable meeting time scheduled. 
The parent must take off work or otherwise arrange to attend the 
meeting. If an emergency should prevent the parent from attending on 
the scheduled day or time, another legal notice of a rescheduled 
meeting must be provided to the parent with a second copy of procedural 
safeguards. Once' at the meeting, if all members are in agreement with 
the parent and teacher to add some minutes of service, the IEP must be 
rewritten in its entirety to incorporate the change. If service minutes 
are changed even by one minute, a legal notice of change of services 
must be provided in written form to the parent complete with all 
required components. If the student was currently in a modified regular 
education placement and the additional minutes resulted in the total 
service minutes away from non-disabled peers totaling more than 21% of 
the time, a change of placement would be necessary. A change of 
placement requires consideration of a reevaluation. The team must 
complete all the paperwork necessary to document consideration of 
reevaluation and proceed with the evaluation if deemed necessary by the 
IEP team. An additional written legal notice is required to fully 
inform the parent in writing of that decision as well. The end result 
of a good idea shared in a ten-minute conversation between parent and 
teacher that could benefit a child's educational progress has now taken 
over two-and-a-half hours of meeting and paperwork time under the 
requirements of the IDEA. Is it any wonder that both parents and 
teachers, at times, say, ``it just isn't worth the hassle?'' Legally, 
the director could not have responded with the common sense answer of 
simply documenting the change agreed upon by the teacher and parent in 
the existing IEP. To meet the legal definition of a free appropriate 
public education, the district must meet both the excessive procedural 
and substantive requirements. We need to have the flexibility to change 
IEP's during the time span covered by the IEP without sending legal 
notices of a meeting, without convening the full committee or rewriting 
the entire IEP document. A recommendation for addressing the excessive 
time and paperwork burden illustrated in the above scenario would be to 
limit the requirement for a comprehensive IEP meeting to once annually. 
A parent and teacher could agree to make changes, if necessary, in a 
parent-teacher conference during the one-year period of the IEP. Any 
changes to which a teacher and parent agree can be documented in the 
existing IEP with parents receiving a copy of the changes. The focus 
should be on normalizing communications between parent and teacher as 
much as possible as they are striving to provide for the unique, and 
sometimes changing, needs of the student with disabilities.
    Another problem with the complexity of the regulatory aspects of 
the IEP process is the time it takes teachers, counselors, therapists 
and administrators away from the instructional focus of education. Who 
is teaching the children during times when all of the staff are 
involved in marathon IEP meetings, diagnostic conferences, mediation, 
preparation and participation in due process hearings and other 
meetings required by the current special education process? No matter 
how good the substitute teachers are (if you can find one), they can 
never provide the quality of services provided by the child's special 
education teacher. School officials know that one of the 
characteristics of an outstanding school is the time the school staff 
spends on instruction. Pulling staff out of the classroom for all of 
the meetings required by the current special education process 
significantly decreases the amount of time special education teachers 
spend in direct instruction. Children with disabilities do not learn by 
simply being there. Children with disabilities require direct, 
personalized instruction. The child's teacher can best provide such 
instruction. An illustration of the extent of time away from 
instruction required to conduct one IEP meeting per year, of average 
length in time, for all children diagnosed with a disability in the 
Columbia Public School District totals 89,375 hours of lost 
instructional time or the equivalent of 78 school years of instruction.
    Although the extent of the paperwork in special education varies 
from child to child based on the number of IEP meetings, reevaluations 
and notices that are relevant to an individual child's situation, it is 
the complexity of the paperwork that increases the frustration of 
teachers and parents and wastes valuable time and resources. The rules 
are too numerous. Even after extensive training, teachers find it 
necessary to stop and consult with a process coordinator or director of 
special education to ensure compliant paperwork. Veteran teachers are 
as frustrated as novice teachers when the rules change frequently 
through litigation or changes are made at the federal or state level. 
At any point in time, administrators, process coordinators and teachers 
are uncertain how to properly complete the paperwork. This is equally 
as daunting to many parents.
    With increased accountability for the progress of students with 
disabilities, there is a need and a desire on the part of teachers to 
have updated, research-based training on effective practices. Students 
benefit when regular and special education teachers have time to be 
trained together and time to collaboratively plan instruction to meet 
the needs of students with disabilities. The possibilities for those 
opportunities are significantly diminished by the ongoing need to do 
compliance training. The business of teachers is educating children. 
The tail is wagging the dog when the focus of education is directed 
toward paperwork rather than effective instructional practice. As 
examples of this reality, the Columbia Public Schools has a week of 
training for new teachers in the district prior to the beginning of 
school. It takes the entire allocated time for special educators to 
cover procedure mandated by IDEA. The district also schedules several 
release days throughout the year to allow for collaboration among 
educators. Out of necessity, special educators spend a majority of 
those days receiving compliance training. In addition to other mandated 
training, during the 2001-2002 school year the Special Education 
Department of the Columbia Public Schools provided 92.5 hours of 
optional training on a variety of topics dealing with compliance and 
best practice. Over 56% of the training options dealt with compliance 
issues and how and when to fill out required paperwork. Imagine the 
innovative instructional techniques that teachers could have learned in 
92 hours of training if all sessions had targeted improvement of 
instructional practice. Imagine the potential for improvement in 
student achievement. The preamble to the IDEA may talk about the goal 
of focusing on student achievement but we are forced by the law to walk 
a different walk.
    At the heart of appropriate education is a comprehensive evaluation 
resulting in an accurate diagnosis. This is a necessary but time-
consuming process that, according to data compiled over the course of a 
year in the Columbia Public School District, takes between 55 and 87 
man-hours per evaluation.
    Of national concern is the over-identification of minorities in the 
total population of students with disabilities. Of a troubling nature 
to educators is the conflict between over-identification of minorities 
in special education and the need to ensure that every child receives 
and benefits from the services he or she requires.
    An expressed concern has been the purposeful over-identification of 
students with disabilities in order to increase school district 
revenues. It is enlightening to look at data. In a district such as 
Raytown C-2, a suburban school district in greater Kansas City 
Metropolitan area, the district's sources of special education funding 
for the 2000-2001 school year were 8% Federal Part B receipts, 20% 
Missouri receipts, and 72% local receipts. In Missouri, the local tax 
rate is set by a vote of the patrons in the school district. For every 
dollar spent on a new child identified as eligible for special 
education, the district receives eight cents from the federal 
government, twenty cents from Missouri, and the other seventy-two cents 
comes from the local taxpayers. The local tax levy does not 
automatically go up each time a child is identified as having a 
disability. The needed dollars are taken out of the local tax dollars. 
Sometimes they are taken at the expense of other programs and services 
for students without disabilities. School districts operate in a 
limited resource model. There are only so many dollars available and an 
increase in cost in one area must be offset by a decrease in another 
area. There is no financial incentive to over-identify students as 
needing services under IDEA.
Procedural Safeguards for Parents and Children must be rewritten
    Reform needs to occur when a law is so vaguely written that 
litigation is required to give it definition. The IDEA is such a 
statute. Due process is a brutal system. It paralyzes the educational 
system; it paralyzes individuals. The focus is shifted from the child 
to the ``battle.'' The only ones ultimately benefiting are the lawyers. 
The cost of litigation is extraordinary in terms of time, money and 
personnel resources. Regulations need to be imposed on the right of due 
process in order to provide balance and protect the integrity of the 
system. Very few safeguards that exist in civil law proceedings 
regulate or protect due process under the IDEA.
    Paramount to this matter is the lack of disclosure of issues. 
Although the statute is clear that parents must state their issues and 
propose remedies at the time of filing for due process, the regulations 
allow for the proceeding to move forward without doing so. It is not 
uncommon for parents to choose not to disclose issues and to proceed to 
due process with the district blind to the issues it must defend. In a 
recent lawsuit in Missouri, a district implored the parent to disclose 
their points of disagreement and mediate a solution agreeable to both 
parties. The parent refused multiple attempts on the part of the 
district to address their dissatisfaction, including offers of 
mediation, and proceeded with the filing for due process. The parent 
continued to refuse disclosure of their issues of disagreement and the 
district was forced to prepare without knowledge of the matter to be 
resolved-an unnecessarily costly process. A set of issues was 
articulated on the first day of the hearing and additional issues were 
added throughout the proceedings. The parent stated she felt it was the 
hearing panel's responsibility to identify issues for the parent. Prior 
to any allegation being presented at a due process hearing, parents 
should be required to present their concerns in writing to the district 
and the school should have an opportunity to respond in the context of 
an IEP meeting.
    Under the IDEA, there is no safeguard for frivolous lawsuits or 
harassment. Although the vast majority of children with disabilities 
are served successfully through collaborative teamwork between parents 
and teachers, a single due process hearing can cost a district in 
excess of a year's instructional budget even when the district 
prevails. Under the current process, an unfortunate situation with one 
parent, can adversely affect the quality of education for an entire 
community.
    The increasingly excessive number of days a single due process can 
take has added to the prohibitive cost of the proceedings and the 
diverting of teachers' attention away from the instruction of children. 
Once again, a single child's situation can negatively impact a 
teacher's ability to consistently focus on the business of educating 
numerous children on his/her caseload. It is fair to speculate that in 
1975 no one would have anticipated that the average due process hearing 
in the twenty-first century would take in excess of a week or two of 
testimony. Chief hearing officers should be trained to expedite the 
process, setting reasonable number of day limitations for each side to 
present their case. Stipulation of facts and uncontested exhibits 
should be presented for review by the panel without tedious and time-
consuming review of each fact on each page. The toll that either the 
reality of a due process hearing or the fear of a due process hearing 
has on individual teachers is enormous. Teachers of students with 
disabilities enter the field because of their love for children and 
commitment to educating students with disabilities. A process that 
devalues their expertise and calls into question their professional 
judgment at every turn forces them to spend as much time documenting as 
teaching and creates an environment where teachers fail to risk on 
behalf of a child. It takes the joy out of teaching, destroys a 
teacher's quality of life and drives teachers from the field of special 
education. The contentious nature of due process destroys teacher-child 
relationships and parent-teacher relationships resulting in failure to 
trust for years to come. Qualified teachers committed to students with 
disabilities are indispensable in this nation. The IDEA is meaningless 
if we do not have qualified teachers in the classroom. Any aspect of 
the statute that operates to limit that pool has the opposite effect of 
that which the statute intended.
    An additional area of concern under Procedural Safeguards for 
Parents and Children is the provision for an independent educational 
evaluation if a parent is in disagreement with a district's evaluation. 
The fact that parents do not have to disclose the area of disagreement 
does not allow a district the possibility of working with the parent to 
resolve differences. It has become for many a fight for a second 
opinion when there is neither disagreement nor reason to suspect the 
district's report to be incomplete or insufficient. This has resulted 
in the over testing of children adding stress to their lives and 
resulting in loss of educational instruction. According to the statute, 
the district has an option to take a parent to due process to defend 
its evaluation. This presents no real alternative for districts. The 
cost of a due process for the sole purpose of defending an evaluation 
could be $25,000 to $30,000. The cost of an independent evaluation is 
approximately $1500. Both are a needless drain on resources that could 
be better spent on personnel or material resources to enhance the 
education of children with special needs.
    Parents, as well as district personnel, often criticize the 
distribution of procedural safeguards numerous times within a year as 
an example of either federal excess or as contributing to the 
uncomfortable feeling of a legal process as opposed to an educational 
practice. Such a procedure may have made sense in 1975 when the IDEA 
was initiated. It does not make sense in 2002. The IDEA procedural 
safeguards should be published annually for all parents, as are Section 
504 and Family Educational Rights and Privacy Acts notices. It does not 
make sense to provide a 14-page statement of procedural safeguards 
multiple times during a single school year; at times it is required to 
provide them several times within weeks of each other. In addition to 
the expense to print and at times mail the extensive document, it often 
creates a sense of mistrust. An annual presentation of procedural 
safeguards reminds parents of their rights; multiple presentations of 
procedural safeguards in close succession breeds suspicion. Parents 
wonder why they are being told each time they meet that they have the 
right to file a child complaint or go to due process if in disagreement 
with any aspect of their child's IEP. Procedural safeguards, as 
written, give the perception that special education is a hostile, 
confrontational, litigious process. Often at IEP meetings focusing on 
articulation disorders, parents have stated to the coordinator of 
speech/language services, ``Are you a speech pathologist or an 
attorney? I can't believe we have to sign all of these papers to 
remediate a single error sound.'' Others question why we have to 
``destroy a tree'' in order to provide services to their child.
It is imperative that the IDEA is fully funded and that districts are 
        relieved of excessive paperwork and temporal obligations not 
        clearly aimed at the target of student achievement
    Many times the cost of specialized instruction, equipment and 
materials is significant. Districts embrace the concept of leveling the 
playing field to allow students with special needs an equal opportunity 
for high student achievement. Without adequate funds and relief of 
procedural excesses, limited funds will quickly dissipate ultimately 
resulting not only in lack of sufficient resources for students with 
special needs but also diminished regular teacher resources, materials 
and equipment. All students suffer under this reality for the majority 
of students with special needs spend the are fine in spirit but 
insufficient in practice. When money runs out in the budgets of 
agencies such as the Department of Mental Health and Division of Family 
Services, services are terminated. When an agency feels a family is not 
cooperating or staff of the agency is not trained to deal with a 
situation, families are turned away. Children are complex human beings. 
The well being of our nation tomorrow depends on the total well being 
of our children today. Children bring issues to school that are well 
beyond the scope of training for an educator. The concept of 
collaboration needs to be replaced with mandated services for children 
and shared partnerships with schools for the benefit of children. An 
example of the nature of the problem is demonstrated in the following 
scenario of an actual event. A young man was becoming increasing 
aggressive at home, school and in the community. His behaviors were 
dangerous to himself and endangered others. His parent, in 
collaboration with the school, admitted him for evaluation and 
treatment at a crisis treatment center operated by the Department of 
Mental Health. After 24 hours, the mental health worker called a 
meeting with the parent and special educator. The mental health worker 
reported they were unprepared and lacked specific training to deal with 
the severity of the condition of the child at the mental health center 
even on the lock treatment ward. Consequently, they would not be able 
to serve the child. The child returned home that evening and to public 
school the next day. The question is, ``If agencies whose function it 
is to address the mental health needs of persons within a community are 
challenged beyond their expertise, what good does it do the child to be 
returned to a far lesser restrictive environment under the supervision, 
instruction, and care of those with little or no training in the area 
of mental health.'' This is clearly a case where mandated zero reject 
on the part of both agencies could potentially have resulted in a 
combined treatment-education plan to improve the mental health 
condition of the child and readiness for continued academic progress.
                                summary
    Special education works well for the vast majority of students with 
special needs. We must preserve what works and fix what doesn't through 
common sense reform. The Achilles heel of special education is 
comprised of complex and inter-related issues. With our sites clearly 
set on student outcomes, the heart of the problem and the heart of the 
solution rest with preparing and retaining quality special educators in 
sufficient number to meet the needs of a diverse population of students 
with disabilities. Without the teachers, we can turn out the lights and 
go home. In October 2000, The Council for Exceptional Children (CEC) 
published a report entitled Conditions for Special Education Teaching: 
CEC Commission Technical Report. The informants represented a variety 
of stakeholders. The conclusions are enlightening. Special education 
teachers leaving the field combined with fewer pre-service teachers 
being interested in pursuing a career in special education is at crisis 
level in our nation. We must respond with real answers to real 
concerns. According to the CEC publication Bright Futures Technical 
Report-Part 5, No barrier is so irksome to special educators as the 
paperwork that keeps them from teaching. The overwhelming requirements 
of paperwork were ranked as the third most important concern (out of a 
list of 10 issues) coming in behind caseload and time for planning. 
While special educators understand the need for the IEP, both as an 
educational guide and legal document, they struggle with all the time 
the process requires.
    As special educators we wear many hats. We are required to be case 
managers, consultants, classroom teachers, secretaries, and 
disciplinarians . . .
    My frustration is trying to be ``all things to all people''. I am 
supposed to keep perfect paperwork, collaborate with regular educator 
teachers, train and grade peer tutors, keep in constant contact with 
parents, and still find time to teach my students! The most effective 
way for Congress to improve the quality of special education is to 
increase and protect the time special education teachers have for 
collaboration with regular educators and for direct instruction with 
children. This would go a long way toward insuring an adequate number 
of special educators in the future. Necessary components of the 
solution include:
    Reduce the excessive paperwork burden that materially detracts from 
available planning and instructional time.
    Provide full funding to employ a sufficient number of appropriately 
trained special educators and to purchase specialized materials and 
equipment without diminishing the quality of education for all 
children.
    Revise due process procedures to include regulations (mandatory 
disclosure of issues, mediation, time limits and incentives for 
advocacy agencies to resolve issues) and protections (frivolous 
lawsuits, harassment, etc.) that promote trusting, positive, long-
lasting relationships with parents and prevent catastrophic drain of 
finite educational resources.
    Designate additional social service agencies, such as the 
Department of Mental Health, as zero reject agencies to act in 
partnership with public schools on behalf of children.
    Continue to fund effective existing programs and encourage the 
creation of additional programs for children in poverty, or who are 
otherwise at-risk of failure in school, to prevent the over-
identification of students with disabilities. Effective existing 
programs would include, but not be limited to, Head Start, Parents as 
First Teachers, First Steps, Title 1, and programs for migrant workers 
and homeless children.
    Prepared Statement of the National Association of School Nurses
    The National Association of School Nurses, or NASN, is the 
professional nursing organization of over 11,000 nurses throughout the 
United States. NASN is dedicated to improving the health and 
educational success of children and youth in our nation. NASN supports 
the health and safety of children in schools throughout the United 
States. We submit this statement regarding reauthorization of IDEA.
    There are currently 47,000 school nurses throughout the United 
States. School nurses are hired primarily through public Boards of 
Education. School nurses provide a variety of health care services to 
children in school, including the increasing number of children with 
disabilities who are in our schools today. NASN would like to make four 
recommendations regarding the reauthorization of IDEA:
    1) The professional school nurse should be added, in name, to the 
related services section and included as part of the IEP;
    2) Full funding of IDEA;
    3) Early intervention and preschool services must be available to 
all eligible children; and
    4) School nurse to student ratios must be reduced.
    IDEA guarantees that eligible children with disabilities have the 
right to receive a free appropriate public education in the least 
restrictive setting. For an increasing number of children with 
disabilities, access to education is only achieved through the 
provision of necessary and frequent complex health services such as the 
administration of intravenous medications, nebulizer treatments, 
catherterization, tracheotomy care, gastrostomy care tube feeding, etc. 
These are complex procedures and cannot be safely or legally done by 
other personnel. Only qualified school nurses should perform these 
procedures.
    NASN believes that children with disabilities and severe medical 
problems have the right to receive these specialized health services 
required to assure their inclusion and safety in the school environment 
by a nurse and not by other personnel. The recent Supreme Court 
decision of Garret F reiterates the school's responsibility to provide 
services for these children but has not adequately funded the process 
to do this. Although in this case the child required multiple services, 
the presence of a school nurse would allow a child with asthma to 
safely participate in all school activities, including a PE program. 
Recent newspaper headlines have shown the danger in allowing other 
individuals to give medications and perform special procedures for 
children with medical problems or disabilities. The rate of treatment 
errors rises when non-nursing staff delivers medications. The results 
of using non-nursing staff can have dangerous and life threatening 
consequences. NASN believes that school nurses are a crucial component 
in the successful mainstreaming of children with disabilities in our 
schools.
    1) NASN recommends that the professional school nurse be added to 
the related services section of IDEA and that the school nurse be 
included as part of the multidisciplinary team. Related services 
personnel, which school nurses would be defined under, are important 
members of the Individualized Education Program or IEP team. NASN 
believes that school nurses must be specifically included, in name--
school nurse, under ``related services personnel'' and that a school 
nurse be part of the team that confers and constructs the IEP. This 
term should not be open for interpretation. It should clearly 
articulate the child's right to a school nurse.
    In many jurisdictions, school nurses are not included in the IEP 
team. In some cases, the school nurse is not invited to attend. The law 
supports this exclusion by clearly stating the school district or 
parents may request the presence of related services personnel. In all 
too many cases, there is no school nurse at the school to invite. 
Individuals without requisite training and supervision put children 
with disabilities at even greater risk than their current status.
    The school nurse is a crucial member of the multidisciplinary team 
that develops the IEP. The school nurse brings nursing expertise which 
is critical in determining the health services necessary for successful 
inclusion. Because children with chronic and special health care needs 
have unique health considerations, the individual assessment, planning, 
intervention and placement decisions in an IEP are critical in order 
for them to attend school and fully participate in educational 
activities, programs and learn. School nurses provide direct services 
from initial assessment and diagnosis to treatment and maintenance of 
health care for children who experience problems that interfere with 
their learning. The IEP process promotes individualizing educational 
approaches to the individual child. School nurses are experts in 
assisting teachers and parents in identifying problems, utilizing 
community resources and removing health barriers to learning within the 
community of education. School nurses are the link to the medical 
community. They speak the language of ``education-ese'' and ``medical-
ese''. School nurses have an integral role in developing an IEP and in 
providing health care services under IDEA to students with disabilities 
and should be included as such.
    2) NASN believes that IDEA should be fully funded. Congress enacted 
IDEA to ensure that states would educate all students with 
disabilities. Part B of IDEA authorized the federal government to pay 
up to 40% of the cost of educating students with disabilities. Congress 
has only funded up to 15% of the cost of educating students with 
disabilities. Funding for the infants and toddlers program has not even 
kept pace with inflation. Full funding would allow for the provision of 
needed services. Full funding should not weaken eligibility.
    3) Early intervention and preschool services must he available to 
all eligible children.
    Programs to allow states to create family-centered systems of 
services are necessary to ensure that infants, toddlers and 
preschoolers are prepared for school. The earlier a health or learning 
disability is found, the better the outcome will be for the child. 
States must have the ability to screen and identify children in order 
for this to occur. Increasing the number of school nurses that are 
present in preschool areas can provide valuable assistance to assure 
that disabilities are identified and that an appropriate plan is 
created for these children.
    4) School nurse to student ratios must be reduced or learning will 
be further compromised.
    NASN supports the 2010 objective for a school nurse ratio to 
students of 1:750. Some schools have caseloads of 1:14,000. It is not 
uncommon for a school nurse to be responsible for an entire county or 
district. Case loads of 1:3000 or 1:4000 are not uncommon. Given that a 
school nurse may be caring for a large number of children with 
disabilities that require intensive medical procedures, care and 
education will be compromised with case loads this high. High dropout 
rates among students with disabilities have been correlated with the 
shortage of qualified personnel. Part D personnel preparation have been 
cut or level-funded over the last five fiscal years and should be 
increased. Personnel preparation grants are crucial to ensuring an 
adequate supply of qualified personnel, such as school nurses.
    NASN looks forward to working with Congress this year on the 
reauthorization of IDEA. Thank you.
                  Prepared Statement of Donna Martinez
    This is my son, Andres Martinez, but his family and friends call 
him Andy. Andy is 16 years old and a freshman in Fairfax County Public 
Schools, Centreville High School in northern Virginia. He is attending 
his neighborhood school. Due to IDEA, the law that is in debate today, 
Andy has had the opportunity and the right to be with his neighbors and 
friends to go to the same school for his entire school career. He has 
had access and instruction in the same curriculum that his friends have 
had. Because of that, Andy is able to read, do algebraic equations, 
study world history, and be expected to know more than the McDonald's 
or Mall Curriculum.
    Were it not for Early Intervention, Andy would have languished at 
home and I would never have developed the partnering skills I now have 
for being an active and integral element in the development of Andy's 
school program. Early Intervention assured us that he would develop 
more rapidly and be able to match the milestones that others his age 
were reaching naturally and without intense interventions. As a result 
of Early Interventions Andy was ready to join up with his Kindergarten 
friends and learn side by side with them, developing the relationships 
that mold an individual's character and personality.
    IDEA has been the cause of Andy's successes in many other ways. We 
have moved school to school, district to district, state to state. 
Andy's IEP as defined by IDEA has been the cornerstone of his success. 
It insured that each transition to a new school would be a seamless 
one. And in those schools where it would appear the seams just might 
unravel as the director of Special Education would claim, ``But we 
don't do that here,'' they soon discovered that indeed they do and do 
it well after some direction and practice as laid out in my son's IEP. 
We have never had to invoke our Due Process rights, but knowing that 
they were always an option, promoted, I feel a more proactive solution 
to the differences of opinions that on occasion threatened the 
successful completion of his IEP and school year.
    IDEA has allowed not only Andy to be successful, but also the staff 
of professionals who support him. IDEA's authorization for Independent 
Education Evaluations for families who disagree with the school 
evaluations provided us with an in-depth and accurate information from 
which to develop a tremendous document that will direct Andy's 
education for the ensuing year. As a result of the accommodations for 
not only Andy, but the staff for further training and consultation in 
the area of Inclusion and adaptation, the staff is gaining valuable 
insight and instruction that will lead them to providing a curriculum 
that is based on best practices. This continued support for the people 
that direct my son's education has lead to exciting paradigm shifts and 
effected significant changes within the systems and structures of the 
school itself.
    But now we face the dilemma of how to develop and sustain a 
responsive curriculum and education based upon this wonderful document. 
So that no child, including Andy, not be left behind, IDEA must be 
fully funded, as directed when initially designed. Without the full 
funding of IDEA we are burdened continuously with the concern that Andy 
has the staff supports, adaptations and assistive technology that 
allows him continued access to the general education curriculum, 
including and through his high school and early college years. Special 
Education Directors and Superintendents have become gatekeepers for the 
insufficient Rinds that effect Andy's access to the curriculum. New 
funding formulas must be put in place that will allow the flow of 
funding to be appropriated as was promised in a speedy and direct 
fashion.
    Continued support in the area of training, not only for the direct 
teaching staff, but for the administrative staff as well is crucial. 
Administrators must realize that All means All. Their students with 
disabilities need to be counted and they need to be held accountable. 
Students must be counted in the classrooms, they must be counted for 
access to the books and materials from which to learn, and they must be 
accurately counted to show their successes.
    I urge you and all on the committees and the floors of Congress to 
reauthorize IDEA and assure that Andy will indeed have the education 
that is his civil right.

    [Whereupon, at 1:07 p.m., the committee was adjourned.]

                                    

      

</pre></body></html>
